APPENDIX TO
PETITION FOR A WRIT OF CERTIORARI
TABLE OF CONTENTS
Opinion of the Supreme Court of Florida (Jan.
23, 2020) .....................................................................1a
Interim Order of the Circuit Court of the Tenth
Judicial Circuit on Motion to Vacate Judgment
of Conviction and Sentence (Mar. 29, 2017) ...........58a
Order of the Circuit Court of the Tenth
Judicial Circuit on Defendant’s Motion to
Vacate Judgment of Conviction and Sentence
(Jan. 9, 2018)............................................................68a
Order of the Supreme Court of Florida
Denying Rehearing (Apr. 2, 2020).........................168a
U.S. Constitution, Amendment VI ........................170a
U.S. Constitution, Amendment VIII .....................171a
FLA. STAT. § 775.082(1) (2011) ...............................172a
FLA. STAT. § 921.141 (2010) ...................................173a

1a

Supreme Court of Florida
No. SC18-245
STATE OF FLORIDA,
Appellant/Cross-Appellee,
vs.
MARK ANTHONY POOLE,
Appellee/Cross-Appellant.
January 23, 2020
PER CURIAM.
The State of Florida appeals from a postconviction
order setting aside Mark Anthony Poole’s 2011 death
sentence for the 2001 murder of Noah Scott. The
sentence became final in 2015. Poole v. State (Poole
II), 151 So. 3d 402 (Fla. 2014), cert. denied, 135 S. Ct.
2052 (2015).1 The trial court set aside the sentence
and ordered a new penalty phase proceeding after
finding the sentence to have been imposed in violation
of the United States and Florida Constitutions as
interpreted and applied in Hurst v. State, 202 So. 3d
40 (Fla. 2016). Arguing that Poole suffered no
1 We have jurisdiction. See art. V, § 3(b)(1), Fla. Const.; State
v. Fourth Dist. Court of Appeal, 697 So. 2d 70, 71 (Fla. 1997).

2a
constitutional deprivation in his sentencing
proceeding, the State requests that we reexamine and
partially recede from Hurst v. State.
Poole filed a cross-appeal, arguing that his trial
counsel’s concession of guilt on related non-homicide
offenses violated his Sixth Amendment right to
counsel and constituted structural error requiring
reversal of his convictions and a new guilt phase trial.
We address the cross-appeal first because relief on
Poole’s guilt phase postconviction claim would moot
the sentencing issue. The trial court rejected the guilt
phase claim, and we affirm the trial court as to this
issue because Poole did not preserve the issue for
review on appeal. As for the sentencing issue, we
agree with the State that we must recede from Hurst
v. State except to the extent that it held that a jury
must unanimously find the existence of a statutory
aggravating circumstance beyond a reasonable doubt.
Accordingly, we reverse the portion of the trial court’s
order setting aside Poole’s sentence.
BACKGROUND
The opinion on direct appeal set out the following
facts:
Mark Anthony Poole was convicted
of the first-degree murder of Noah Scott,
attempted first-degree murder of Loretta
White, armed burglary, sexual battery of
Loretta White, and armed robbery.
Poole was convicted based on the
following facts presented at trial. On the
evening of October 12, 2001, after
playing some video games in the

3a
bedroom of their mobile home, Noah
Scott and Loretta White went to bed
sometime between 11:30 p.m. and 12
a.m. Later during the night, White woke
up with a pillow over her face and Poole
sitting on top of her. Poole began to rape
and sexually assault her as she begged
Poole not to hurt her because she was
pregnant.
As White struggled and
resisted, Poole repeatedly struck her
with a tire iron. She put her hand up to
protect her head, and one of her fingers
and part of another finger were severed
by the tire iron.
While repeatedly
striking White, Poole asked her where
the money was. During this attack on
White, Scott attempted to stop Poole, but
was also repeatedly struck with the tire
iron. As Scott struggled to defend White,
Poole continued to strike Scott in the
head until Scott died of blunt force head
trauma. At some point after the attack,
Poole left the bedroom and White was
able to get off the bed and put on clothes
but she passed out before leaving the
bedroom.
Poole came back in the
bedroom and touched her vaginal area
and said “thank you.” White was in and
out of consciousness for the rest of the
night. She was next aware of the time
around 8 a.m. and 8:30 a.m. when her
alarm went off.
When her alarm went off, White
retrieved her cell phone and called 911.

4a
Shortly thereafter, police officers were
dispatched to the home. They found
Scott unconscious in the bedroom and
White severely injured in the hallway by
the bedroom.
White suffered a
concussion and multiple face and head
wounds and was missing part of her
fingers. Scott was pronounced dead at
the scene. Evidence at the crime scene
and in the surrounding area linked Poole
to the crimes. Several witnesses told
police officers that they saw Poole or a
man matching Poole’s description near
the victims’ trailer on the night of the
crimes. Stanley Carter stated that when
he went to the trailer park around 11:30
that night, he noticed a black male
walking towards the victims’ trailer.
Carter’s observations were consistent
with that of Dawn Brisendine, who knew
Poole and saw him walking towards the
victims’ trailer around 11:30 p.m.
Pamela
Johnson,
Poole’s
live-in
girlfriend, testified that on that evening,
Poole left his house sometime in the
evening and did not return until 4:50
a.m.
Poole was also identified as the
person selling video game systems
owned by Scott and stolen during the
crime. Ventura Rico, who lived in the
same trailer park as the victims, testified
that on that night, while he was home
with his cousin’s girlfriend, Melissa

5a
Nixon, a black male came to his trailer
and offered to sell him some video game
systems. Rico agreed to buy them for
$50, at which point the black male
handed him a plastic trash bag. During
this exchange, Nixon got a good look at
the man and later identified Poole when
the
police
showed
her
several
photographs. Nixon testified that the
next morning, when her son was going
through the trash bag, he noticed that
one of the systems had blood on it.
Pamela Johnson also testified that on
the same morning, she found a game
controller at the doorstep of Poole’s
house, she handed it to Poole, and Poole
put it in his nightstand. She indicated
that she had never seen that game
controller before that morning and did
not know what it would be used for
because neither she nor Poole owned any
video game systems. During the search
of Poole’s residence, the police retrieved
this controller. In addition, the police
retrieved a blue Tommy Hilfiger polo
shirt and a pair of Poole’s Van shoes,
shoes Poole said he had been wearing on
the night of the crimes. A DNA analysis
confirmed that the blood found on the
Sega Genesis box, Super Nintendo, Sega
Dreamcast box and controller matched
the DNA profile of Scott. Also, a stain
found on the left sleeve of Poole’s blue
polo shirt matched White’s blood type.

6a
The testing of a vaginal swab also
confirmed that the semen in White was
that of Poole. A footwear examination
revealed that one of the two footwear
impressions found on a notebook in the
victims’ trailer matched Poole’s left Van
shoe. The tire iron used in the crimes
was found underneath a motor home
located near the victims’ trailer. A DNA
analysis determined that the blood found
on this tire iron matched Scott’s DNA
profile.
Poole v. State (Poole), 997 So. 2d 382, 387-88 (Fla.
2008) (footnote omitted).
The trial began on April 21, 2005, and the jury
returned a verdict six days later finding Poole guilty of
all charges, namely first-degree murder of Noah Scott,
attempted first-degree murder of Loretta White,
armed burglary, sexual battery of Loretta White, and
armed robbery. The penalty phase began on May 2,
2005. The jury recommended death by a vote of twelve
to zero two days later, which allowed the trial court to
consider a death sentence under section 921.141,
Florida Statutes (2005). On August 25, 2005, the trial
court sentenced Poole to death.
On direct appeal Poole raised a number of
challenges to his convictions and death sentence,
including that his death sentence violated the dictates
of Ring v. Arizona, 536 U.S. 584 (2002), because
Florida’s statutory sentencing scheme did not require
the jury to unanimously find all of the aggravators
necessary to impose a death sentence. Poole, 997 So.
2d at 396. This Court rejected that argument, holding

7a
that Florida’s capital sentencing scheme was not
unconstitutional pursuant to Ring. Id. Alternatively,
we held that Poole’s case fell outside the scope of Ring
because the jury had unanimously found that Poole
committed other violent felonies during the murder—
specifically attempted first-degree murder, sexual
battery, armed burglary, and armed robbery. Id.
Those convictions unanimously found by Poole’s jury
formed the basis of one of the statutory aggravators
found by the trial court—that Poole had prior violent
felony convictions. Id. Thus, this case fell “outside the
scope of Ring.” Id. However, this Court determined
that Poole was entitled to a new penalty phase
proceeding because the prosecutor improperly
introduced inadmissible nonstatutory aggravation by
cross-examining witnesses about unproven prior
arrests and the unproven content of a tattoo on Poole’s
body. Id. at 393-94. We vacated Poole’s sentence of
death and remanded for a new penalty phase. Id. at
394.
On June 29, 2011, following a new penalty phase,
the jury recommended death by a vote of 11 to 1. Poole
II, 151 So. 3d at 408. The trial court found four
aggravating circumstances: (1) the contemporaneous
conviction for the attempted murder of Loretta White
(very great weight); (2) the capital felony occurred
during the commission of burglary, robbery, and
sexual battery (great weight); (3) the capital felony
was committed for financial gain (merged with
robbery but not burglary or sexual battery) (less than
moderate weight); and (4) the capital felony was
committed in a heinous, atrocious, or cruel (HAC)
manner (very great weight). Id. Again, three of these
four aggravators were found unanimously by the jury

8a
because the jury found Poole guilty of the other
charged crimes on which these aggravators are based.
The trial court found two statutory mitigating
circumstances: (1) the capital felony was committed
while the defendant was under the influence of
extreme mental or emotional disturbance (moderate to
great weight); and (2) the defendant’s capacity to
appreciate the criminality of his conduct or conform
his conduct to the requirements of the law was
substantially impaired (great weight). It found eleven
nonstatutory mitigating circumstances:
(1) borderline intelligence (little weight);
(2) defendant dropped out of school (very
little weight); (3) loss of father figure had
emotional effect and led to his drug
abuse (very little weight); (4) defendant
sought help for drug problem (very little
weight); (5) defendant had an alcohol
problem at time of crime (very little
weight); (6) drug abuse problem at time
of crime (very little weight); (7)
defendant has a relationship with son
(very little weight); (8) strong work ethic
(very little weight); (9) defendant is a
religious person (very little weight); (10)
dedicated uncle (very little weight); and
(11) defendant needs treatment for
mental disorder unrelated to substance
abuse (very little weight). The trial court
determined that the proposed mitigator
that the defendant has severe chronic

9a
alcohol and cocaine problem for which he
needs treatment was not proven.
Id.
The trial court concluded that the aggravating
factors far outweighed the mitigating circumstances;
specifically, the HAC aggravator alone outweighed all
mitigating circumstances. Id. Accordingly, the trial
court sentenced Poole to death on August 19, 2011,
and we upheld the trial court’s resentencing on June
26, 2014. Id. at 419.
On April 8, 2016, Poole filed his initial
postconviction motion, raising two issues pertinent to
this appeal: (1) counsel was ineffective for conceding
that Poole committed the nonhomicide offenses; and
(2) Poole is entitled to resentencing because the jury
did not make the findings required by Hurst v. State.
The trial court entered an interim order vacating
Poole’s death sentence pursuant to Hurst v. State,
finding the error was not harmless because the jury’s
recommendation of death was not unanimous.
Following an evidentiary hearing, the trial court
denied Poole’s claim that counsel was ineffective for
conceding guilt on the nonhomicide offenses. The trial
court granted the State’s request for a stay of its order
requiring a new penalty phase, pending this appeal.
GUILT PHASE CLAIM
Poole argues that he is entitled to a new trial
because, over his express objections, defense counsel
conceded Poole’s guilt on the non-homicide offenses.
Poole bases this claim on McCoy v. Louisiana, 138 S.

10a
Ct. 1500 (2018).2 The State argues that Poole failed to
preserve the specific legal argument that he raises on
appeal and thus this issue was waived. We agree.
“In order to preserve an issue for appeal, the issue
‘must be presented to the lower court and the specific
legal argument or grounds to be argued on appeal
must be part of that presentation.’” Bryant v. State,
901 So. 2d 810, 822 (Fla. 2005) (emphasis added)
(quoting Archer v. State, 613 So. 2d 446, 448 (Fla.
1993)). Raising a claim for the first time during
closing arguments is insufficient to preserve a
postconviction claim. Deparvine v. State, 146 So. 3d
1071, 1103 (Fla. 2014). Rather, the specific legal
argument must be raised in the postconviction motion.
Wickham v. State, 124 So. 3d 841, 853 (Fla. 2013).
Applying these principles here, we conclude that Poole
did not preserve this claim for appellate review.
In his postconviction motion, Poole argued that
counsel’s concession of guilt on the nonhomicide
offenses violated Poole’s rights to remain silent and to
the attorney-client privilege under the Fifth and Sixth
Amendments. Poole emphasized the specific wording
of counsel’s concession, noting that counsel told the
jury that Poole “acknowledges” that he committed
burglary, sexual battery, and robbery.
Poole
contrasted “acknowledging” that a defendant
2 In McCoy, the Supreme Court reviewed a state supreme
court decision affirming the petitioner’s murder conviction on
direct appeal. See McCoy, 138 S. Ct. at 1507. The Supreme Court
decided McCoy on direct appeal. Because we have concluded that
Poole did not preserve his guilt phase claim for appellate review,
we need not address how McCoy’s holding applies in the
postconviction context. See Weaver v. Massachusetts, 137 S. Ct.
1899 (2017).

11a
committed a crime with simply conceding that a
charge has been proven by the state. In the former
case, according to Poole’s motion, “the attorney-client
privilege is violated, and the right to remain silent is
waived, opening the door to rebuttal evidence and
argument.”
The argument that Poole now raises on appeal did
not appear until written closing argument. Only then
did Poole assert that counsel’s concession of guilt
without Poole’s consent violated Poole’s constitutional
rights. Poole’s written closing argument presented
this argument as one of “two errors,” each of which
“individually would constitute grounds for vacating
Mr. Poole’s conviction.” (The other error, of course,
was the one he asserted in his postconviction motion—
the alleged violation of Poole’s rights to remain silent
and to the attorney client privilege.) Poole presented
each argument under a separate heading in his closing
argument memorandum and said that the second
argument (his original argument) provided “additional
grounds for vacating Mr. Poole’s conviction.”
Poole’s postconviction motion did not present the
specific legal argument that he now presses on appeal.
Raising the argument in his post-hearing, written
closing argument memorandum was insufficient.
Therefore, we hold that Poole did not preserve his guilt
phase argument for our review on appeal.
SENTENCING PHASE CLAIM
We now turn to the State’s argument that Poole
suffered no constitutional deprivation in his
sentencing proceeding and that we should partially
recede from Hurst v. State.

12a
I.

Statutory and Legal Background

A. Florida’s Capital Sentencing Law
Poole was sentenced to death under the familiar
statutory framework that governed Florida’s capital
sentencing proceedings from 1973 until 2016. Florida
adopted that framework in response to the Supreme
Court’s decision in Furman v. Georgia, 408 U.S. 238
(1972). “A fair statement of the consensus expressed
by the Court in Furman is that ‘where discretion is
afforded a sentencing body on a matter so grave as the
determination of whether a human life should be
taken or spared, that discretion must be suitably
directed and limited so as to minimize the risk of
wholly arbitrary and capricious action.’” Zant v.
Stephens, 462 U.S. 862, 874 (1983) (quoting Gregg v.
Georgia, 428 U.S. 153, 189 (1976) (plurality opinion)).
The Supreme Court has fleshed out this principle by
requiring states to narrow the class of death-eligible
murders and by mandating individualized sentencing
that
considers
offender-specific
mitigating
circumstances.
Florida’s capital sentencing procedures begin with
an evidentiary hearing at which the judge and jury
hear evidence relevant to the nature of the crime and
the character of the defendant, including statutory
aggravating
and
mitigating
circumstances.
§ 921.141(1), Fla. Stat. (2011).3
Next the jury
deliberates and renders an “advisory sentence” to the
court.
§ 921.141(2), Fla. Stat.
Finally,
“[n]otwithstanding the recommendation of a majority
3 For simplicity, unless otherwise indicated, throughout our
discussion we refer in the present tense to Florida’s capital
sentencing law as it existed in 2011, when Poole was resentenced.

13a
of the jury, the court, after weighing the aggravating
and mitigating circumstances,” must enter a sentence
of life imprisonment or death. § 921.141(3), Fla. Stat.
If the court imposes a sentence of death, it is required
to issue written findings “upon which the sentence of
death is based as to the facts: (a) [t]hat sufficient
aggravating circumstances exist as enumerated in
subsection (5); and (b) [t]hat there are insufficient
mitigating circumstances to outweigh the aggravating
circumstances.” Id.
Soon after the legislature adopted this capital
sentencing framework, this Court in State v. Dixon,
283 So. 2d 1 (Fla. 1973), considered whether the new
law passed muster under Furman.
The Court
concluded that it did, because the statutory scheme
“controlled and channeled” discretion “until the
sentencing process becomes a matter of reasoned
judgment.” Id. at 10.
B. From Proffitt to Walton
In several cases that are directly relevant to the
issues before us now, the Supreme Court itself
considered and rejected Sixth and Eighth Amendment
challenges to Florida’s post-Furman capital
sentencing law. In Proffitt v. Florida, 428 U.S. 242
(1976), the Court took up the question whether
Florida’s capital sentencing system complied with the
Eighth Amendment. The Court noted that, in Florida,
the “jury’s verdict is determined by majority vote. It
is only advisory; the actual sentence is determined by
the trial judge.” Id. at 248-49. No matter, the Court
concluded, because the Court’s decisions had “never
suggested that jury sentencing is constitutionally
required.” Id. at 252. The Court’s ultimate holding in

14a
Proffitt was that “[o]n its face the Florida system . . .
satisfies the constitutional deficiencies identified in
Furman.” Id. at 253.
Next, in Spaziano v. Florida, 468 U.S. 447, 457
(1984), the Supreme Court considered whether
Florida’s capital sentencing system violated the Sixth
or Eighth Amendment by allowing the trial judge to
override a jury’s recommendation of life. Id. at 457.
As to the Sixth Amendment, the Court observed that,
“despite its unique aspects, a capital sentencing
proceeding involves the same fundamental issue
involved in any other sentencing proceeding—a
determination of the appropriate punishment to be
imposed on an individual.” Id. at 459. And “[t]he
Sixth Amendment never has been thought to
guarantee a right to a jury determination of that
issue.”
Id.
The Court also found no Eighth
Amendment violation in the possibility of a jury
override: “We are not persuaded that placing the
responsibility on a trial judge to impose the sentence
in a capital case is so fundamentally at odds with
contemporary standards of fairness and decency that
Florida must be required to alter its scheme and give
final authority to the jury to make the life-or-death
decision.” Id. at 465. The Court concluded that “there
is no constitutional imperative that a jury have the
responsibility of deciding whether the death penalty
should be imposed.” Id.
Finally, in Hildwin v. Florida, 490 U.S. 638, 639
(1989), the Supreme Court considered a claim that
“the Florida capital sentencing scheme violates the
Sixth Amendment because it permits the imposition of
death without a specific finding by the jury that
sufficient aggravating circumstances exist to qualify

15a
the defendant for capital punishment.” The Court
rejected the claim, reasoning that “the existence of an
aggravating factor here is not an element of the offense
but instead is ‘a sentencing factor that comes into play
only after the defendant has been found guilty.’” Id.
at 640 (quoting McMillan v. Pennsylvania, 477 U.S.
79, 86 (1986)). Based on that premise, the Court held
that “the Sixth Amendment does not require that the
specific findings authorizing the imposition of the
sentence of death be made by the jury.” Id. at 640-41.
A final, non-Florida case bears explaining before
we turn to the cases that led directly to Hurst v. State.
Decided one year after Spaziano, Walton v. Arizona,
497 U.S. 639 (1990), involved a challenge to Arizona’s
capital sentencing law, which required the trial court
to find and weigh aggravating and mitigating
circumstances before imposing a death sentence. The
Arizona law under review did not include any role for
the jury in the capital sentencing process. The
petitioner in Walton argued that “every finding of fact
underlying the sentencing decision must be made by a
jury, not by a judge” and that therefore “the Arizona
scheme would be constitutional only if a jury decides
what aggravating and mitigating circumstances are
present in a given case and the trial judge then
imposes sentence based on those findings.” Id. at 647.
The Court rejected that claim, relying largely on
Hildwin and the Court’s other decisions upholding
Florida’s capital sentencing system.
The argument that Florida’s advisory jury verdict
materially distinguished the two states’ systems did
not persuade the Court.
Instead, the Court
emphasized that Florida’s capital jury does not make
specific factual findings about aggravators and

16a
mitigators and that the jury’s recommendation is not
binding on the trial judge. Id. at 647-48. The Court
reasoned that “[a] Florida trial court no more has the
assistance of a jury’s findings of fact with respect to
sentencing issues than does a trial judge in Arizona.”
Id. at 648. The Court also rejected the argument that,
in Arizona, aggravating factors were “elements of the
offense.” Id. The Court ultimately held that “the
Arizona capital sentencing scheme does not violate the
Sixth Amendment.” Id. at 649.
C. Apprendi and Ring
The Court’s retreat from the rationale underlying
the Sixth Amendment holdings of Spaziano, Hildwin,
and Walton—specifically, that aggravators are
sentencing factors rather than de facto elements of the
crime of capital murder— began with the seminal case
of Apprendi v. New Jersey, 530 U.S. 466 (2000).
Apprendi had pleaded guilty to illegal possession of a
firearm, an offense that carried a maximum
punishment of ten years’ imprisonment. Later, in a
separate sentencing proceeding, the trial court found
by a preponderance of the evidence that Apprendi had
also violated a New Jersey hate crime sentencing
statute. That judicial finding resulted in Apprendi
being sentenced to a term of imprisonment two years
above the statutory maximum for the base firearm
offense. The Supreme Court described the question
presented in Apprendi as whether the Fourteenth
Amendment’s Due Process Clause “requires that a
factual determination authorizing an increase in the
maximum prison sentence for an offense from 10 to 20
years be made by a jury on the basis of proof beyond a
reasonable doubt.” Id. at 469.

17a
The Court’s analysis proceeded from the
foundational principle that the Fifth Amendment (due
process) and the Sixth Amendment (jury trial)
combine to “entitle a criminal defendant to a ‘jury
determination . . . of every element of the crime with
which he is charged, beyond a reasonable doubt.’” Id.
at 477 (quoting United States v. Gaudin, 515 U.S. 506,
510 (1995)). From that principle the Court derived the
more specific rule that is the central holding of
Apprendi: “[I]t is unconstitutional for a legislature to
remove from the jury the assessment of facts that
increase the prescribed range of penalties to which a
criminal defendant is exposed. It is equally clear that
such facts must be established by proof beyond a
reasonable doubt.” Id. at 490 (Stevens, J., concurring)
(alteration in original) (quoting Jones v. United States,
526 U.S. 227, 252-53 (1999)). The only exception to
this rule is “the fact of a prior conviction.” Id.
Most pertinent to our case here, the Court in
Apprendi rejected New Jersey’s argument that the
factual finding supporting Apprendi’s hate crime
sentencing enhancement was a mere “sentencing
factor,” rather than a fact that constitutes an element
of the offense. Id. at 494. The Court stated: “Despite
what appears to us the clear ‘elemental’ nature of the
factor here, the relevant inquiry is one not of form but
of effect—does the required finding expose the
defendant to a greater punishment than that
authorized by the jury’s guilty verdict[.]” Id.
In the penultimate paragraph of its opinion, the
Court anticipated and rejected the argument that “the
principles guiding” its decision “render invalid state
capital sentencing schemes requiring judges, after a
jury verdict holding a defendant guilty of a capital

18a
crime, to find specific aggravating factors before
imposing a sentence of death.” Id. at 496. The Court
deemed the capital cases “not controlling” because,
according to the Court, the offenses of conviction in
those cases already subjected the defendant to a
sentence of death; the aggravating factor findings
merely informed the judge’s choice of life or death. Id.
This reasoning turned out to be short-lived.
Two years later, Ring v. Arizona, 536 U.S. 584
(2002), gave the Supreme Court the opportunity to
apply its Apprendi rule in the capital sentencing
context. As we explained earlier, capital sentencing
hearings under Arizona law were conducted by the
trial court alone, and the court made all required
findings. Id. at 592. As in Florida, Arizona law
provided that a death sentence could not be imposed
unless at least one aggravating factor was found to
exist beyond a reasonable doubt. Id. at 597. The Court
framed the question presented as “whether that
aggravating factor may be found by the judge, as
Arizona law specifies, or whether the Sixth
Amendment’s jury trial guarantee . . . requires that
the aggravating factor determination be entrusted to
the jury.” Id.
The Court acknowledged its earlier decision in
Walton upholding Arizona’s capital sentencing scheme
against a similar Sixth Amendment challenge. The
Court recognized that Walton had characterized
Arizona’s required aggravating factors as “sentencing
considerations” rather than “elements of the offense.”
Id. at 598. But the Court explained that Apprendi had
since clarified that the Sixth Amendment inquiry
must focus on effect rather than form: “If a State
makes an increase in a defendant’s authorized

19a
punishment contingent on a finding of fact, that fact—
no matter how the State labels it—must be found by a
jury beyond a reasonable doubt.” Id. at 602.
With that baseline established, the Court revisited
whether, as the Walton decision had assumed, a firstdegree murder conviction in Arizona necessarily
included all the jury findings necessary to expose the
defendant to a death sentence. The Court looked to an
Arizona Supreme Court decision holding that the
answer is no—“Defendant’s death sentence required
the judge’s factual findings.” Id. at 603 (quoting State
v. Ring, 25 P.3d 1139, 1151 (Ariz. 2001)). “Recognizing
that the Arizona court’s construction of the State’s own
law is authoritative,” the Court concluded that
“Walton, in relevant part, cannot survive the
reasoning of Apprendi.” Id. The Court ended its
opinion:
[W]e overrule Walton to the extent that
it allows a sentencing judge, sitting
without a jury, to find an aggravating
circumstance necessary for imposition of
the death penalty. Because Arizona’s
enumerated aggravating factors operate
as “the functional equivalent of an
element of a greater offense,” the Sixth
Amendment requires that they be found
by a jury.
Id. at 609 (citations omitted) (quoting Apprendi, 534
U.S. at 494 n.19).
Justice Breyer declined to join the Court’s opinion.
He concurred in the judgment, however, on the ground
that he “believe[d] that jury sentencing in capital cases

20a
is mandated by the Eighth Amendment.” Id. at 614
(Breyer, J., concurring in the judgment).
D. Hurst v. Florida
It was not until Hurst v. Florida, 136 S. Ct. 616
(2016), that the Supreme Court addressed the
significance of Ring for the constitutionality of
Florida’s capital sentencing procedure. Although it
ultimately chose to address only the Sixth Amendment
in its decision, the Supreme Court granted certiorari
on the question “[w]hether Florida’s death sentencing
scheme violates the Sixth Amendment or the Eighth
Amendment in light of this Court’s decision in Ring v.
Arizona.” Hurst v. Florida, 575 U.S. 902, 902 (2015).
In his briefing to the Supreme Court, Hurst made
a Sixth Amendment argument and an Eighth
Amendment argument.
His Sixth Amendment
argument was that “Florida’s capital sentencing
scheme violates the Sixth Amendment under Ring v.
Arizona . . . because it assigns to the judge alone the
power to render a defendant eligible for the death
penalty by finding aggravating circumstances.” Reply
Brief for Petitioner at 2, Hurst v. Florida, 136 S. Ct.
616 (2016) (No. 14-7505), 2015 WL 5138584 at * 2.
Hurst’s Eighth Amendment argument was that
“Florida’s capital sentencing scheme also violates the
Eighth Amendment because it assigns to the judge the
power to impose the death penalty.” Reply Brief for
Petitioner at 5.
The Court had little trouble concluding that “the
analysis the Ring Court applied to Arizona’s
sentencing scheme applies equally to Florida’s.” Hurst
v. Florida, 136 S. Ct. at 621-22. Pointing to section
921.141(3), Florida Statutes (2010), the Court noted

21a
that Florida law required the judge, not the jury, to
find the “facts” necessary to impose the death penalty.
Id. at 622. The Court said it was “immaterial” that
Florida’s system, unlike Arizona’s, incorporated an
advisory jury verdict. Id. The Court rejected the
State’s argument that “when Hurst’s sentencing jury
recommended a death sentence, it ‘necessarily
included a finding of an aggravating circumstance.’”
Id. (quoting the State’s brief). What mattered was
that “the Florida sentencing statute does not make a
defendant eligible for death until ‘findings by the court
that such person shall be punished by death.’” Id.
(quoting § 775.082(1), Fla. Stat. (2010)).
The Court ultimately held that “Florida’s
sentencing scheme, which required the judge alone to
find the existence of an aggravating circumstance, is
therefore unconstitutional.”
Id. at 624.
And,
paralleling the language it used in Ring to overrule
Walton, the Court overruled Spaziano and Hildwin “to
the extent they allow a sentencing judge to find an
aggravating circumstance, independent of a jury’s
factfinding, that is necessary for the imposition of the
death penalty.” Id.
As we noted earlier, the Court’s opinion did not
address Hurst’s Eighth Amendment argument. In
fact, notwithstanding its earlier order, the Court
described itself as having granted certiorari to resolve
only “whether Florida’s capital sentencing scheme
violates the Sixth Amendment in light of Ring.” Id. at
621. In a solo concurrence, Justice Breyer did address
the Eighth Amendment claim.
Citing his own
concurring opinion in Ring, he concluded that “the
Eighth Amendment requires that a jury, not a judge,
make the decision to sentence a defendant to death.”

22a
Id. at 624 (Breyer, J., concurring in the judgement)
(quoting Ring, 536 U.S. at 614).
E. Hurst v. State
When Hurst’s case returned to this Court on
remand from the Supreme Court, it would have been
reasonable to expect that the application of Hurst v.
Florida would be straightforward. Hurst had asked
the Supreme Court to find that Florida’s capital
sentencing statute violated the Sixth Amendment
“because it assigns to the judge alone the power to
render a defendant eligible for the death penalty by
finding aggravating circumstances.” Reply Brief for
Petitioner at 2, Hurst v. Florida, 136 S. Ct. 616 (2016)
(No. 14-7505), 2015 WL 5138584 at *2. In a relatively
brief opinion that did not expand on Ring, the
Supreme Court agreed. As Justice Canady correctly
observed in his Hurst v. State dissent, “Hurst v.
Florida simply applies the reasoning of Ring and
Apprendi to Florida’s death penalty statute and
concludes that the jury’s advisory role under Florida
law does not satisfy the requirements of the Sixth
Amendment.”
202 So. 3d at 79 (Canady, J.,
dissenting). Years before, while it awaited definitive
guidance from the Supreme Court, this Court had
already addressed what it would mean “if Ring did
apply in Florida”: “we read [Ring] as requiring only
that the jury make the finding of ‘an element of a
greater offense.’ That finding would be that at least
one aggravator exists . . . .” State v. Steele, 921 So. 2d
538, 546 (Fla. 2005) (citation omitted) (quoting Ring,
536 U.S. at 609).
Nonetheless, this Court on remand concluded that
Hurst v. Florida had far greater implications for

23a
Florida’s capital sentencing law.
The new rule
announced in Hurst v. State was as follows:
[B]efore the trial judge may consider
imposing a sentence of death, the jury in
a capital case must unanimously and
expressly find all the aggravating factors
that were proven beyond a reasonable
doubt, unanimously find that the
aggravating factors are sufficient to
impose death, unanimously find that the
aggravating factors outweigh the
mitigating factors, and unanimously
recommend a sentence of death.
202 So. 3d at 57.
The Court based its holding on several sources of
law. The Court looked to Apprendi, Ring, and Hurst
for the principle that the Sixth Amendment requires
the jury to find “every fact . . . necessary for the
imposition of the death penalty” and for the conclusion
that each of these facts constitutes an “element.” Id.
at 53. Expanding on the Supreme Court’s concept of
“facts,” the Court looked to the Florida statutes to
identify “those critical findings that underlie the
imposition of a death sentence.” Id. at 51. The Court
looked to article I, section 22 of the Florida
Constitution4 for the principle that jury verdicts must
be unanimous on all the elements of criminal
offenses—including the new capital sentencing
“elements” that the Court had purported to identify.
See id. at 55. And finally, “in addition to the
4 Article I, section 22 provides in pertinent part: “The right
of trial by jury shall be secure to all and remain inviolate.”

24a
requirements of unanimity that flow from the Sixth
Amendment and from Florida’s right to trial by jury,”
the Court concluded that “juror unanimity in any
recommended verdict resulting in a death sentence is
required under the Eighth Amendment.” Id. at 59.
II.

Analysis

The State asks us to recede from Hurst v. State “to
the extent its holding requires anything more than the
jury to find an aggravating circumstance—what Hurst
v. Florida requires.” We now explain how this Court
erred in Hurst v. State and why we have concluded
that we must partially recede from our decision in that
case.
A. The Correct Understanding of Hurst v.
Florida
It helps first to consider Hurst v. Florida in light
of the principles underlying the Supreme Court’s
capital punishment cases. Those cases “address two
different aspects of the capital decisionmaking
process: the eligibility decision and the selection
decision.” Tuilaepa v. California, 512 U.S. 967, 971
(1994). As to the eligibility decision, the Court has
required that the death penalty be reserved for only a
subset of those who commit murder. “To render a
defendant eligible for the death penalty in a homicide
case, [the Supreme Court has] indicated that the trier
of fact must convict the defendant of murder and find
one ‘aggravating circumstance’ (or its equivalent) at
either the guilt or penalty phase.” Id. at 971-72. “[A]n
aggravating circumstance must genuinely narrow the
class of persons eligible for the death penalty and must
reasonably justify the imposition of a more severe

25a
sentence on the defendant compared to others found
guilty of murder.” Zant, 462 U.S. at 877.
By contrast, the selection decision involves
determining “whether a defendant eligible for the
death penalty should in fact receive that sentence.”
Tuilaepa, 512 U.S. at 972. The Supreme Court’s cases
require that the selection decision be an individualized
determination that assesses the defendant’s
culpability, taking into account “relevant mitigating
evidence of the character and record of the defendant
and the circumstances of the crime.” Id.
Hurst v. Florida is about eligibility, not selection.
We know this from the face of the Court’s opinion:
“Florida concedes that Ring required a jury to find
every fact necessary to render Hurst eligible for the
death penalty.” Hurst v. Florida, 136 S. Ct. at 622
(emphasis added). We know it from the opinion’s
exclusive focus on aggravating circumstances, the
central object of the Court’s death eligibility
jurisprudence. We know it because Hurst’s counsel
conceded it at oral argument. Transcript of Oral
Argument at 12, Hurst v. Florida, 136 S. Ct. 616 (2016)
(No. 14-7505). And most fundamentally, we know it
from the Apprendi-based principle that animates the
Court’s decision:
“[I]t is unconstitutional for a
legislature to remove from the jury the assessment of
facts that increase the prescribed range of penalties to
which a criminal defendant is exposed.” Apprendi, 530
U.S. at 490 (alteration in original) (quoting Jones, 526
U.S. at 252 (Stevens, J., concurring)).
Justice Scalia explained “the import of Apprendi
in the context of capital-sentencing proceedings” this
way:

26a
[F]or purposes of the Sixth Amendment’s
jury-trial guarantee, the underlying
offense of “murder” is a distinct, lesser
included offense of “murder plus one or
more
aggravating
circumstances.”
Whereas the former exposes a defendant
to a maximum penalty of life
imprisonment, the latter increases the
maximum permissible sentence to death.
Sattazahn v. Pennsylvania, 537 U.S. 101, 111 (2003).
This of course describes Florida’s capital
sentencing law. As the Supreme Court itself noted in
Hurst v. Florida, section 775.082(1), Florida Statutes,
states that the punishment for a capital felony is life
imprisonment unless “the procedure set forth in s.
921.141 results in findings by the court that such
person shall be punished by death.” The required trial
court findings are set forth in section 921.141(3),
Florida Statutes, which is titled “Findings in Support
of Sentence of Death.” When the Supreme Court
referred to “the critical findings necessary to impose
the death penalty,” it referred to those findings as
“facts” and cited section 921.141(3). Hurst v. Florida,
136 S. Ct. at 622. Tellingly, the Court did not cite
section 921.141(2), which sets out the process for the
jury to render an advisory verdict.
Section 921.141(3) requires two findings. One is
an eligibility finding, the other a selection finding.
The eligibility finding is in section 921.141(3)(a):
“[t]hat sufficient aggravating circumstances exist as
enumerated in subsection (5).” The selection finding
is in section 921.141(3)(b):
“[t]hat there are

27a
insufficient mitigating circumstances to outweigh the
aggravating circumstances.”
We know that section 921.141(3)(a) is the
eligibility finding because that is what our Court said
repeatedly and consistently for many decades prior to
Hurst v. State. In our first case interpreting Florida’s
post-Furman capital sentencing law, we said: “When
one or more of the aggravating circumstances is found,
death is presumed to be the proper sentence unless it
or they are overridden by one or more of the mitigating
circumstances provided in Fla. Stat. s. 921.141(7).”
State v. Dixon, 283 So. 2d 1, 9 (Fla. 1973). Beginning
with that holding, it has always been understood that,
for purposes of complying with section 921.141(3)(a),
“sufficient aggravating circumstances” means “one or
more.” See Miller v. State, 42 So. 3d 204, 219 (Fla.
2010) (“sufficient aggravating circumstances” means
“one or more such circumstances”); Zommer v. State,
31 So. 3d 733, 754 (Fla. 2010) (same); see also Douglas
v. State, 878 So. 2d 1246, 1265 (Fla. 2004) (Pariente,
J., concurring as to conviction and concurring in result
only as to sentence) (“A defendant convicted of firstdegree murder cannot qualify for a death sentence
unless at least one statutory aggravating factor is
found to exist.”).
Poole’s suggestion that “sufficient” implies a
qualitative assessment of the aggravator—as opposed
simply to finding that an aggravator exists—is
unpersuasive and contrary to this decades-old
precedent. Likewise, our Court was wrong in Hurst v.
State when it held that the existence of an aggravator
and the sufficiency of an aggravator are two separate
findings, each of which the jury must find
unanimously. Under longstanding Florida law, there

28a
is only one eligibility finding required: the existence
of one or more statutory aggravating circumstances.
B. The Errors of Hurst v. State
This Court clearly erred in Hurst v. State by
requiring that the jury make any finding beyond the
section 921.141(3)(a) eligibility finding of one or more
statutory aggravating circumstances. Neither Hurst
v. Florida, nor the Sixth or Eighth Amendment, nor
the Florida Constitution mandates that the jury make
the section 941.121(3)(b) selection finding or that the
jury recommend a sentence of death.
1. Sixth and Eighth Amendment Errors
Weighing Under Section 941.121(3)(b). Again, the
Apprendi rule drives the Sixth Amendment inquiry:
“[I]t is unconstitutional for a legislature to remove
from the jury the assessment of facts that increase the
prescribed range of penalties to which a criminal
defendant is exposed.” Apprendi, 530 U.S. at 490
(alteration in original) (quoting Jones, 526 U.S. at 252
(Stevens, J., concurring)). Only such “facts” are
“elements” that must be found by a jury. The section
921.141(3)(b) selection finding—“that there are
insufficient mitigating circumstances to outweigh the
aggravating circumstances”—fails both aspects of the
Apprendi test.
The section 921.141(3)(b) selection finding is not a
“fact.” As the Supreme Court observed in a case
decided shortly after Hurst v. Florida, “the ultimate
question whether mitigating circumstances outweigh
aggravating circumstances is mostly a question of
mercy.” Kansas v. Carr, 136 S. Ct. 633, 642 (2016).
That stands in stark contrast to the “aggravating-

29a
factor determination,” which is “a purely factual
determination.” Id. A subjective determination like
the one that section 921.141(3)(b) calls for cannot be
analogized to an element of a crime; it does not lend
itself to being objectively verifiable. Instead, it is a
“discretionary judgment call that neither the state nor
the federal constitution entrusts exclusively to the
jury.” State v. Wood, 580 S.W.3d 566, 585 (Mo. 2019);
see also Hurst v. State, 202 So. 3d at 82 (Canady, J.,
dissenting) (weighing of mitigators and aggravators is
a
determination
that
“require[s]
subjective
judgment”).
We acknowledge that section 921.141(3)(b)
requires a judicial finding “as to the fact[]” that the
mitigators do not outweigh the aggravators. But the
legislature’s use of a particular label is not what drives
the Sixth Amendment inquiry. See Apprendi, 530 U.S.
at 494. In substance, what section 921.141(3)(b)
requires “is not a finding of fact, but a moral
judgment.” United States v. Gabrion, 719 F.3d 511,
533 (6th Cir. 2013) (describing balancing provision in
federal death penalty statute).
In any event, even if we were to consider the
section 921.141(3)(b) selection finding to be a fact, it
still would not implicate the Sixth Amendment. The
selection finding does not “expose” the defendant to
the death penalty by increasing the legally authorized
range of punishment. As we have explained, under
longstanding Florida law, it is the finding of an
aggravating circumstance that exposes the defendant
to a death sentence.
The role of the section
921.141(3)(b) selection finding is to give the defendant
an opportunity for mercy if it is justified by the

30a
relevant mitigating circumstances and by the facts
surrounding his crime.
This passage from the Supreme Court’s decision in
Alleyne v. United States, 570 U.S. 99 (2013),
illuminates this point:
Juries must find any facts that increase
either the statutory maximum or
minimum because the Sixth Amendment
applies where a finding of fact both alters
the legally prescribed range and does so
in a way that aggravates the penalty.
Importantly, this is distinct from
factfinding used to guide judicial
discretion in selecting a punishment
“within limits fixed by law.” While such
findings of fact may lead judges to select
sentences that are more severe than the
ones they would have selected without
those facts, the Sixth Amendment does
not govern that element of sentencing.
Id. at 113 n.2 (quoting Williams v. New York, 337 U.S.
241, 246 (1949)). And Alleyne merely echoes what the
Supreme Court said in Apprendi: “We should be clear
that nothing in this history suggests that it is
impermissible for judges to exercise discretion—
taking into consideration various factors relating both
to offense and offender—in imposing a judgment
within the range prescribed by statute.” Apprendi, 530
U.S. at 481.
In sum, because the section 921.141(3)(b) selection
finding is not a “fact” that exposes the defendant to a
greater punishment than that authorized by the jury’s
guilty verdict, it is not an element. And because it is

31a
not an element, it need not be submitted to a jury. See
Hurst v. Florida, 136 S. Ct. at 621 (defining “element”).
Unanimous Jury Recommendation. The Hurst v.
State
requirement
of
a
unanimous
jury
recommendation similarly finds no support in
Apprendi, Ring, or Hurst v. Florida. As we have
explained, the Supreme Court in Spaziano upheld the
constitutionality under the Sixth Amendment of a
Florida judge imposing a death sentence even in the
face of a jury recommendation of life—a jury override.
It necessarily follows that the Sixth Amendment, as
interpreted in Spaziano, does not require any jury
recommendation of death, much less a unanimous one.
And as we have also explained, the Court in Hurst v.
Florida overruled Spaziano only to the extent it allows
a judge, rather than a jury, to find a necessary
aggravating circumstance. See Hurst v. Florida, 136
S. Ct. at 624.
Even without Spaziano, the Apprendi line of cases
cannot be read to require a unanimous jury
recommendation of death. Those cases are about what
“facts”—those that are the equivalent of elements of a
crime—the Sixth Amendment requires to be found by
a jury. Sentencing recommendations are neither
elements nor facts. As Justice Scalia said, the
judgment in Ring—and by extension the judgment in
Hurst v. Florida—“has nothing to do with jury
sentencing.” Ring, 536 U.S. at 612 (Scalia, J.,
concurring).
Finally, we further erred in Hurst v. State when
we held that the Eighth Amendment requires a
unanimous jury recommendation of death.
The
Supreme Court rejected that exact argument in

32a
Spaziano. See Spaziano, 468 U.S. at 465; see also
Harris v. Alabama, 513 U.S. 504, 515 (1995) (“The
Constitution permits the trial judge, acting alone, to
impose a capital sentence.”). We are bound by
Supreme Court precedents that construe the United
States Constitution.
2. State Law Errors
For many decades, this Court considered Florida’s
post-Furman sentencing procedures to be facially
consistent with our state constitution. Even after
Ring, in cases where the aggravator consisted of a
prior violent felony, we rejected claims that Florida’s
capital sentencing scheme violated the right to a jury
trial under our state constitution. See, e.g., Doorbal v.
State, 837 So. 2d 940, 963 (Fla. 2003).
We departed from those precedents in Hurst v.
State, when we decided that article I, section 22 of the
Florida Constitution requires a unanimous jury
recommendation of a sentence of death and
unanimous jury findings as to all the aggravating
factors that were proven beyond a reasonable doubt,
that the aggravating factors are sufficient to impose
death, and that the aggravating factors outweigh the
mitigating factors. We based that holding on our
determination that each of these findings is the
equivalent of an element of an offense and on the
longstanding principle of Florida law that all elements
must be found unanimously by the jury.
Here we already have explained that our holding
in Hurst v. State was based on a mistaken view of what
constitutes an element.
Under the principles
established in Apprendi, Ring, and Hurst v. Florida,
only one of the findings we identified in Hurst v.

33a
State—the finding of the existence of an aggravating
circumstance—qualifies as an element, including for
purposes of our state constitution. There is no basis in
state or federal law for treating as elements the
additional
unanimous
jury
findings
and
recommendation that we mandated in Hurst v. State.
As to state law, subsequent to our decision in Hurst v.
State, we already have receded from the holding that
the additional Hurst v. State findings are elements.
We held:
To the extent that in Perry v. State, 210
So. 3d 630, 633 (Fla. 2016), we suggested
that Hurst v. State held that the
sufficiency
and
weight
of
the
aggravating factors and the final
recommendation of death are elements
that must be determined by the jury
beyond a reasonable doubt, we
mischaracterized Hurst v. State, which
did
not
require
that
these
determinations be made beyond a
reasonable doubt. Since Perry, in In re
Standard Criminal Jury Instructions in
Capital Cases and Foster [v. State, 258
So. 3d 1248 (Fla. 2018)], we have
implicitly
receded
from
its
mischaracterization of Hurst v. State.
We now do so explicitly. Thus, these
determinations are not subject to the
beyond a reasonable doubt standard of
proof, and the trial court did not err in
instructing the jury.
Rogers v. State, 44 Fla. L. Weekly S208, S212 (Fla.
Sept. 5, 2019).

34a
Last, lest there be any doubt, we hold that our
state constitution’s prohibition on cruel and unusual
punishment, article I, section 17,5 does not require a
unanimous jury recommendation—or any jury
recommendation—before a death sentence can be
imposed. The text of our constitution requires us to
construe the state cruel and unusual punishment
provision in conformity with decisions of the Supreme
Court interpreting the Eighth Amendment. Binding
Supreme Court precedent in Spaziano holds that the
Eighth Amendment does not require a jury’s favorable
recommendation before a death penalty can be
imposed. See Spaziano, 468 U.S. at 464-65. Therefore,
the same is true of article I, section 17.
C. Stare Decisis
While this Court has consistently acknowledged
the importance of stare decisis, it has been willing to
correct its mistakes. In a recent discussion of stare
decisis, we said:
Stare decisis provides stability to the law
and to the society governed by that law.
Yet stare decisis does not command blind
allegiance to precedent. “Perpetuating
5 Article I, section 17 provides in pertinent part: “Excessive
fines, cruel and unusual punishment, attainder, forfeiture of
estate, indefinite imprisonment, and unreasonable detention of
witnesses are forbidden. The death penalty is an authorized
punishment for capital crimes designated by the legislature. The
prohibition against cruel or unusual punishment, and the
prohibition against cruel and unusual punishment, shall be
construed in conformity with decisions of the United States
Supreme Court which interpret the prohibition against cruel and
unusual punishment provided in the Eighth Amendment to the
United States Constitution.”

35a
an error in legal thinking under the
guise of stare decisis serves no one well
and only undermines the integrity and
credibility of the court.”
Shepard v. State, 259 So. 3d 701, 707 (Fla. 2018)
(quoting State v. Gray, 654 So. 2d 552, 554 (Fla. 1995)).
Similarly, we have stated that “[t]he doctrine of stare
decisis bends . . . where there has been an error in legal
analysis.” Puryear v. State, 810 So. 2d 901, 905 (Fla.
2002). And elsewhere we have said that we will
abandon a decision that is “unsound in principle.”
Robertson v. State, 143 So. 3d 907, 910 (Fla. 2014)
(quoting Brown v. Nagelhout, 84 So. 3d 304, 309 (Fla.
2012)).
It is no small matter for one Court to conclude that
a predecessor Court has clearly erred. The later Court
must approach precedent presuming that the earlier
Court faithfully and competently carried out its duty.
A conclusion that the earlier Court erred must be
based on a searching inquiry, conducted with minds
open to the possibility of reasonable differences of
opinion. “[T]here is room for honest disagreement,
even as we endeavor to find the correct answer.”
Gamble v. United States, 139 S. Ct. 1960, 1986 (2019)
(Thomas, J., concurring).
In this case we cannot escape the conclusion that,
to the extent it went beyond what a correct
interpretation of Hurst v. Florida required, our Court
in Hurst v. State got it wrong. We say that based on
our thorough review of Hurst v. Florida, of the
Supreme Court’s Sixth and Eighth Amendment
precedents, and of our own state’s laws, constitution,
and judicial precedents. Without legal justification,

36a
this Court used Hurst v. Florida—a narrow and
predictable ruling that should have had limited
practical effect on the administration of the death
penalty in our state as an occasion to disregard
decades of settled Supreme Court and Florida
precedent. Under these circumstances, it would be
unreasonable for us not to recede from Hurst v. State’s
erroneous holdings.
Invoking North Florida Women’s Health &
Counseling Services, Inc. v. State, 866 So. 2d 612 (Fla.
2003), Poole urges us to stand by our decision in Hurst
v. State. Our opinion in North Florida Women’s Health
said that, before deciding to overrule a prior opinion,
“we traditionally have asked several questions,
including the following”: whether the decision has
proved unworkable; whether the decision could be
reversed “without serious injustice to those who have
relied on it and without serious disruption in the
stability of the law;” and whether there have been
drastic changes in the factual premises underlying the
decision. Id. at 637. Though we do not doubt that this
list of considerations could have been culled from our
pre-North Florida Women’s Health precedents, we
note that the Court there offered no citation to support
its compilation.
In the years since our decision in North Florida
Women’s Health, we have not treated that case as
having set forth a stare decisis test that we must follow
in every case. On the contrary, we have repeatedly
receded from erroneous precedents without citing
North Florida Women’s Health or asking all the
questions it poses. See, e.g., Shepard, 259 So. 3d at
707; State v. Sturdivant, 94 So. 3d 434, 440 (Fla. 2012);
Westgate Miami Beach, Ltd. v. Newport Operating

37a
Corp., 55 So. 3d 567, 574 (Fla. 2010); Allstate Indem.
Co. v. Ruiz, 899 So. 2d 1121, 1131 (Fla. 2005).
More fundamentally, we are wary of any
invocation of multi-factor stare decisis tests or
frameworks like the one set out in North Florida
Women’s Health. They are malleable and do not lend
themselves to objective, consistent, and predictable
application. They can distract us from the merits of a
legal question and encourage us to think more like a
legislature than a court. And they can lead us to
decide cases on the basis of guesses about the
consequences of our decisions, which in turn can make
those decisions less principled. Multi-factor tests or
frameworks like the one in North Florida Women’s
Health often serve as little more than a toolbox of
excuses to justify a court’s unwillingness to examine a
precedent’s correctness on the merits.
We believe that the proper approach to stare
decisis is much more straightforward. In a case where
we are bound by a higher legal authority—whether it
be a constitutional provision, a statute, or a decision of
the Supreme Court—our job is to apply that law
correctly to the case before us. When we are convinced
that a precedent clearly conflicts with the law we are
sworn to uphold, precedent normally must yield.
We say normally because “stare decisis means
sticking to some wrong decisions.” Kimble v. Marvel
Entertainment, LLC, 135 S. Ct. 2401, 2409 (2015).
“Indeed, stare decisis has consequence only to the
extent it sustains incorrect decisions; correct
judgments have no need for that principle to prop
them up.” Id. But once we have chosen to reassess a
precedent and have come to the conclusion that it is

38a
clearly erroneous, the proper question becomes
whether there is a valid reason why not to recede from
that precedent.
The critical consideration ordinarily will be
reliance.
It is generally accepted that reliance
interests are “at their acme in cases involving property
and contract rights.” Payne v. Tennessee, 501 U.S. 808,
828 (1991). And reliance interests are lowest in
cases—like this one—“involving procedural and
evidentiary rules.” Id.; see also Alleyne, 570 U.S. at
119 (Sotomayor, J., concurring) (“[W]hen procedural
rules are at issue that do not govern primary conduct
and do not implicate the reliance interests of private
parties, the force of stare decisis is reduced.”).
Here any reliance considerations cut against
Poole. No one, including Poole, altered his behavior in
expectation of the new procedural rules announced in
Hurst v. State. To the extent that reliance interests
factor here at all, they lean heavily in favor of the
victims of Poole’s crimes and of society’s interest in
holding Poole to account and in the substantial
resources that have been spent litigating and
adjudicating Poole’s case.
We acknowledge that the Legislature has changed
our state’s capital sentencing law in response to Hurst
v. State. Our decision today is not a comment on the
merits of those changes or on whether they should be
retained. We simply have restored discretion that
Hurst v. State wrongly took from the political
branches.
Having thoroughly considered the State’s and
Poole’s arguments in light of the applicable law, we
recede from Hurst v. State except to the extent it

39a
requires a jury unanimously to find the existence of a
statutory aggravating circumstance beyond a
reasonable doubt.
CONCLUSION
The jury in Poole’s case unanimously found that,
during the course of the first-degree murder of Noah
Scott, Poole committed the crimes of attempted firstdegree murder of White, sexual battery of White,
armed burglary, and armed robbery. Under this
Court’s longstanding precedent interpreting Ring v.
Arizona and under a correct understanding of Hurst v.
Florida, this satisfied the requirement that a jury
unanimously
find
a
statutory
aggravating
circumstance beyond a reasonable doubt. See Poole II,
151 So. 3d at 419. In light of our decision to recede
from Hurst v. State except to the extent it requires a
jury unanimously to find the existence of a statutory
aggravating circumstance, we reverse the portion of
the trial court’s order vacating Poole’s death sentence.
We affirm the trial court’s denial of Poole’s guilt phase
claim. And we remand to the trial court with
instructions that Poole’s sentence be reinstated and
for proceedings consistent with this opinion.
It is so ordered.
CANADY, C.J., and POLSTON, LAWSON, and
MUÑIZ, JJ., concur.
LAWSON, J., concurs specially with an opinion.
LABARGA, J., dissents with an opinion.
NOT FINAL UNTIL TIME EXPIRES TO FILE
REHEARING
MOTION
AND,
IF
FILED,
DETERMINED.

40a
LAWSON, J., concurring specially.
I fully concur in the majority opinion and write
separately to address the dissent’s contentions: (1)
that “national consensus,” dissenting op. at 53, is
relevant to our consideration of any legal issue decided
today; (2) that today’s decision “returns Florida to its
status as an absolute outlier among the jurisdictions
in this country that utilize the death penalty,” id. at
51; (3) that “settled [Florida] law compelled this
Court’s conclusion in Hurst v. State [202 So. 3d 40 (Fla.
2016)] that the unanimity requirement applied not
only to the jury’s duty to determine whether to convict
the defendant, but upon conviction, to the jury’s duty
to determine whether the defendant should receive the
death penalty,” dissenting op. at 53-54; and (4) that
our decision “removes an important safeguard for
ensuring that the death penalty is only applied to the
most aggravated and least mitigated of murders,” id.
at 51-52.
I.

National consensus is irrelevant to our
legal analysis.

It is axiomatic that we are bound by decisions of
the United States Supreme Court when construing
provisions of the United States Constitution. Carnival
Corp. v. Carlisle, 953 So. 2d 461, 465 (Fla. 2007)
(“[S]tate courts are bound by the decisions of the
United States Supreme Court construing federal law.”
(quoting Chesapeake & O. Ry. Co. v. Martin, 283 U.S.
209, 220-21 (1931))). While political decisions by the
various states are regularly considered in Eighth
Amendment analysis to gauge “evolving standards of
decency,” see, e.g., Spaziano v. Florida, 468 U.S. 447,
463-64 n. 9 (1984) (considering the statutory

41a
approaches of a number of jurisdictions to capital
sentencing), overruled in part by Hurst v. Florida, 136
S. Ct. 616 (2016), a consideration when determining
what constitutes cruel and unusual punishment, the
Supreme Court has held that the Eighth Amendment
does not require a jury determination on the ultimate
question of whether to impose a death sentence. Id. at
465. In conducting its Eighth Amendment analysis of
this issue in Spaziano v. Florida, the Supreme Court
acknowledged that a significant majority of
jurisdictions entrusted the sentencing decision to a
jury in the death penalty context, id. at 463, making
Florida one of only three jurisdictions that permitted
a judge to impose a death sentence in the absence of a
jury’s unanimous determination that a death sentence
should be imposed. Id. Despite Florida’s minority
position, the Supreme Court found no Eighth
Amendment violation, reasoning:
The fact that a majority of jurisdictions
have adopted a different practice,
however, does not establish that
contemporary standards of decency are
offended by the jury override. The
Eighth Amendment is not violated every
time a State reaches a conclusion
different from a majority of its sisters
over how best to administer its criminal
laws.
“Although the judgments of
legislatures, juries, and prosecutors
weigh heavily in the balance, it is for us
ultimately to judge whether the Eighth
Amendment” is violated by a challenged
practice. See Enmund v. Florida, 458
U.S. 782, 797 (1982); Coker v. Georgia,

42a
433 U.S. 584, 597 (1977) (plurality
opinion). In light of the facts that the
Sixth Amendment does not require jury
sentencing, that the demands of fairness
and reliability in capital cases do not
require it, and that neither the nature of,
nor the purpose behind, the death
penalty requires jury sentencing, we
cannot
conclude
that
placing
responsibility on the trial judge to
impose the sentence in a capital case is
unconstitutional.
Id. at 464. Because the Supreme Court has already
considered arguments based upon “national
consensus” in its analysis of this precise issue, id., and
because we are bound by this precedent, Carlisle, 953
So. 2d at 465, we cannot conduct an original Eighth
Amendment analysis, consider national consensus,
and reach a different result than that of the Supreme
Court on this same legal issue. Id.
Moreover, because the Supreme Court in
Spaziano expressly held that the Eighth Amendment
does not require jury sentencing in capital cases, the
Florida Constitution expressly prohibits us from
reaching a different result under the Florida
Constitution. See art. I, § 17, Fla. Const. (“The
prohibition against cruel or unusual punishment, and
the prohibition against cruel and unusual
punishment, shall be construed in conformity with
decisions of the Supreme Court which interpret the
prohibition against cruel and unusual punishment
provided in the Eighth Amendment to the United
States Constitution.”).

43a
For these reasons, “national consensus” is
irrelevant to our analysis of the legal issues presented
in this appeal, and its consideration is therefore
properly absent from the majority’s legal analysis.
II.

Our decision today does not make Florida
an “outlier.”

The majority today decides constitutional
questions, not political ones. Those constitutional
questions are properly decided through legal
reasoning, not policy analysis. It is true that Congress
has made a policy decision requiring a unanimous jury
recommendation before death can be imposed as a
sentence under federal law. 18 U.S.C. § 3593(e)
(2019). It is also true, as already discussed, that an
overwhelming majority of states still authorizing
death as a sentence have made the same legislative
policy choice. See Spaziano, 468 U.S. at 463; see also
Michael L. Radelet & G. Ben Cohen, The Decline of the
Judicial Override, 15 Ann. Rev. L. & Soc. Sci. 539, 54849 (2019). As for Florida law, today’s decision does not
alter section 921.141, Florida Statutes (2019), which
still requires a unanimous jury recommendation
before death can be imposed.
If the Florida
Legislature considers changing section 921.141 to
eliminate the requirement for a unanimous jury
recommendation before a sentence of death can be
imposed, the fact that this legislative change would
make Florida an “outlier” will surely be considered in
the ensuing political debate. As for the constitutional
questions addressed in the majority opinion, our
decision should be judged solely on the quality, clarity,
and force of its legal analysis—not on speculation
regarding possible future policy choices that are
constitutionally entrusted to the political branch. See

44a
art. II, § 3, Fla. Const. (“The powers of the state
government shall be divided into legislative, executive
and judicial branches. No person belonging to one
branch shall exercise any powers appertaining to
either of the other branches unless expressly provided
herein.”).
III.

Settled Florida law did not compel “this
Court’s conclusion in Hurst v. State that the
unanimity requirement applied not only to
the jury’s duty to determine whether to
convict the defendant, but upon conviction,
to the jury’s duty to determine whether the
defendant should receive the death
penalty.”

Prior to this Court’s decision in Hurst v. State, this
Court had repeatedly and consistently held that
Florida’s constitution was not violated by imposition of
a death sentence without unanimous jury
determinations during the sentencing proceeding, see
majority op. at 32, including in Poole’s case. Poole v.
State, 151 So. 3d 402, 419 (2014). This was the “settled
[Florida] law” on the issue until Hurst v. State. The
dissent’s contrary claim, that “settled [Florida] law”
compelled a contrary conclusion in Hurst v. State, is
inaccurate. The “settled law” cited by the dissent is
precedent existing “[f]or well more than a century . . .
requir[ing] that a jury unanimously vote to convict a
defendant of a criminal offense.” Dissenting op. at 53.
If Florida’s century-plus-old unanimous-verdict
requirement so obviously and necessarily applied to
capital sentencing proceedings that it compelled the
conclusion reached for the first time in Hurst v. State,
why was this argument soundly and repeatedly

45a
rejected by the entirety of Florida’s judiciary until
2016, when Hurst v. State was decided?
Fundamentally, the dissent’s argument, and the
Hurst v. State holding, are premised on a
mischaracterization of the jury’s ultimate sentencing
recommendation, and the penultimate considerations
leading up to that recommendation under section
921.141, as factual determinations that constitute
elements
of
the
charged
crime.
This
mischaracterization was neither grounded in reason
nor supported by analysis. Rather, the Hurst v. State
majority simply declared that the jury’s sentencing
determinations were “also elements [of the crime of
capital murder] that must be found unanimously by
the jury.” 202 So. 3d at 54.
The erroneous declaration that the jury
sentencing determinations were “elements” of the
crime of capital murder—the sole basis stated for the
Hurst v. State majority’s conclusion that Florida’s
Constitution required jury unanimity on those
determinations, id.—was initially corrected in Foster
v. State, 258 So. 3d 1248, 1252 (Fla. 2018) (clarifying
that “the Hurst [v. State] penalty phase findings are
not elements of the capital felony of first-degree
murder”), an opinion joined by four members of the
original Hurst v. State majority. More recently, in
Rogers v. State, 44 Fla. L. Weekly S208 (Fla. Sept. 5,
2019), we explained:
To the extent that in Perry v. State, 210
So. 3d 630, 633 (Fla. 2016), we suggested
that Hurst v. State held that the
sufficiency
and
weight
of
the
aggravating factors and the final

46a
recommendation of death are elements
that must be determined by the jury
beyond a reasonable doubt, we
mischaracterized Hurst v. State, which
did
not
require
that
these
determinations be made beyond a
reasonable doubt. Since Perry, in In re
Standard Criminal Jury Instructions in
Capital Cases and Foster, we have
implicitly
receded
from
its
mischaracterization of Hurst v. State.
We now do so explicitly.
Id. at S212.
Hurst v. State’s implied characterization of the
jury’s capital sentencing determinations as factual
findings qualitatively indistinguishable from those
made by a jury when weighing evidence and rendering
a guilt-phase verdict is also incorrect. In reality, the
recommendation is an individualized, consciencebased exercise of discretion. This should be obvious
when considering that a juror could judge a crime to
be highly aggravated and hardly mitigated but still
recommend a life sentence based upon some
consideration personal to that individual juror. It
should also be obvious from the post-Hurst v. State
penalty-phase jury instructions authorized by this
Court, which explain that “different [sentencing]
factors or circumstances may be given different weight
or values by different jurors”; that “each individual
juror must decide what weight is to be given to a
particular factor or circumstance”; and that
“[r]egardless of the results of each juror’s individual
weighing process—even if [a juror] find[s] that the
sufficient aggravators outweigh the mitigators—the

47a
law neither compels nor requires [that juror] to
determine that the defendant should be sentenced to
death.” In re Standard Criminal Jury Instructions in
Capital Cases, 244 So. 3d 172, 191 (Fla. 2018).
While the penultimate “weighing” questions are
phrased as fact-like determinations (and are certainly
more fact-like than the recommendation), they are
clearly designed as an analytical tool to guide
individual jurors in making their individual
recommendations—not as facts to be determined by
the jury as a whole. Again, this is obvious from the
instructions themselves, which do not even require
mitigation findings and tell jurors that the weight
given to all factors, as well as whether a fact is
considered mitigating at all, are individual
determinations.
Because the ultimate jury recommendation and
penultimate weighing questions are neither “facts”
historically entrusted to jurors under the Florida
Constitution, nor “elements” of a crime, Foster, 258 So.
3d at 1252, the Hurst v. State majority
demonstratively erred in stating that article I, section
22 of the Florida Constitution supports or compels jury
unanimity on anything other than the existence of an
aggravating circumstance. Settled Florida law was to
the contrary.
IV.

Today’s decision does not eliminate a
safeguard needed to ensure that the death
penalty is only applied to the most
aggravated and least mitigated of murders.

The Eighth Amendment’s protection against cruel
and unusual punishment requires safeguards to
assure that a death sentence is not imposed unless

48a
careful consideration is first given to the “particular
acts by which the crime was committed . . . [and] the
character and propensities of the offender,” Woodson
v. North Carolina, 428 U.S. 280, 304 (1976) (quoting
Pennsylvania ex.rel. Sullivan v. Ashe, 302 U.S. 51, 55
(1937)), to appropriately narrow the class of cases in
which the sentence can be imposed.
Id.
The
procedures set forth in section 921.141 were enacted
to comply with the Eighth Amendment in this regard
by requiring the State to prove at least one statutorily
defined “aggravating circumstance” before the death
penalty can be considered, § 921.141(2)(b)1., (6), and
by providing for the comprehensive consideration of
mitigating circumstances. § 921.141(2)(b)2., (3)(a)2.,
(3)(b), (7). Additionally, before a death sentence can
be imposed, the sentencing judge must enter a written
order reflecting findings that “there are sufficient
aggravating factors to warrant the death penalty . . .
[and that] the aggravating factors outweigh the
mitigating circumstances reasonably established by
the evidence.” § 921.141(4). Appellate review assures
that these standards are met in every case.
§ 921.141(5) (“The judgment of conviction and
sentence of death shall be subject to automatic review
by the Supreme Court of Florida and disposition
rendered within 2 years after the filing of a notice of
appeal. Such review by the Supreme Court shall have
priority over all other cases and shall be heard in
accordance with rules adopted by the Supreme
Court.”); see also Pulley v. Harris, 465 U.S. 37, 45-46
(1984) (discussing the importance of “meaningful
appellate review” in this context). Reviewing Florida’s
death penalty procedure, the Supreme Court has
determined that a unanimous jury sentencing
recommendation is not required to comply with the

49a
Eighth Amendment’s demand that discretion to
impose the death penalty be appropriately directed
and limited. Spaziano, 468 U.S. at 464 (“[T]he
demands of fairness and reliability in capital cases do
not require [jury sentencing].”). Review of this Court’s
2014 opinion affirming Poole’s sentence of death
illustrates why Florida’s system meets Eighth
Amendment demands of “fairness and reliability”
without requiring a unanimous jury recommendation.
Loretta White and Noah Scott had gone to bed
together in their mobile home. Poole, 151 So. 3d at
406. White was startled awake to find a stranger,
Poole, attempting to rape her. Id. Scott repeatedly
tried to stop the rape and, each time, Poole hit Scott in
the face with a tire iron—beating Scott to death. Id.
Poole ignored White’s cries for mercy, which were
emphasized by the plea that she was pregnant; he also
beat her with the tire iron, severing some of her fingers
as she tried to defend herself against the attack. Id.
After raping, beating, and sexually assaulting White,
Poole left her unconscious in the trailer. Id.
This murder was obviously highly aggravated by
Poole’s contemporaneous crimes. The trial judge
appropriately found that these aggravators were
sufficient to warrant the death penalty under Florida
law and that the aggravators outweighed all
mitigation so that a death sentence was appropriate.
Id. at 419 (concluding that the trial court “properly”
weighed “the aggravators against the mitigators” and
affirming Poole’s sentence of death). Even with the
jury’s 11-1 death recommendation, this Court
appropriately and without hesitation (or dissent on
this issue) determined that Florida’s sentencing
procedure had reliably guided and limited the

50a
sentencing decision in this case, as required by the
Eighth Amendment. Id.
Conclusion
The constitutionality of Poole’s sentence was
already decided by this Court in 2014. Id. Hurst v.
State required the trial court to reevaluate the
constitutionality of Poole’s death sentence—and
deciding this appeal required this Court to address the
State’s argument that Hurst v. State was incorrectly
decided. For the reasons explained in the majority
opinion, and above, it is clear that Poole suffered no
constitutional deprivation in the imposition of his
sentence and that we cannot reach a correct legal
result in this appeal without receding in part from
Hurst v. State. I fully agree with the majority’s
determination that we should partially recede from
Hurst v. State because the State and those whose
interests are represented by the State in this case,
including the victims and their families, relied heavily
on the significant body of precedent upholding as
constitutional the relevant statutory procedures
invalidated in Hurst v. State, cf. Johnson v. State, 904
So. 2d 400, 410 (Fla. 2005) (explaining that “Florida’s
reliance on its capital sentencing has been entirely in
good faith” in light of the legal precedent upholding its
constitutionality); because the State and society’s
interests in the finality of Poole’s sentence are equally
strong, see In re Baxter Int’l, Inc., 678 F.3d 1357, 1367
(Fed. Cir. 2012) (Newman, J., dissenting) (“Finality is
fundamental to the Rule of Law.” (citing S. Pac. R.R.
v. United States, 168 U.S. 1, 18 (1897))); and, because
Poole’s reliance interest on the erroneous Hurst v.
State precedent is nonexistent. Majority op. at 38.

51a
LABARGA, J., dissenting.
Today, a majority of this Court recedes from the
requirement that Florida juries unanimously
recommend that a defendant be sentenced to death. In
doing so, the majority returns Florida to its status as
an absolute outlier among the jurisdictions in this
country that utilize the death penalty. The majority
gives the green light to return to a practice that is not
only inconsistent with laws of all but one of the
twenty-nine states that retain the death penalty, but
inconsistent with the law governing the federal death
penalty. Further, the majority removes an important
safeguard for ensuring that the death penalty is only
applied to the most aggravated and least mitigated of
murders. In the strongest possible terms, I dissent.
The requirement that a jury unanimously
recommend a sentence of death comports with the
overwhelming majority of states that have the death
penalty. At the time that Hurst v. Florida was
decided, of the thirty-one states that legalized the
capital punishment, only three states—Florida,
Alabama, and Delaware—did not require that a
unanimous jury recommend the death penalty. Since
that time, the Delaware Supreme Court declared the
state’s capital sentencing statute unconstitutional, see
Rauf v. Delaware, 145 A.3d 430 (Del. 2016), and we
held in Hurst v. State that unanimity was required in
Florida. These developments left Alabama as the sole
death penalty state not requiring unanimity—until
today.
Not only does requiring a unanimous
recommendation of a sentence of death comport with
the overwhelming majority of death penalty states, it

52a
also comports with federal law governing the
imposition of the federal death penalty. Title 18
U.S.C. § 3593(e) (2012) provides that after weighing
the aggravating and mitigating factors and
determining that a sentence of death is justified, “the
jury by unanimous vote, or if there is no jury, the court,
shall recommend whether the defendant should be
sentenced to death, to life imprisonment without
possibility of release or some other lesser sentence.”
(Emphasis added.) As we explained in Hurst v. State:
The vast majority of capital sentencing
laws enacted in this country provide the
clearest and most reliable evidence that
contemporary
values
demand
a
defendant not be put to death except
upon the unanimous consent of the
jurors who have deliberated upon all the
evidence of aggravating factors and
mitigating circumstances. By requiring
unanimity in a recommendation of death
in order for death to be considered and
imposed, Florida will achieve the
important goal of bringing its capital
sentencing laws into harmony with the
direction of society reflected in all these
states and with federal law.
202 So. 3d at 61. By receding from the unanimity
requirement, we retreat from the national consensus
and take a huge step backward in Florida’s death
penalty jurisprudence.
The historical treatment of unanimity in Florida
underscores our conclusion in Hurst v. State that
Florida’s right to trial by jury, contained in article I,

53a
section 22, of the Florida Constitution, requires that a
jury unanimously recommend a sentence of death. For
well more than a century, Florida law has required
that a jury unanimously vote to convict a defendant of
a criminal offense. See Ayers v. State, 57 So. 349, 350
(Fla. 1911) (“Of course, a verdict must be concurred in
by the unanimous vote of the entire jury . . . .”); On
Motion to Call Circuit Judge to Bench, 8 Fla. 459, 482
(Fla. 1859) (“The common law wisely requires the
verdict of a petit jury to be unanimous . . . .”). This
settled law compelled this Court’s conclusion in Hurst
v. State that the unanimity requirement applied not
only to the jury’s duty to determine whether to convict
the defendant, but upon conviction, to the jury’s duty
to determine whether the defendant should receive the
death penalty. We said: “This recommendation is
tantamount to the jury’s verdict in the sentencing
phase of trial; and historically, and under explicit
Florida law, jury verdicts are required to be
unanimous.” Hurst, 202 So. 2d at 54. Given Florida’s
long history of requiring unanimous jury verdicts, it
defies reason to require unanimous juries for the
conviction of a capital offense but to then reduce the
jury’s collective obligation when determining whether
the defendant’s life should be taken as punishment for
that offense.
As Justice Brennan explained: “[S]tate courts
cannot rest when they have afforded their citizens the
full protections of the federal Constitution. State
constitutions, too, are a font of individual liberties,
their protections often extending beyond those
required by the Supreme Court’s interpretation of
federal law. The legal revolution which has brought
federal law to the fore must not be allowed to inhibit

54a
the independent protective force of state law—for
without it, the full realization of our liberties cannot
be guaranteed.” William J. Brennan, Jr., State
Constitutions and the Protection of Individual Rights,
90 Harv. L. Rev. 489, 491 (1977). Our determination
that Florida’s right to trial by jury requires unanimity
fell squarely within our role as “the arbiters of the
meaning and extent of the safeguards provided under
Florida’s Constitution.” Busby v. State, 894 So. 2d 88,
102 (Fla. 2004). “[W]e have the duty to independently
examine and determine questions of state law so long
as we do not run afoul of federal constitutional
protections or the provisions of the Florida
Constitution that require us to apply federal law in
state-law contexts.” State v. Kelly, 999 So. 2d 1029,
1043 (Fla. 2008).
In deciding Hurst v. State, this Court was ever
mindful that “where discretion is afforded a
sentencing body on a matter so grave as the
determination of whether a human life should be
taken or spared, that discretion must be suitably
directed and limited so as to minimize the risk of
wholly arbitrary and capricious action.” Gregg v.
Georgia, 428 U.S. 153, 189 (1976) (citing Furman v.
Georgia, 408 U.S. 238 (1972)). Requiring “that a jury
must unanimously recommend death in order to make
a death sentence possible serves that narrowing
function required by the Eighth Amendment . . . and
expresses the values of the community as they
currently relate to imposition of death as a penalty.”
Hurst, 202 So. 3d at 60.
The imperative for a just application of the death
penalty is not a pie-in-the-sky concept. “The unusual
severity of death is manifested most clearly in its

55a
finality and enormity. Death, in these respects, is in a
class by itself.” Furman, 408 U.S. at 289 (Brennan, J.,
concurring). Florida holds the shameful national title
as the state with the most death row exonerations.
Since 1973, twenty-nine death row inmates have been
exonerated, and those exonerations have continued to
this very year. Death Penalty Information Center,
https://deathpenaltyinfo.org/state-and-federalinfo/state-by-state/florida (last visited December 23,
2019). Given this history, there is every reason to
maintain reasonable safeguards for ensuring that the
death penalty is fairly administered.
I strongly object to the characterization of this
Court’s decision in Hurst v. State as one where this
Court “wrongly took [discretion] from the political
branches.” Majority op. at 39. As the court of last
resort in Florida’s third and co-equal branch of
government—whose responsibility it is to interpret
the law—that is what this Court did in Hurst v. State.
The constitutionality of a provision of Florida’s death
penalty law is uniquely this Court’s to interpret.
Death is indeed different. When the government
metes out the ultimate sanction, it must do so
narrowly and in response to the most aggravated and
least mitigated of murders. Florida’s former bare
majority requirement permitted a jury, with little
more than a preponderance of the jurors, to
recommend that a person be put to death. This Court
correctly decided that in Florida, the state and federal

56a
constitutions require much more and, until today, for
a “brief and shining moment,” it did just that.6
Sadly, this Court has retreated from the
overwhelming majority of jurisdictions in the United
States that require a unanimous jury recommendation
of death. In so doing, this Court has taken a giant step
backward and removed a significant safeguard for the
just application of the death penalty in Florida.
Although in 2017, in response to our decision in
Hurst v. State, the Legislature revised section
921.141(2), Florida Statutes, to require a unanimous
recommendation by the jury, nothing in the majority’s
decision today requires the Legislature to abandon the
unanimity requirement. As the majority pointed out
in its decision: “Our decision today is not a comment
on the merits of those changes or on whether they
should be retained.” Majority op. at 39.
For these reasons, I dissent.
An Appeal from the Circuit Court in and for Polk
County,
Jalal A. Harb, Judge - Case No.
532001CF007078A0XXXX
Ashley Moody, Attorney General, Tallahassee,
Florida, and Scott A. Browne, Chief Assistant
Attorney General, Tampa, Florida,
for Appellant/Cross-Appellee

6

(1960)

Alan J. Lerner & Frederick Loewe, Camelot, act II, scene 7

57a
Eric Pinkard, Capital Collateral Regional Counsel,
and James L. Driscoll Jr., David Dixon Hendry, and
Rachel P. Roebuck, Assistant Capital Collateral
Regional Counsel, Middle Region, Temple Terrace,
Florida; and Mark J. MacDougall and Z.W. Julius
Chen, Washington, District of Columbia, and Parvin
Daphne Moyne of Akin Gump Strauss Hauer & Feld
LLP, New York, New York,
for Appellee/Cross-Appellant

58a
IN THE CIRCUIT COURT OF THE TENTH
JUDICIAL CIRCUIT
IN AND FOR POLK COUNTY, FLORIDA
STATE OF FLORIDA,
Plaintiff,
v.
MARK ANTHONY
POOLE,
Defendant.

CASE NO: CF01007078A-XX
SECTION: F9

/

INTERIM ORDER ON MOTION TO VACATE
JUDGMENT OF CONVICTION AND
SENTENCE
This cause came on for a for a [sic] Second Case
Management Conference on March 10, 2017, pursuant
to Rule 3.851, Fla. R. Crim. P. Upon review of the
“Defendant’s Amended Claim 3 To Motion To Vacate
Judgment Of Conviction And Sentence, “filed on
January 25, 2017, the “State’s Response To Amended
Rule 3.851 Motion For Post-Conviction Relief,” filed on
February 20, 2017, the Defendant’s “Notice of
Supplemental Authority,” filed on March 3, 2017, the
Defendant’s “Refiled Notice of Supplemental
Authority,” filed on March 6, 2017, the court file;
applicable law; and hearing argument from counsel at
the Second Case Management Conference on March
10, 2017, the Court finds as follows:

59a
Claim 3 of the “Defendant’s Amended Claim 3 To
Motion To Vacate Judgment Of Conviction And
Sentence,” reads:
CLAIM 3
IN LIGHT OF HURST V. FLORIDA, HURST V.
STATE, RING, AND APPRENDI, MR. POOLE’S
DEATH SENTENCE VIOLATES THE FIFTH,
SIXTH,
EIGHTH,
AND
FOURTEENTH
AMENDMENTS OF THE UNITED STATES
CONSTITUTION,
THE
CORRESPONDING
PROVISIONS OF THE FLORIDA CONSTITUTION
AND ARTICLE I, SECTIONS 15, 16, AND 22 OF THE
FLORIDA CONSTTUTION [sic].
3-1: MR. POOLE’S DEATH SENTENCE
SHOULD BE VACATED BECAUSE IT
IS UNCONSTITUTIONAL BASED ON
HURST V. FLORIDA AND HURST V.
STATE, PRIOR PRECEDENT AND
SUBSEQUENT
DEVELOPMENTS
BECAUSE MR. POOLE WAS DENIED
HIS RIGHT TO A JURY TRIAL ON THE
FACTS THAT LED TO HIS DEATH
SENTENCE.
3-2: THIS COURT SHOULD VACATE
MR. POOLE’S DEATH SENTENCE
BECAUSE, IN LIGHT OF HURST V.
FLORIDA AND HURST V. STATE,
AND SUBSEQUENT CASES, MR.
POOLE’S
DEATH
SENTENCE
VIOLATES
THE
EIGHTH
AMENDMENT BECAUSE HIS DEATH
SENTENCE WAS CONTRARY TO
EVOLVING
STANDARDS
OF

60a
DECENCY AND IS ARBITRARY AND
CAPRICIOUS.
3-3: THIS COURT SHOULD VACATE
MR. POOLE’S DEATH SENTENCE
BECAUSE THE FACT-FINDING THAT
SUBJECTED MR. POOLE TO THE
DEATH WAS NOT PROVEN BEYOND
A REASONABLE DOUBT.
3-4: IN LIGHT OF HURST V. FLORIDA
AND HURST V. STATE, MR. POOLE’S
DEATH SENTENCE SHOULD BE
VACATED
BECAUSE
IT
WAS
OBTAINED IN VIOLATION OF THE
FLORIDA CONSTITUTION.
3-5: HURST V. FLORIDA AND HURST
V STATE APPLY RETROACTIVELY IN
MR. POOLE’S CASE.
3-6: THE HURST V. FLORIDA AND
HURST V. STATE ERROR IN MR.
POOLE’S CASE WAS NOT HARMLESS
BEYOND A REASONABLE DOUBT.
The Court entered an “Order On Case
Management Conference”, on September 21, 2016,
which stated in part:
The Court finds that it would be
appropriate to have an evidentiary
hearing on subclaims 1-1.1, 1-1.2, 1-1.3,
of subclaim 1-1 of Claim 1; subclaims 12.1, 1-2.2 of subclaim 1-2 of Claim 1, and
subclaims 1-3, 1-4, and 1-5 of Claim1
[sic]; subclaims 2-1.1, 2-1.2. and 2-1.3 of
subclaim 2-1 of Claim 2; subclaims 2-2

61a
and 2-3 of Claim 2; and Claim 4 of the
Defendant’s
“Motion
To
Vacate
Judgment of Conviction And Sentence.”
Subclaims 3-1, 3-2, 3-3, 3-4, and 3-5 of
Claim 3 concern the impact of Hurst v.
Florida, 136 S.Ct. 616 (2016). The Court
defers making a ruling at this time on
whether Claim 3 and these subclaims
should be part of the evidentiary hearing
pending a ruling by the Florida Supreme
Court on this subject.
At the Case Management Conference on March
10, 2017, the defense and the State agreed that
Amended Claim 3 of the Defendant’s Motion involved
legal matters that could be ruled upon by the Court
without the necessity of an evidentiary hearing. The
Parties asked the Court to rule on the Defendant’s
Amended Claim 3 in an Interim Order.
The Defendant’s Amended Claim 3 is based upon
the ruling by the United States Supreme Court in
Hurst v. Florida, 136 S.Ct. 616 (2016), and the ruling
by the Florida Supreme Court in Hurst v. State. 202
So.3d 40 (Fla. 2016). In Hurst v. Florida, the United
States Supreme Court found that Florida’s Capital
sentencing scheme was unconstitutional because the
judge, not the jury, made the necessary findings of fact
to impose a death sentence. On page 44 of Hurst v.
State, the Florida Supreme Court stated,
As we will explain, we hold that the
Supreme Court’s decision in Hurst v.
Florida requires that all the critical
findings necessary before the trial court
may consider imposing a sentence of

62a
death must be found unanimously by the
jury. We reach this holding based on the
mandate of Hurst v. Florida and on
Florida’s constitutional right to jury
trial, considered in conjunction with our
precedent concerning the requirement of
jury unanimity as to the elements of a
criminal offense. In capital cases in
Florida, these specific finding [sic]
required to be made by the jury include
the existence of each aggravating factor
that has been proven beyond a
reasonable doubt, the finding that the
aggravating factors are sufficient, and
the finding that the aggravating factors
outweigh the mitigating circumstances.
We also hold, based on Florida’s
requirement for unanimity in jury
verdicts, and under the Eighth
Amendment to the United States
Constitution, that in order for the trial
court to impose a sentence of death, the
jury’s recommended sentence of death
must be unanimous.
The Florida Supreme Court held in Mosley v.
State, 2016 WL 7406506, 41 Fla. L. Weekly S629 (Fla.
December 22, 2016), that the Hurst rulings apply to
all defendants whose sentences were not final at the
time the United States Supreme Court issued its
opinion in Ring v. Arizona, 536 U.S. 584 (2002). Ring
was issued on June 24, 2002. See also Hojan v. State,
2017 WL 410215 (Fla. January 31, 2017).
The Defendant was tried and found guilty of the
First Degree Murder, Attempted First-Degree

63a
Murder, Armed Burglary, Sexual Battery, and Armed
Robbery. On August 25, 2005, the Trial Court
sentenced Mr. Poole to death for the First Degree
Murder of Noah Scott. The Florida Supreme Court
affirmed his convictions but remanded the case for a
new penalty phase. See Poole v. State, 997 So.2d 382
(Fla. 2008). On June 28, 2011, a jury by the vote of 11
to 1 recommended a sentence of death. The Trial
Court imposed a sentence of death on August 19, 2011.
The Defendant’s sentence of death was affirmed on
appeal by the Florida Supreme Court on June 26,
2014. Rehearing Denied Nov. 20, 2014, in Poole v.
State, 151 So.3d 402 (Fla. 2014).
Based on the above, the Court finds that Hurst
does apply retroactively to Mr. Poole. However, it is
also necessary to consider if the Hurst error was
harmless error. The State of Florida takes the position
that the Hurst error in this case was harmless.
In Durrousseu v. State, 2017 WL 411331 at *6
(Fla. January 31, 2017), the Florida Supreme Court
opined, “[t]herefore, in the context of a Hurst v. Florida
error, the burden is on the State, as the beneficiary of
the error, to prove beyond a reasonable doubt that the
jury’s failure to unanimously find all the facts
necessary for imposition of the death penalty did not
contribute to Hurst’s death sentence in this case.” The
Florida Supreme Court has found that Hurst error
was harmless error in cases where the jury’s
recommendation for death was unanimous. See Davis
v. State, 2016 WL 6649941 (November 10, 2016) and
Hall v. State, 2017 WL 526509 (Fla. February 9, 2017).
However, in the cases that involve non-unanimous
jury recommendations, the Florida Supreme Court
has remanded the cases for a new penalty phase. In

64a
Williams v. State, 2017 WL 224529 (Fla. January 19,
2017), (jury recommendation 9 to 3), the Florida
Supreme Court found that there was no way to
determine if the jury unanimously concluded that
sufficient aggravation existed to warrant a death
sentence. In Durrousseu v. State, 2017 WL 411331
(Fla. January 31, 2017), (jury recommendation 10 to
2), the Court noted that there was no way to conclude
if the two jurors that voted to recommend a life
sentence found that the aggravation outweighed the
mitigation. In Dubose v. State, 2017 WL 526506 at
*12 (Fla. February 9, 2017), the Florida Supreme
Court stated, “[w]e have also determined that in cases
where
the
jury
makes
a
non-unanimous
recommendation of death, the Hurst error is not
harmless.” Additionally, in Johnson v. State, 205
So.3d 1285 (Fla. 2016), (jury recommendation 11 to 1
for each of the three (3) murder convictions). The
Florida Supreme Court held:
We are unable to conclude “beyond a
reasonable doubt [that] there is no
possibility that the Hurst v. Florida error
in this case contributed to the sentence.”
The Court finds that because the jury
recommendation in this case was not unanimous, it
cannot find beyond a reasonable doubt that the Hurst
error did not contribute to Mr. Poole’s sentence of
death. Because it is the determination of the Court
that the Defendant is entitled to a new penalty phase
trial based on Hurst as argued in Claim 3 of his
Motion, the Court is not going to independently rule
on each of the subclaims in Claim 3 of his Motion.

65a
Based on the
ADJUDGED;

above,

it is ORDERED

AND

1. Claim 3 of the “Defendant’s Amended
Claim 3 To Motion To Vacate Judgment
of Conviction And Sentence,” is
GRANTED to the extent that he is
entitled to a new penalty phase trial.
2. A Status Hearing is set for April 6,
2017 at 2:30 p.m. in Courtroom 9C.
3. An Evidentiary Hearing is set for July
10 - July 14, 2017, at 8:30 a.m. in
Courtroom 9C on subclaims 1-1.1, 1-1.2,
1-1.3, of subclaim 1-1 of Claim 1;
subclaims 1-2.1, 1-2.2 of subclaim 1-2 of
Claim 1, and subclaims 1-3, 1-4, and 1-5
of Claim 1, which are Guilt Phase Claims
in the Defendant’s “Motion To Vacate
Judgment of Conviction And Sentence.”
4. The Evidentiary hearing set for July
10 – July 14, 2017, will include Claim 4
to the extent it involves Guilt Phase
Claims.
5. The Evidentiary hearing set for July
10 – July 14, 2017, will not include
subclaims 2-1.1, 2-1.2. and 2-1.3 of
subclaim 2-1 of Claim 2 and subclaims 22 and 2-3 of Claim 2; which are Penalty
Phase Claims, not based on Hurst issues,
from the Defendant’s “Motion To Vacate
Judgement of Conviction And Sentence.”
DONE AND ORDERED in Bartow, Polk County,
Florida this day 29th of March 2017.

66a
s/ Jalal A. Harb
JALAL A. HARB
Circuit Court Judge
cc:
Mark Poole #H12548
Union Correctional
Institution
25636 NE SR-16
P.O. Box 1000
Raiford, FL 32083

Scott Browne, Esq.
Assistant Attorney
General
Concourse Center 4
3507 E. Frontage Rd.
Suite 200
Tampa, FL 33607-7013

Gregory Brown, Esq.
David Dixon Hendry, Esq.
James L. Driscoll, Jr.,
Esq.
Capital Collateral
Regional Counsel
Middle Region
12973 N. Telecom
Parkway
Temple Terrace, FL
33637
Hope Pattey, Esq.
Victoria Avalon, Esq.
State Attorney’s Office
255 North Broadway
Avenue
Drawer SA P.O. Box 9000
Bartow, FL 33831-9000

I CERTIFY the foregoing is a true copy of the original
as it appears on file in the office of the Clerk of the
Circuit Court of Polk County, Florida, and that I have
furnished copies of this order and its attachments to
the above-listed on this 31 day of March, 2017.

67a
CLERK OF THE CIRCUIT
COURT
By: s/
Deputy Clerk

68a
IN THE CIRCUIT COURT OF THE TENTH
JUDICIAL CIRCUIT
IN AND FOR POLK COUNTY, FLORIDA
STATE OF FLORIDA,
Plaintiff,
v.
MARK ANTHONY
POOLE,
Defendant.

CASE NO: CF01007078A-XX
SECTION: F9

/

ORDER ON DEFENDANT’S MOTION TO
VACATE
JUDGMENT OF CONVICTION AND
SENTENCE
THIS MATTER is before the Court upon
Defendant’s “Motion To Vacate Judgment Of
Conviction And Sentence,” filed on April 8, 2016; the
“State’s Response To Rule 3.851 Motion For PostConviction Relief,” filed on June 6, 2016; the Court’s
Order On Case Management Conference,” filed on
September 22, 2016; the “Defendant’s Motion To
Amend Motion To Vacate Judgments of Conviction
And Sentence of Death,” filed on January 25, 2017; the
“Defendant’s Amended Claim 3 To Motion To Vacate
Judgment of Conviction And Sentence,” filed on
January 25, 2017; the “State’s Response To Amended
Rule 3.851 Motion For Post-Conviction Relief,” filed on
February 20, 2017; the Defendant’s “Notice of
Supplemental Authority,” filed on March 3, 2017; the

69a
Defendant’s “Refiled Notice of Supplemental
Authority,” filed on March 6, 2017; the Court’s Interim
Order On Motion To Vacate Judgment Of Conviction
And Sentence,” filed on March 31, 2017; an
Evidentiary Hearing held on July 10, 2017; the Court’s
“Order On July 10, 2017 Evidentiary Hearing And
Order Regarding Submission Of Written Closing
Arguments,” filed on July 19, 2017; the “Defendant’s
Written Closing Argument Following Evidentiary
Hearing On Guilt Phase Claims, filed on October 25,
2017; the “State’s Written Closing Argument
Following Post-Conviction Evidentiary Hearing,” filed
on November 6, 2017; and the “Defendant’s Response
To State’s Written Closing Argument Following PostConviction Evidentiary Hearing,” filed on November
16, 2017.
The Court having reviewed the
postconviction Motion and Amended Postconviction
Motion filed by the Defendant, the State’s Responses;
having heard the testimony and reviewed the evidence
presented at the evidentiary hearing on July 10, 2017;
having reviewed the written Closing Arguments from
all parties (including the Defendant’s Response);
having reviewed the case file, and the applicable case
and statutory law; and being otherwise fully advised
in the premises, finds as follows:
STATEMENT OF PROCEDURAL HISTORY
On November 1, 2001, the Defendant, Mark Poole,
(hereinafter referred to as Mr. Poole), was charged by
Indictment with Count 1- First Degree Murder for the
murder of Noah Scott. He was also charged in the
Indictment with Count 2 - Attempted First Degree/
Attempted Felony Murder, Count 3- Armed Burglary,
Count 4 - Sexual Battery –Great Force, and Count 5 Armed Robbery. On April 25, 2005, the jury found Mr.

70a
Poole guilty of first degree murder with a weapon,
attempted first degree murder with a weapon, armed
burglary with intent to commit an assault or battery
with a weapon, sexual battery with great force, and
armed robbery with a deadly weapon.
On May 4, 2005, the jury recommended by a vote
of twelve (12) to zero (0), that the Court sentence Mr.
Poole to death. A Spencer hearing was held on July
22, 2005.
The Trial Court agreed with the death
recommendation of the jury and sentenced Mr. Poole
to death on August 25, 2005, for the murder of Noah
Scott. A summary of the Aggravating Circumstances
and Mitigators considered by the Trial Court are
described in this Order below under STATEMENT
OF THE CASE FACTS. On August 25, 2005, the
Trial Court also sentenced the Defendant to a term of
life imprisonment for the attempted first degree
murder of Loretta White, to life imprisonment for
armed burglary with intent to commit an assault or
battery with a weapon, to life imprisonment for sexual
battery with great force, and to life imprisonment for
armed robbery with a deadly weapon.
On December 11, 2008, on direct appeal, the
Supreme Court of Florida affirmed the convictions but
vacated the sentence of death and remanded the case
to the Trial Court to conduct a new penalty phase
proceeding. See Poole v. State, 997 So.2d 382 (Fla.
2008). A new penalty phase proceeding commenced on
June 20, 2011.
On June 28, 2011, a jury recommended by a vote
of eleven (11) to one (1) that the Court sentence the
Defendant to death for the murder of Noah Scott. A

71a
Spencer hearing was held on July 29, 2011. The Trial
Court agreed with the death recommendation of the
jury and sentenced the Defendant to death on August
19, 2011.
The Trial Court found that the following
Aggravating Circumstances were established for the
murder of Noah Scott: (1) the Defendant was
contemporaneously convicted of another capital felony
or a felony involving the use or threat of violence to the
person, (great weight) ; (2) the capital felony was
committed while the defendant was engaged in the
commission of, or attempt to commit, or in flight after
committing or attempting to commit the crimes of
armed burglary, sexual battery with great force, and
armed robbery, (great weight); (3) the capital felony
was committed for financial gain, (moderate weight);
and (4) the capital felony was especially heinous,
atrocious or cruel HAC, (great weight).
The Court found that the following two statutory
mitigators were established: (1) the capital felony was
committed while the defendant was under the
influence of extreme mental or emotional disturbance
(moderate to great weight); and (2) the capacity of the
defendant to appreciate the criminality of his conduct
or conform his conduct to the requirements of law was
substantially impaired (great weight).
The Court found that the following eleven nonstatutory mitigating circumstances were established:
(1) the defendant has borderline intelligence, (little
weight); (2) the defendant dropped out of school, either
in the ninth or tenth grade, (very little weight); (3) the
defendant lost his best friend, father figure, and
employer, which had an emotional effect on the

72a
defendant and led to his drug abuse, (very little
weight); (4) the defendant sought help for his drug
problem in the past, (very little weight); (5) the
defendant had an alcohol abuse problem at the time of
the crime, (very little weight); (6) the defendant had a
drug abuse problem at the time of the crime, (very
little weight); (7) the defendant has and can continue
a relationship with his son, (very little weight); (8) the
defendant has a strong work ethic, (very little weight);
(9) the defendant is a religious person, (very little
weight); (10) the defendant is a dedicated uncle to his
nephews, (very little weight); and (11) the defendant
needs specialized treatment for a mental disorder
unrelated to substance abuse, (very little weight). The
Court also found that a proposed mitigating
circumstance, (the defendant has a severe, chronic
alcohol and cocaine addiction, for which he is in need
of treatment), was not proven. The Trial Court found
that the aggravating circumstances far outweighed
the mitigating circumstances for the murder of Noah
Scott. The Trial Court also added, “Additionally, the
Court is of the opinion that the heinous, atrocious, and
cruel aggravator alone outweighs all mitigating
circumstances in this case.”
On June 26, 2014, on direct appeal, the Supreme
Court of Florida affirmed the Trial Court’s sentence of
death. Rehearing was denied on November 20, 2014.
Mr. Poole filed his “Motion To Vacate Judgment Of
Conviction And Sentence,” on April 8, 2016; and
“Defendant’s Amended Claim 3 To Motion To Vacate
Judgment of Conviction And Sentence,” was filed on
January 25, 2017. On March 31, 2017, the Court
rendered an “Interim Order On Motion To Vacate
Judgment Of Conviction And Sentence.”

73a
STATEMENT OF THE CASE FACTS
The underlying facts of the case are set forth in
Poole v. State, 151 So.3d 402, 406 -408, (Fla. 2014),
and are presented below:
On the evening of October 12, 2001, after
playing some video games in the
bedroom of their mobile home, Noah
Scott and Loretta White went to bed
sometime between 11:30 p.m. and 12
a.m. Later during the night, White woke
up with a pillow over her face and Poole
sitting on top of her. Poole began to rape
and sexually assault her as she begged
Poole not to hurt her because she was
pregnant.
As White struggled and
resisted, Poole repeatedly struck her
with a tire iron. She put her hand up to
protect her head, and one of her fingers
and part of another finger were severed
by the tire iron.
While repeatedly
striking White, Poole asked her where
the money was. During this attack on
White, Scott attempted to stop Poole, but
was also repeatedly struck with the tire
iron. As Scott struggled to defend White,
Poole continued to strike Scott in the
head until Scott died of blunt force head
trauma. At some point after the attack,
Poole left the bedroom and White was
able to get off the bed and put on clothes
but she passed out before leaving the
bedroom.
Poole came back in the
bedroom and touched her vaginal area
and said “thank you.” White was in and

74a
out of consciousness for the rest of the
night. She was next aware of the time
around 8 a.m. and 8:30 a.m. when her
alarm went off.
When her alarm went off, White
retrieved her cell phone and called 911.
Shortly thereafter, police officers were
dispatched to the home. They found
Scott unconscious in the bedroom and
White severely injured in the hallway by
the bedroom.
White suffered a
concussion and multiple face and head
wounds and was missing part of her
fingers. Scott was pronounced dead at
the scene. Evidence at the crime scene
and in the surrounding area linked Poole
to the crimes. Several witnesses told
police officers that they saw Poole or a
man matching Poole’s description near
the victims’ trailer on the night of the
crimes. Stanley Carter stated that when
he went to the trailer park around 11:30
that night, he noticed a black male
walking towards the victims’ trailer.
Carter’s observations were consistent
with that of Dawn Brisendine, who knew
Poole and saw him walking towards the
victims’ trailer around 11:30 p.m.
Pamela
Johnson,
Poole’s
live-in
girlfriend, testified that on that evening,
Poole left his house sometime in the
evening and did not return until 4:50
a.m.

75a
Poole was also identified as the person
selling video game systems owned by
Scott and stolen during the crime.
Ventura Rico, who lived in the same
trailer park as the victims, testified that
on that night, while he was home with
his cousin’s girlfriend, Melissa Nixon, a
black male came to his trailer and
offered to sell him some video game
systems. Rico agreed to buy them for
$50, at which point the black male
handed him a plastic trash bag. During
this exchange, Nixon got a good look at
the man and later identified Poole when
the
police
showed
her
several
photographs. Nixon testified that the
next morning, when her son was going
through the trash bag, he noticed that
one of the systems had blood on it.
Pamela Johnson also testified that on
the same morning, she found a game
controller at the doorstep of Poole’s
house, she handed it to Poole, and Poole
put it in his nightstand. She indicated
that she had never seen that game
controller before that morning and did
not know what it would be used for
because neither she nor Poole owned any
video game systems. During the search
of Poole’s residence, the police retrieved
*407 this controller. In addition, the
police retrieved a blue Tommy Hilfiger
polo shirt and a pair of Poole’s Van shoes,
shoes Poole said he had been wearing on

76a
the night of the crimes. A DNA analysis
confirmed that the blood found on the
Sega Genesis box, Super Nintendo, Sega
Dreamcast box and controller matched
the DNA profile of Scott. Also, a stain
found on the left sleeve of Poole’s blue
polo shirt matched White’s blood type.
The testing of a vaginal swab also
confirmed that the semen in White was
that of Poole. A footwear examination
revealed that one of the two footwear
impressions found on a notebook in the
victims’ trailer matched Poole’s left Van
shoe. The tire iron used in the crimes
was found underneath a motor home
located near the victims’ trailer. A DNA
analysis determined that the blood found
on this tire iron matched Scott’s DNA
profile.
Based on this evidence, the jury returned
a verdict finding Poole guilty on all
charges, including first-degree murder.
Following the penalty phase, the jury
recommended death by a vote of twelve
to zero. The trial court followed the
jury’s recommendation and sentenced
Poole to death. The trial court found two
statutory aggravating circumstances: (1)
the defendant was previously convicted
of another capital felony or of a felony
involving the use or threat of violence to
the person, and (2) the murder was
especially heinous, atrocious, or cruel.
The court also found three statutory

77a
mitigators and numerous nonstatutory
mitigators. The statutory mitigators
were: (1) the crime for which Poole was
to be sentenced was committed while he
was under the influence of extreme
mental or emotional
disturbance
(moderate weight); (2) Poole’s capacity to
conform his conduct to the requirements
of law was substantially impaired
(moderate weight); and (3) Poole had no
significant history of prior criminal
activity (little weight). The nonstatutory
mitigators were: (1) Poole is of borderline
intelligence (some weight); (2) Poole
received a head injury, which created
dementia (little weight); (3) Poole’s age
at the time of the crime linked with
mental deficiency and lack of serious
criminal history (moderate weight); (4)
Poole dropped out of school due to his low
intelligence and learning disabilities
(little weight); (5) Poole lost Mr. Bryant,
his “best friend, father figure, employer,”
and that had an emotional effect on Poole
and led to his drug use (some weight); (6)
Poole sought help for his drug problem in
the past (little weight); (7) Poole had an
alcohol abuse problem at the time of the
crime (little weight); (8) Poole had a drug
abuse problem at the time of the crime
(little weight); (9) Poole does not have
antisocial personality disorder nor is he
psychopathic (some weight); (10) Poole
has and can continue a relationship with
his son (minimum weight); (11) Poole has

78a
a strong work ethic (little weight); (12)
Poole has a close relationship with his
family (moderate weight); (13) Poole is a
religious person (little weight); and (14)
the murder and rape were impulsive
excessive acts, not premeditated acts
(little weight).
The trial court
determined that these mitigating factors
did not outweigh the aggravating
circumstances and, as a result, the trial
court sentenced Poole to death on the
count of first-degree murder. The trial
court also sentenced Poole to consecutive
life sentences for the attempted firstdegree murder of Loretta White, armed
burglary, sexual battery of Loretta
White, and armed robbery.
[On direct] appeal, Poole raise[d] four
issues: (1) whether the trial court abused
its discretion in denying Poole’s motion
for mistrial when the prosecutor
repeatedly commented during closing
argument on Poole’s failure to testify at
trial and on his silence after his arrest;
(2) whether the prosecutor violated
Poole’s right to a fair penalty phase
proceeding by cross-examining defense
witnesses about the unproven prior
arrests, the unproven content of a tattoo,
and the lack of remorse; (3) whether the
prosecutor violated Poole’s right to a fair
penalty phase proceeding by misleading
the jurors about their responsibilities in
recommending a sentence; and (4)

79a
whether Florida’s death penalty statute
violates the Sixth Amendment right to
trial by jury.
Id. at 387-89 (footnote omitted). Based
on the cumulative effect of the errors
made during the penalty phase of the
trial, this Court vacated Poole’s death
sentence and remanded the case for a
new penalty phase. Id. at 394.
Resentencing
On remand, following the new penalty
phase, the jury recommended death by a
vote of eleven to one. Following a
Spencer2 [sic] hearing, the trial court
followed the jury’s recommendation and
sentenced Poole to death. The trial court
found four aggravating circumstances:
(1) the contemporaneous conviction for
the attempted murder of Loretta White
(very great weight); (2) capital felony
occurred during the commission of
burglary, robbery and sexual battery
(great weight); (3) capital felony was
committed for financial gain (merged
with robbery, but not merged with
burglary or sexual battery) (less than
moderate weight); and (4) the capital
felony was committed in a heinous,
atrocious or cruel manner (HAC) (very
great weight).
The trial court found two statutory
mental mitigating circumstances: (1)
the capital felony was committed while

80a
the defendant was under the influence of
extreme
mental
or
emotional
disturbance (moderate to great weight);
and (2) defendant’s capacity to
appreciate the criminality of his conduct
or conform his conduct to the
requirements
of
the
law
was
substantially impaired (great weight).
The trial court also found eleven
nonstatutory mitigating circumstances,
according them little or very little
weight: (1) borderline intelligence (little
weight); (2) defendant dropped out of
school (very little weight); (3) loss of
father figure had emotional effect and
led to his drug abuse (very little weight);
(4) defendant sought help for drug
problem (very little weight); (5)
defendant had an alcohol problem at
time of crime (very little weight); (6) drug
abuse problem at time of crime (very
little weight); (7) defendant has a
relationship with son (very little weight);
(8) strong work ethic (very little weight);
(9) defendant is a religious person (very
little weight); (10) dedicated uncle (very
little weight); and (11) defendant needs
treatment for mental disorder unrelated
to substance abuse (very little weight).
The trial court determined that the
proposed mitigator that the defendant
has severe chronic alcohol and cocaine
problem for which he needs treatment
was not proven.

81a
The trial court sentenced Poole to death,
finding
that
the
aggravating
circumstances
“far
outweigh
the
mitigating circumstances” and that the
“heinous, atrocious, or cruel aggravator
alone outweighs all the mitigating
circumstances in this case.”
POSTCONVICTION MOTIONS
The Defendant filed his “Motion To Vacate
Judgment Of Conviction And Sentence,” on April 8,
2016. The “State’s Response To Rule 3.851 Motion For
Post-Conviction Relief’ was filed on June 6, 2016. On
January 25, 2017, the Defendant filed “Defendant’s
Amended Claim 3 To Motion To Vacate Judgment of
Conviction And Sentence.” The State filed the “State’s
Response To Amended Rule 3.851 Motion For PostConviction Relief,” on February 20, 2017.
CASE MANAGEMENT CONFERENCES
A Case Management Conference was held on
September 15, 2016, pursuant to Rule 3.851, Fla. R.
Crim. P. In the “Order On Case Management
Conference” the Court stated, “The Court finds that it
would be appropriate to have an evidentiary hearing
on subclaims 1-1.1, 1-1.2, 1-1.3, of subclaim 1-1 of
Claim 1; subclaims 1-2.1, 1-2.2 of subclaim 1-2 of
Claim1 [sic], and subclaims 1-3, 1-4, and 1-5 of Claim1
[sic]; subclaims 2-1.1, 2-1.2. and 2-1.3 of subclaim 2-1
of Claim 2; subclaims 2-2 and 2-3 of Claim 2; and
Claim 4 of the Defendant’s “Motion To Vacate
Judgment of Conviction And Sentence.” In the “Order
On Case Management Conference,” the Court also
stated, “Subclaims 3-1, 3-2, 3-3, 3-4, and 3-5 of Claim
3 concern the impact of Hurst v. Florida. 136 S.Ct. 616

82a
(2016). The Court defers making a ruling at this time
on whether Claim 3 and these subclaims should be
part of the evidentiary hearing pending a ruling by the
Florida Supreme Court on this subject.”
A Second Case Management Conference was held
on March 10, 2017. At this Second Case Management
Conference, the State and the Defense agreed that
Amended Claim 3 of the Defendant’s Motion involved
legal matters that could be ruled on by the with [sic]
Court without the necessity of an evidentiary hearing.
On March 31, 2017, the Court rendered an “Interim
Order On Motion To Vacate Judgment of Conviction
and Sentence.” In that “Interim Order,” the Court
held that “Claim 3 of the “Defendant’s Amended Claim
3 to Motion To Vacate Judgment Of Conviction And
Sentence,” is GRANTED to the extent that he is
entitled to a new penalty phase trial.” The Court
further stated that, “Because it is the determination of
the Court that the Defendant is entitled ot [sic] a new
penalty phase trial based on Hurst, as argued in Claim
3 of his Motion, the Court is not going to independently
rule on each of the subclaims in Claim 3 of his Motion.”
In addition, the Court’s “Interim Order,” stated,
3. “An Evidentiary Hearing is set for
July 10 – July 14, 2017, at 8:30 a.m. in
Courtroom 9C on subclaims 1-1.1, 1-1.2,
1-1.3, of subsclaim [sic] 1-1 of Claim 1;
subclaims 1-2.1, 1-2.2 of subclaim 1-2 of
Claim 1, and subclaims 1-3, 1-4, and 1-5
of Claim 1, which are Guilt Phase Claims
in the Defendant’s “Motion To Vacate
Judgment of Conviction And Sentence.”

83a
4. The Evidentiary hearing set for
July 10 - July 14, 2017, will include
Claim 4 to the extent it involves Guilt
Phase Claims.
5. The Evidentiary hearing set for
July 10 - July 14, 2017, will not include
subclaims 2-1.1, 2-1.2, and 2-1.3 of
subclaim 2-1 of Claim 2 and subclaims 22 and 2-3 of Claim 2; which are Penalty
Phase Claims, not based on Hurst issues,
from the Defendant’s “Motion To Vacate
Judgment of Conviction and Sentence”.
EVIDENTIARY HEARING - WITNESSES
An evidentiary hearing was held in this matter on
July 10, 2017. The Honorable Howard Dimmig, Public
Defender for the Tenth Judicial Circuit, was called as
a witness by the Defendant. Mr. Dimmig was the only
witness that testified at the evidentiary hearing. He
was an Assistant Public Defender and a co-counsel for
the Defendant at his jury trial in 2005.
ANALYSIS OF DEFENDANT’S CLAIMS
Strickland Standard:
The United States Supreme Court in Strickland v.
Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d
674 (1984), set forth the standard for determining
ineffective assistance of counsel.
To establish
ineffective assistance of counsel, a Defendant must
prove two elements. First, the Defendant must show
that counsel’s performance was deficient.
The
defendant must show that counsel’s representation
fell below an objective standard of reasonableness.
“The proper measure of attorney performance remains

84a
simply reasonableness under prevailing professional
norms.” Strickland. 466 U.S. at 688. Second, the
Defendant must show that counsel’s deficient
performance prejudiced the defense. This occurs when
there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different. “A reasonable probability
is a probability sufficient to undermine confidence in
the outcome.” Strickland, 466 U.S. at 694. “Unless a
Defendant makes both showings, it cannot be said that
the conviction or death sentence resulted from a
breakdown in the adversary process that renders the
result unreliable.” Strickland, 466 U.S. at 687. The
Strickland standard requires establishment of both
prongs. Where a Defendant fails to make a showing
as to one prong, it is not necessary to delve into
whether he has made a showing as to the other prong.
See Waterhouse v. State, 792 So. 2d 1176 (Fla. 2001).
In Douglas v. State. 141 So.3d 107, 117 (Fla. 2012),
the Florida Supreme Court discussed Penalty Phase
prejudice and stated,
Penalty phase prejudice under the
Strickland standard is measured by
whether the error of trial counsel
undermines the Court’s confidence in the
sentence of death when viewed in the
context of the penalty phase evidence
and the mitigators and aggravators
found by the Trial Court...
That
standard does not “require a defendant
to show ‘that counsel’s deficient conduct
more likely than not altered the outcome
of his penalty proceeding, but rather that
he establish a probability sufficient to

85a
undermine confidence in [that] outcome.’
Porter v. McCollum, ---U.S.---, 130 S. CT
447, 455-56, 175 L.Ed 2d 398 (2009)
(alteration
in
original)
(quoting
Strickland, 466 U. S. at 693-94, 104 S.
Ct. 2052), “To assess that probability,
(the Court) consider(s) ‘the totality of the
available mitigation evidence ... and
reweighs it against the evidence in
aggravation.’” Id at 453-54 (quoting
Williams v. Taylor, 529 U.S. 362, 397-98,
120 S.Ct. 1495, 146 L.Ed 2d 389 (2000).
3.851 CLAIMS
The Defendant has four Claims for relief which
have numerous subclaims.
These Claims and
subclaims are set forth in his “Motion To Vacate
Judgment Of Conviction And Sentence” and
“Defendant’s Amended Claim 3 To Motion To Vacate
Judgment of Conviction And Sentence.”
The
Defendant’s Four Claims and subclaims are discussed
below.
CLAIM 1
MARK POOLE WAS DEPRIVED OF
HIS RIGHT TO A RELIABLE
ADVERSARIAL TESTING DUE TO
INEFFECTIVE ASSISTANCE OF
COUNSEL AT THE GUILT PHASE
OF HIS CAPITAL TRIAL, IN
VIOLATION OF HIS FOURTH,
FIFTH, SIXTH, EIGHTH, AND
FOURTEENTH
AMENDMENT
RIGHTS UNDER THE UNITED
STATES CONSTITUTION AND HIS

86a
CORRESPONDING
RIGHTS
UNDER THE DECLARATION OF
RIGHTS
OF
THE
FLORIDA
CONSTITUTION.
1-1: TRIAL COUNSEL WAS
INEFFECTIVE FOR FAILING TO
OBJECT
TO
IMPROPER
COMMENTS BY THE STATE
DURING
CLOSING
ARGUMENTS THUS DENYING
MR POOLE HIS RIGHTS UNDER
THE FIFTH, SIXTH, EIGHTH
AND
FOURTEENTH
AMENDMENTS TO THE UNITED
STATES CONSTITUTION AND
CORRESPONDING
PROVISIONS OF THE FLORIDA
CONSTITUTION.
1-1.1: Improper Comment on
Mr. Poole’s Right to Remain
Silent.
The Defendant alleges, “Trial counsel was
ineffective for failing to object to several improper
comments by the prosecutor on Mr. Poole’s right to
remain silent. These comments prejudiced Mr. Poole,
as there likely would have been a different outcome in
their absence, and this Court should grant Mr. Poole
relief.” In his Motion, the Defendant notes four
comments made by the prosecutor that he considers to
be comments on his right to remain silent:
(1) “Mr. Poole doesn’t make any admissions and he
doesn’t resist. Of course, he’s confronted with a
tremendous amount of force. Detective Navarro

87a
himself was not some skinny little guy.” (ROA, Vol.
XXI, P. 2774). In his Motion, the Defendant notes that
trial counsel did not object or move for a mistrial, and
the issue was not raised on direct appeal.
In their written closing argument, the State
alleges that this comment by the prosecutor was
simply his recounting of facts admitted during trial,
and he was not making a direct comment on the
Defendant’s right to remain silent. The State argues
that Detective Grice’s testimony recounted that when
law enforcement first made contact with Mr. Poole he
was brought to the station and he talked with police at
the station. (V20/2637). The State further asserts
that Mr. Poole consented to a search of his residence,
provided law enforcement with a DNA sample, and
was then released. (V20/2640-41).
Additionally, the State alleges that the prosecutor
was not indicating that Mr. Poole refused to cooperate
with police or had invoked his right to remain silent.
At the evidentiary hearing, Mr. Dimmig was asked
about this comment by the prosecutor and testified
that he did not feel that the comment was injurious to
the defense. Mr. Dimmig testified, “I wanted the jury
to know that he did not resist in any way.” (EH,
V2/186).
With regard to this first statement, the Court
agrees with the State that the prosecutor’s comment
was not a comment on the right to remain silent. The
prosecutor was recounting evidence that had been
presented to the jury regarding Mr. Poole’s initial
contact with law enforcement. Mr. Dimmig testified
that he wanted the jury to know that the Defendant
was fully cooperative, and Mr. Dimmig reasonably

88a
thought that the prosecutor’s statement did not hurt
the defense theory of the case or presentation of
evidence. (EH, V2/185-186). “Whether to object is a
matter of trial tactics which are left to the discretion
of the attorney so long as his performance is within the
range of what is expected of reasonably competent
counsel.” See Muhammad v. State, 426 So. 2d 533, 538
(Fla. 1982).
The Court finds that Counsel did not perform
deficiently in not objecting to the State’s comments in
this first statement. In addition, the State presented
a strong case against Mr. Poole. Even if counsel’s
failure to make an objection to this comment from the
prosecutor could be considered to be deficient, it is not
reasonable to think such a deficiency rendered the
result of the Defendant’s trial unfair or unreliable.
Subclaim 1-1.1(1) of the Defendant’s Motion is denied.
(2) “Well, there is no evidence in this case that at
any time, either in this trial or anywhere else, Mr.
Poole ever acknowledged that he did anything.” (ROA,
Vol. XXI, P. 2835). The Defendant notes in his Motion,
“Trial counsel deficiently failed to object, the issue was
raised on direct appeal and was found to be an invited
response to the defendant’s closing statement in Poole
v. State, 997 So.2d at 390.” The Court will further
discuss (2) along with (3) below.
(3) “If Mr. Poole burglarized this house, and said,
well, he talked – Mr. Poole talked to the police. And
Mr. Poole – so that there’s this other guy that was
involved. Well, there’s no evidence. Keep in mind
what’s evidence and what’s argument. [The Defense]
is arguing all these things, but there is absolutely no
evidence that Mr. Poole ever said, hey, somebody else

89a
was there before me and these people’s heads were
bashed in. There is no evidence of that.” (ROA, Vol.
XXII, P. 2840). In his Motion, the Defendant notes,
“Trial counsel deficiently failed to object, the issue was
raised on direct appeal and was found to be an invited
response to the defendant’s closing statement in Poole
v. State, 997 So.2d at 390.”
As noted by the Defendant in his Motion, the
Supreme Court of Florida discussed comments (2) and
(3) in Poole v. State, 997 So.2d 382, 389-390 (Fla.
2008). The Florida Supreme Court opined;
The prosecutor began by stating that the
defense’s argument came from “Fantasy
Land.”
A few sentences later, the
prosecutor stated, “Well, there is no
evidence in this case that at any time,
either in this trial or anywhere else, Mr.
Poole ever acknowledged that he did
anything.” A few paragraphs later, the
prosecutor continued:
Mr. Poole talked to the police. And Mr.
Poole-so that there’s this other guy that
was involved. Well, there’s no evidence.
Keep in mind what’s evidence and what’s
argument. Mr. Dimmig is arguing all
these things, but there is absolutely no
evidence that Mr. Poole ever said, hey,
somebody else was there before me and
these people’s heads were bashed in.
There is no evidence of that.
And there’s no evidence that Mr. Poole
ever said, well, I went in there and raped
her and left her and then somebody else

90a
came in and beat their heads in. There’s
no evidence of that either.
That’s
argument. But when you look at what
the testimony is and what the physical
evidence is and what the photographs
are, there is no evidence to support that
theory.
The Florida Supreme Court goes on to note that
these two comments were not followed by an objection
from counsel.
We have consistently held that “the
failure to raise a contemporaneous
objection
when
improper
closing
argument comments are made waives
any claim concerning such comments for
appellate review.” Card v. State, 803
So.2d 613, 622 (Fla.2001). However, we
have carved out an exception to the
contemporaneous objection rule when
the unobjected-to comments rise to the
level of fundamental error, that is, an
error that “reaches down into the
validity of the trial itself to the extent
that a verdict of guilty or jury
recommendation of death could not have
been obtained without the assistance of
the alleged error.” Id. at 622. Neither of
the two comments rises to the level of
fundamental
error
because
both
comments were invited responses to the
defense’s closing argument. During his
closing argument, defense counsel stated
that Poole acknowledged that he
committed the crimes of sexual battery,

91a
robbery, and burglary but denied that he
was the person who inflicted the injuries
on White and Scott. In response, the
prosecutor was arguing that there was
no evidence in the case to support the
argument that Poole acknowledged that
he committed those crimes or to support
the argument that someone else inflicted
the injuries on the victims. Because the
prosecutor’s comments were invited
responses, the comments cannot be
deemed improper. See Walls v. State,
926 So.2d 1156. 1166 (Fla.2006); see also
Dufour v. State, 495 So.2d 154, 160-61
(Fla.1986). Therefore, these comments
do not warrant reversal.
As noted above the Florida Supreme Court
considered whether the two comments constituted
fundamental error and concluded that both comments
were invited responses based upon the closing
argument of the defense and could not be deemed
improper. In Rogers v. State, 957 So. 2d 538, 550 (Fla.
2007), the Florida Supreme Court stated “This Court
has held that counsel’s failure to object to improper
comments cannot prejudice the outcome if the
comments were raised on direct appeal and do not rise
to the level of fundamental error. See Chandler v.
State, 848 So.2d 1031, 1045-46 (Fla.2003).”
Even if counsel was considered deficient in not
objecting to comments (2) and (3) there is no
reasonable probability, given the strength of the
State’s case, that, but for counsel’s deficiency the
result of the proceeding would have been different.

92a
(4) “And if Mr. Poole wants to tell the state and
Detective Grice that somebody helped him commit this
crime, then let him come forward because - -” The
Defendant notes that trial counsel objected to this
comment and asked for a mistrial. He further notes
that the motion for mistrial was denied by the trial
court, and the Supreme Court of Florida on direct
appeal found that the comment was an improper
comment but not fundamental error in Poole v. State,
997 So.2d at 391.
The Florida Supreme Court had a lot to say about
the fourth comment raised by the Defendant which
was objected to by defense counsel at the trial:
The final comment-“And if Mr. Poole
wants to tell the state and Detective
Grice that somebody helped him commit
this crime, then let him come forward
because....’’-was objected to. Moreover,
we find that this comment was an
improper comment on Poole’s failure to
testify. Under article I, section 9 of the
Florida Constitution, a defendant has
the constitutional right to decline to
testify against himself in a criminal
proceeding. Therefore, “any comment
on, or which is fairly susceptible of being
interpreted as referring to, a defendant’s
failure to testify is error and is strongly
discouraged.” Rodriguez v. State, 753
So.2d 29, 37 (Fla.2000) (quoting State v.
Marshall, 476 So.2d 150, 153 (Fla.1985)).
In the instant case, the prosecutor’s
comment impermissibly suggested a
burden on Poole to prove his innocence

93a
by stating that he had to come forward
and testify.
Although this was an
erroneous comment on Poole’s silence,
we find that the trial court did not abuse
its discretion in denying the motion for
mistrial because in light of the evidence
linking Poole to the crimes, the error was
not “so prejudicial as to vitiate the entire
trial.” Dessaure v. State, 891 So.2d 455,
464-65 (Fla.2004).
The evidence
presented demonstrates that Poole was
seen heading towards the victims’ trailer
on the night of the crime; Poole sold video
games like those taken from the victims’
residence immediately after the attack;
the semen found in White matched
Poole; Poole’s shoeprint matched a
shoeprint left inside the victims’ trailer;
and a stain found on Poole’s shirt
matched
White’s
DNA
Profile.
Accordingly, relief is not warranted on
this claim.
The Court agrees with the Florida Supreme Court
that the comment is fairly susceptible to being
interpreted as referring to a comment on Mr. Poole’s
right to silence. Like the Florida Supreme Court, the
Court agrees that the error was not so prejudicial that
the entire trial was vitiated. As indicated by the
Florida Supreme Court, there was strong evidence
presented, which linked Mr. Poole to the crimes.
On pages 10 -12 of its closing argument, the State
presents a compelling discussion of the strong
evidence against the Defendant:

94a
This was simply not a close case. The
State
presented
absolutely
overwhelming evidence of Poole’s guilt.
Poole was identified heading in the
direction of the victim’s trailer
immediately prior to the attack. Poole
sold video games like those taken from
the victims (some stained with the
victim’s blood) immediately after the
murder and attempted murder. One
video game was left on the porch of
Johnson’s (Poole’s on again, off again
girlfriend) trailer where Poole had been
living at the time the victims were
robbed.
In addition to eyewitness testimony
connecting Poole with the charged
offenses, the State presented compelling
and uncontradicted physical evidence to
link Poole to the crimes. This evidence
included DNA found on Poole’s shirt
matching or consistent with victim
[L.W.]’s DNA, and DNA from the rape
kit, matching Poole’s genetic profile.
From the vaginal swab, FDLE analysis
Robin Ragsdale found a mixture, with
the male contributor matching Poole’s
profile at 8 loci.
….
Three of the games or game controllers
linked to Poole after the offenses had
blood on them matching victim Scott’s
DNA profile. In addition, a tire iron

95a
found in the vicinity of the victims’
trailer had blood stains on it which were
consistent with victim Scott’s DNA
profile.
A footprint consistent with
Poole’s was found next to the bed where
the attacks occurred.
Based on the Court’s discussion above with regard
to the four comments listed by the Defendant in his
Motion, subclaim 1-1.1 is denied.
1-1.2: Improper Comments
Which Shifted the Burden of
Proof to Mr. Poole.
The Defendant alleges, “Trial counsel was
ineffective for failing to object to several improper
comments by the prosecutor which shifted the burden
of proof to Mr. Poole. These comments prejudiced Mr.
Poole, as there likely would have been a different
outcome in their absence, and this Court should grant
Poole relief.”
The Defendant identifies three comments
below, where he alleges the State improperly shifted
the burden of proof to the Defendant. The Defendant
asserts with respect to all three comments that his
counsel deficiently failed to object to each comment or
move for a mistrial, therefore this issue was not raised
on direct appeal.
(1). “Well, had there not been all of this other
evidence, had there been evidence that Mr. Poole was
elsewhere or had his shoe impression not been found
on the book, then maybe that could just be a
coincidence.” (ROA, Vol. XXI, P. 2761). Comment (1)
was made during the State’s Initial Closing argument.

96a
The Court agrees with the State’s closing
argument that that [sic] the prosecutor’s comment was
a fair comment on the evidence. In its closing
argument, the State alleges that the prosecutor was
simply stating that no evidence showed that Mr. Poole
was somewhere else. Instead, the evidence placed Mr.
Poole at the scene of the murder, rape, and robbery.
(2). “There’s been plenty of time for Mr. Poole to
request that any test in the world be done to any piece
of evidence that the state put in in this trial. So it’s
not that it’s only available to the state. If there was
something that the defense thought they could test or
do something with to prove that somebody else was in
there, they had every opportunity to do that.” (ROA,
Vol. XXII, P. 2841). The Court will discuss (2) along
with (3) below.
(3) “You’ve heard no evidence that some request
was made of the state to get this bed sheet and have it
examined by a defense expert. You haven’t heard any
evidence about that. That bed sheet was available,
just as available to the defense as it was to the state.”
(ROA, Vol. XXII, P. 2847).
Comments (2) and (3) took place during the State’s
Rebuttal argument. On page 15 of its written closing
arguments the State argues:
This was a fair reply to defense
counsel’s closing wherein he stated that
‘[t]here could have been and there should
have been so much more.” (V21/2816).
In his own closing, defense counsel
criticized the investigators for not
testing or examining other items,
including
unidentified
fingerprints

97a
(V21/2815-16),
conduct
additional
fingerprint analysis of the tire iron,
additional footwear analysis on a
pillowcase (V21/2817), or conduct DNA
analysis of two hairs found at the scene
of the murders. (V21/2818-19).
The Court agrees with the State that this was a
fair comment on the closing arguments of the defense,
and it was permissible for the State to argue that the
defense was not prohibited from doing its own testing
on such items. In United States v. Long, 300 Fed.
Appx. 804, 816 (11th Cir. 2008), the Eleventh Circuit
Court of Appeal discussed comments made by a
prosecutor after the defense questioned the
prosecution’s failure to call a particular witness. The
Eleventh Circuit opined:
We must consider allegedly improper
prosecutorial comments in context when
evaluating their propriety. See United
States v. Bright, 630 F.2d 804, 825 (5th
Cir. 1980). “[W]hile a prosecutor may not
comment about the absence of witnesses
or otherwise attempt to shift the burden
of proof, it is not improper for a
prosecutor to note that the defendant
has the same subpoena powers as the
government, particularly when done in
response to a defendant’s argument
about the prosecutor’s failure to call a
specific witness.”
United States v.
Hernandez, 145 F.3d 1433, 1439 (11th
Cir.1998) (quotation marks and citation
omitted). It also “is not error to comment

98a
on the failure of the defense, as opposed
to the defendant, to counter or explain
the evidence.” United States v. Griggs,
735 F.2d 1318, 1321 (11th Cir.1984) (per
curiam) (quotation marks and citation
omitted).
The record reflects that in his closing
statement, defense counsel asked the
jury to consider why the government
failed to call Agent Kiper as a witness:
Well, who is the lead Agent in this
case?
It was Agent Richard
K[i]per. Why didn’t he testify? He
was the lead agent in this case.
He was the person with all the
information about everything
going on, but why wasn’t he
called? ... That’s something you
can consider in deciding whether
or not the Government has met
their burden.
The prosecutor’s comments, which were
made in direct response to this
argument, “referred ... to the quality (or
lack thereof) of the defense’s evidence
and the defense’s failure to rebut the
necessary inferences created by the
government’s case.” United States v.
Exarhos, 135 F.3d 723, 728 (11th
Cir.1998).
Moreover, even if the
prosecutor’s comments were prejudicial,
they were rendered harmless by the
court’s instruction to the jury regarding

99a
the burden of proof. See Simon, 964 F.2d
at 1087. Accordingly, we conclude that
the prosecutor’s comments were not
improper.
In its closing argument the State cites United
States v. Simon, 964 F.2d 1082, 1087 (11th Cir. 1992).
In that case, the Eleventh Circuit opined, “This court
has held that the prejudice from the comments of a
prosecutor which may result in a shifting of the burden
of proof can be cured by a court’s instruction regarding
the burden of proof. See Duncan v. Stynchcombe, 704
F.2d 1213, 1216 (11th Cir.1983); see also United States
v. Casamayor, 837 F.2d 1509 (11th Cir.1988), cert.
denied, 488 U.S. 1017, 109 S.Ct. 813, 102 L.Ed.2d 803
(1989); United States v. Johnson, 713 F.2d 633, 651
(11th Cir. 1983), cert. denied, 465 U.S. 1081, 104 S.Ct.
1447, 79 L.Ed.2d 766 (1984).”
The Court agrees with the State that the
comments made by the Prosecutor did not shift the
burden of proof and were responsive to the arguments
of the defense. Should it be considered that the
arguments caused confusion in the minds of the jury
regarding burden of proof, the Court finds that any
such confusion was cleared up by the Court’s jury
instructions which emphasized to the jury what the
State had to prove for them to find the Defendant
guilty of the crimes he was charged with. In addition,
the Court does not find any reasonable basis to
conclude that any deficiency by counsel in not
objecting to these comments undermines confidence in
the outcome of the trial. Subclaim 1-1.2 of the
Defendant’s Motion is denied.

100a
1-1.3: Improper Comments
Which Denigrated Mr. Poole’s
Theory of Defense.
The Defendant alleges, “Trial counsel was
ineffective for failing to object to several improper
comments by the prosecutor which denigrated Mr.
Poole’s theory of defense. These comments prejudiced
Mr. Poole, as there likely would have been a different
outcome in their absence, and this court should grant
Mr. Poole relief.”
In his Motion, the Defendant sets forth seven
instances, during the State’s rebuttal closing
argument, where he alleges the prosecutor made
comments denigrating the defense’s theory of defense:
(1) “I did check around at the lunch hour, and as
far as I could tell, I was in still (sic) Polk County and
this was still Bartow, and this was still the courthouse,
and I still came back to 9-A. I think this is 9-A. And I
don’t think it’s Disney, and I don’t think it’s Fantasy
Land. That’s still up the road. But that’s where the
argument came from for the defense, either there of
somewhere in one of those video games that goes in
one of those machines.” (ROA, Vol. XXI, P. 2835). At
the evidentiary hearing, Mr. Dimmig acknowledged
that he did not know why he did not object at the time,
and his understanding or denigration was now more
refined. (EH, V1/91).
(2) “Well, folks, if you could believe a story like
that, I don’t know how we got you on this jury, because
you don’t have any common sense.” (ROA, Vol. XXII,
P. 2836). At the evidentiary hearing, Mr. Dimmig
testified that he regarded the comments as a
statement that denigrated the intelligence of the jury.

101a
He admitted that he did not recall having thought that
the statement denigrated the defense at the time, but
again he admitted that his understanding of the
concept of denigration was more refined at this point
in his career. (EH, V1/92-94) On cross-examimation
[sic], Mr. Dimmig agreed that judges routinely tell
jurors to use their common sense. (EH, V2/218-219).
(3) “You could go back there and think about
things like that, but that’s just stupid [sic] It didn’t
happen that way.” (ROA, Vol. XXII, P. 2838-2839). At
the evidentiary hearing, Mr. Dimmig said that at the
time of the trial he did not recognize these comments
as denigrating the defense. He was asked why he did
not object and he answered, “I thought that the insult
to the - -I, I didn’t recognize that it was denigrating
the defense, and 2, I thought insulting the jury was a
negative thing for the Prosecution to be doing.” (EH,
VI/96).
(4) “I used a list of coincidences to explain
circumstantial evidence, without having any idea that
the most bizarre coincidence was going to be brought
up by the defense, which is that there’s somehow this
other person. Now, talk about a coincidence that
boggles the imagination... No, that didn’t happen
unless you are in Mickey Mouse Land.” (ROA, Vol.
XXII, P. 2839). At the evidentiary hearing Mr.
Dimmig testified that at the time of the trial he did not
believe the comments in (4) denigrated the theory of
defense and that is why he did not object to it. (EH,
Vl/96-97). On cross-examination, Mr. Dimmig stated,
“That particular comment about, you know, no reason
to believe there was a second person there directly
contradicted the testimony of (L.W.) who said in her
911 call and then when the police responded that she

102a
was aware of two people being in the trailer at the
time, 3:30 in the morning, somewhere roughly right
around there. So my view was the State Attorney - the Prosecutor was saying to the jury, don’t believe our
eyewitness to the offense. (EH, V2/219-220). Mr.
Dimmig was also asked about the phrase “boggles the
imagination,” and he testified that “[i]t was just a
different way of saying that the evidence does not
support it. (EH, V2/225).
(5) “Sir don’t come in here with some wild story
and tell the jury that they should be able to – or have
to deliberate for hours to figure out a case that’s an
open and shut as this.” (ROA, Vol. XXII, P. 2841). Mr.
Dimmig testified at the evidentiary hearing that he
did not think this comment denigrated the defense.
(EH, V1/97).
(6) “And this is a motive, according to the defense,
for somebody to go and commit this horrible crime? I
think that also boggles the imagination.” (ROA, Vol.
XXII, P. 2844).
Mr. Dimmig testified at the
evidentiary hearing that he did not think this
comment denigrated the defense. (EH, VI/97).
(7) “Basically, the defense is this: Are you ladies
and gentlemen of the jury going to believe what you
saw and heard in this courtroom, or are you going to
believe what I’m telling you?” (ROA, Vol. XXII, P.
2847). Mr. Dimmig testified at the evidentiary
hearing that he did not think this comment denigrated
the defense. (EH, V1/97-98).
Mr. Dimmig was asked if at the time of trial,
taking all of these statements together, he had
grounds to seek a mistrial. Mr. Dimmig answered,
“No, I did not think I had basis for a mistrial at the

103a
time of trial.” (EH, V1/98). He was asked why he did
not think he had grounds for a mistrial. He answered,
“I did not believe that there had been sufficient
denigration of the defense. The only denigration of the
defense that I recognized was the early comments
about Disney World or - -” (EH, V1/99). On crossexamination, Mr. Dimmig agreed that the prosecutor
Mr. Aguero was a passionate person, and he expected
him to be animated during the closing. (EH, V2/215).
Assistant State Attorney Victoria Avalon asked him
about the way Mr. Aguero was presenting the case.
ASA Avalon : And did you feel that the
way Mr. Aguero may have been
presenting his case by this point might
have been coming off a little over the top
and perhaps even unreasonable?
Mr. Dimmig: Yes. I mean, I thought he
was over the top on how he discounted
the evidence supporting our alternative
theory.
ASA Avalon: Once again, the old adage
about when your opponent makes a
mistake you let him. Right?
Mr. Dimmig: Yes. Not sure that’s
exactly what, you know was going on
here.
ASA Avalon: Let me put it in slightly
different terms. Did you feel at the time,
taking in context while you were sitting
there watching the jury react to Mr.
Aguero, did you feel that his comments

104a
were so prejudicial as to wholly vitiate
the entire trial?
Mr. Brown: Judge, I’ll object. That calls
for a legal conclusion.
Ms. Avalon: I’m asking what - - what he
thought.
Judge Harb: Overruled.
Mr. Dimmig: With the understanding
that I had at the time about denigrating
the defense case, no, I did not think it
completely vitiated the case.
(EH, V2/217).
Mr. Dimmig agreed in his testimony that he
could have objected to the way Mr. Aquero was
arguing the case. He testified that he did not
remember what was going through his head at
the time, but it was his usual practice to take
into consideration all factors in deciding
whether or not to object.
(EH, V2/221).
Mr. Dimmig agreed during his testimony that
you run the risk of turning the jury off if you
object every single time you can object to a
statement by the prosecution. (EH, V2/214 215). It is clear from listening to the testimony
of Mr. Dimmig that his decision not to object to
the majority of the closing comments identified
above were based on his tactical decision that
the comments in some respects showed the
State overreaching and insulting the jury, his
belief that he did not want to turn off the jury

105a
with frequent objections, and his decision that
a comment was within the wide latitude
allowed the parties in closing arguments. The
Court does not find that counsel’s performance
fell below an objective standard of
reasonableness in not objecting to the
comments (2) through (7) above.
With regard to comment (1), the testimony of Mr.
Dimmig’s testimony indicates this comment got by
him. (EH, V2/214). Referring to Disney and Fantasy
land could certainly be seen as disparaging the
defense’s theory of defense. However, if counsel’s
performance fell below an objective standard of
reasonableness in not objecting to comment (1), there
is no reasonable basis to believe that the result of the
proceedings could have turned out differently but for
such a deficiency in not objecting to comment (1),
based on the strong case presented by the State. Even
should it be considered that counsel showed some
deficiency in not objecting to all the comments (l)-(7),
there is no reasonable basis to conclude that the result
of the proceedings could have turned out differently
but for such a deficiency. Subclaim 1-1.3 of the
Defendant’s Motion is denied.
Subclaims 1-1.1, 1-1.2 and 1-1.3, having been
denied, the Court denies Subclaim 1-1 of the
Defendant’s Motion.
1-2: TRIAL COUNSEL WAS
INEFFECTIVE FOR STATING
DURING
CLOSING
ARGUMENTS THAT MR. POOLE
“ACKNOWLEDGES” HISGUILT
[sic] FOR SEXUAL BATTERY,

106a
BURGLARY, AND ROBBERY,
THUS DENYING MR. POOLE HIS
RIGHTS UNDER THE FIFTH,
SIXTH,
EIGHTH
AND
FOURTEENTH AMENDMENTS
TO
THE
UNITED
STATES
CONSTITUTION
AND
CORRESPONDING
PROVISIONS OF THE FLORIDA
CONSTITUTION., AND UNDER
SECTION
90.502,
FLORIDA
STATUTES.
The Defendant alleges, “During the closing
statement, Mr. Poole’s trial counsel stated: ‘Mr. Poole
acknowledges that he went in the trailer, 4-L, and
committed a crime therein. That’s a burglary. Mr.
Poole acknowledges that he had sexual contact with
(L.W.) against her will, and that’s a sexual battery.
And Mr. Poole acknowledges that he had possession of
those games and he went down the road and sold
them, and that’s a robbery.’ (ROA, Vol. XXI, P. 2795)”.
In his Motion, the Defendant asserts “This statement
was not supported by the evidence submitted at trial,
and violated Mr. Poole’s right to remain silent and the
attorney-client privilege.”
1-2.1: Violation of the Right to
Remain Silent.
The Defendant alleges, “Trial counsel was
ineffective for violating Mr. Poole’s right to remain
silent by testifying during closing arguments that Mr.
Poole acknowledged his guilt to the non-homicide
offenses. This violation prejudiced Mr. Poole, as there
likely would have been a different outcome in its

107a
absence, and this Court should grant Mr. Poole relief.”
The Defendant notes that the trial court held a
colloquy with Mr. Poole regarding whether or not he
wanted to testify. Mr. Poole agreed during the
colloquy that he had decided in consultation with his
attorney not to testify. (ROA, Vol. XI Pgs. 2725-2726).
The Court does not find that counsel violated the
Defendant’s Right to Remain Silent in his statements
that Mr. Poole acknowledges his guilt for sexual
battery, burglary and robbery. Defense Counsel was
clearly making a reasonable tactical decision in light
of the strong evidence the State had with regard to the
non-homicide crimes to maintain some credibility with
the jury with regard to challenging the actual murder
charge.
This tactical decision is discussed in
significant detail with regard to subsclaim [sic] 1-2.2
below. Subclaim 1-2.1 is denied.
1-2.2:
Violation
of
the
Attorney-Client Privilege.
The Defendant alleges, “Trial counsel was
ineffective for violating the attorney-client privilege by
testifying during closing arguments that Mr. Poole
acknowledged his guilt to the non-homicide offenses.
This violation prejudiced Mr. Poole, as there likely
would have been a different outcome in its absence,
and this Court should grant Mr. Poole relief.”
The Defendant argues that “By telling the jury,
‘Mr. Poole acknowledges’ committing armed burglary,
armed robbery, and rape, trial counsel clearly violated
the attorney-client privilege by disclosing confidential
communications that were made during the course of
representation.”

108a
At the evidentiary hearing, the following exchange
took place between Postconviction Counsel, Mr.
Brown, and Mr. Dimmig regarding Mr. Dimmig’s
Closing at the trial:
Mr. Brown: But let me direct your
attention to Volume XXI and page 2795.
That will be towards the back of your
binder.
Mr. Dimmig: I have it.
Mr. Brown: All right. Just a moment,
please. All right. We’re going to begin
by looking - - starting at Line 2. I’ll just
read a portion of your – this comes from
your closing argument in the trial. And
at Line 2 you state, “And now - - “now
that all of the evidence is in I can tell you
that we’re here for two trials; a trial for
first degree murder and a trial for first
degree” - - “and a trial for attempted first
degree murder.
“Mr. Poole acknowledges that he went
into Trailer 4L and committed a crime
thererin [sic]. That’s a burglary. Mr.
Poole acknowledges that he had sexual
contact with (L.W.) against her will and
that’s a sexual battery. And Mr. Poole
acknowledges that he had possession of
those games and he went down the road
and sold and [sic] them that’s a robbery.”
You don’t have any reason to doubt that
that’s an accurate transcript of your
statement. Correct?

109a
Mr. Dimmig: I have no reason to doubt
it’s [sic] accuracy.
Mr. Brown: All right. Do you remember
making that statement?
Mr. Dimmig: I cannot say that I recall
word-for-word. I can recall that that was
the thrust of how I was going to begin the
opening or the closing arguments. So yes
I believe it’s what I said.
Mr. Brown: All right. I’m going to ask
you a lot about that statement, but let me
get a little bit of background information
with regards to it.
Did you know that Mr. Poole was
going to be facing multiple life sentences
if convicted of the robbery, sexual battery
and burglary charges?
Mr. Dimmig: Yes, I did.
Mr. Brown: What sentence did you
expect that he would received [sic] if
convicted of those charges?
Mr. Dimmig: I believed he would receive
the maximum sentence.
Mr. Brown: Did you discuss with Mr.
Poole at any time conceding those
charges?
Mr. Dimmig: I did.
Mr. Brown:
strategy?

Did he consent to that

110a
Mr. Dimmig: I just want to clarify,
because there have been some
discrepancies or differences between the
State Attorney’s Office and then the
Office of the Public Defender concerning
waiver of attorney/client privilege. And
I just want to make sure on the record
that attorney/client privilege is waived
for any questions you may ask me.
Mr. Brown: You’re asking if I’m waiving
the - Mr. Dimmig: Yes.
Mr. Brown: - - attorney/client privilege?
The Defense’s position would be that by
filing an ineffective assistance of counsel
claim
against
you
that
the
attorney/client privilege is waived for
these proceedings.
Mr. Dimmig: Okay. Could you repeat
the question for me, then?
Mr. Brown: Did Mr. Poole consent to you
conceding these charges?
Mr. Dimmig:
To the best of my
recollection, he did not.
Mr. Brown: Was he adamant that you
not concede the charges?
Mr. Dimmig: He was consistent in that
position. We were able to discuss it, but
he was consistent in his position that he
did not want it conceded.

111a
Mr. Brown:
How many times
approximately would you say you
discussed the strategy with Mr. Poole?
Mr. Dimmig: Again, I don’t have an
absolute memory. I would estimate at
least five or six times, including during
the course of the trial.
Mr. Brown: Why did you believe that
admitting to the lesser charges or rather
the non-homicide charges was the best
strategy in the case?
Mr. Dimmig: Two reasons. One, I
believed that the evidence of the
burglary, robbery and sexual battery and
Mr. Poole’s involvement in it was
overwhelming. And secondly, because I
believed that the evidence of his
involvement in the homicide was shaky
at best.
There were - - there was testimony
from the surviving victim, a (L.W.) that
created significant time discrepancies.
There were issues brought up by the
medical
examiner
which
raised
significant time discrepancies. There
was also testimony from (L.W.) about
more than one perpetrator being in the
house.
And so I thought that the evidence
concerning
the
homicide
was
significantly weaker than the evidence
concerning the other offenses and that in

112a
order to maintain credibility with the
jury on the homicide charge it was
appropriate not to challenge the other
charges.
Mr. Brown: And so was this part of the
overall strategy of trying to avoid a
conviction for first degree murder?
Mr. Dimmig: Yes, it was.
(EH. Vl/18-22).
….
Mr. Brown: Let’s talk now about the
word “acknowledges.” We – we read the
statement or I read the statement
already for you., [sic] but on three
different occasions you stated that Mr.
Poole
acknowledges
committing
different offenses. Did you in turn - intend to use the phrase “Mr. Poole
acknowledges”?
Mr. Dimmig: If I can, let me sort of lead
into that response. The short answer is
yes, I did. I struggled - - and my memory
is such that major things that happened
this long ago I don’t remember specifics
of. Things that have, quite frankly,
haunted me for 12 years I remember
quite clearly.
I remember sitting at the table in my
breakfast room writing notes about my
closing argument and struggling over
what or exactly how I should phrase this.
And I settled on “acknowledges.” I did

113a
not want to use the word “admits.” I
wanted to use the word “acknowledges.”
Where I missed, if you will, what - - what
I should have said, what I had intended
to say in closing argument was that Mr.
Poole acknowledges that the evidence
establishes that he committed these
offenses. So the choice of the work [sic]
“acknowledges” was quite intentional.
The total phrase that is here is not what
I intended to say.
Mr. Brown: All right. So just because
this is an important issue let me just
make sure that we’re crystal clear. So
you did intend to use the phrase “Mr.
Poole acknowledges,” but you intended to
that - - for that craze - - for that phrase
to include Mr. Poole acknowledges that
the State has proven, or something to
that effect?
Mr. Dimmig: Words to that effect, that
the State has proven or the evidence
establishes. Something to that effect.
Mr. Brown: Was it ever your intention to
give the jury the impression that Mr.
Poole was making a statement to the
jury?
Mr. Dimmig: No. That’s what I was
hoping to avoid by using the word
“acknowledges.” That’s part of what I
was wrestling with, that in preparing my
closing notes that I missed when I added
on the additional part.

114a
(EH, Vl/23-24).
….
Mr. Brown: Why was it important to
state during your closing argument that
Mr. Poole was acknowledging that he
committed those offenses?
Mr. Dimmig: It was a couple of things.
One, to maintain degree of credibility
that, you know, what we’re doing was
putting the State to its burden of proof
and not, you know, admitting, but rather
acknowledging what they had met that
particular burden of proof.
So it was to try and indicate that Mr.
Poole had not attempted to deceive the
jury or anything, but was - - simply was
putting the State - - holding the State to
its burden. And second, it was to not get
into anything about any statements that
Mr. Poole may or may not have made to
me in preparation of the case, not to get
into anything that he has stated about
the case.
Mr. Brown: All right. And that’s what I
want to focus on.
Why was that
important?
Mr. Dimmig: Well, you didn’t want to
open the door to the State Attorney
getting into any -- anything about any
statement he may or may not have made.

115a
Mr. Brown: Okay. And why is it
important to not open door to statements
that Mr. Poole might have made?
Mr. Dimmig: It would be potentially
evidence that had not been received
during the course of the trial. It could be
comments on right to remain silent.
Mr. Brown: Did you believe when you
made that statement that you had made
a mistake?
Mr. Dimmig: I did not recognize at that
exact moment in time. As soon as the
State Attorney began his closing
argument I glanced at the notes that I
had and realized the mistake I had
made.
(EH, Vl/25-26).
….
Mr. Brown:
Did Mr. Poole ever
acknowledge to you that he committed
those offenses?
Mr. Dimmig:
To the best of my
recollection, he did not.
Mr. Brown: All right. So would you say
that you were putting words into his
mouth when you made that statement to
the jury?
Mr. Dimmig: In the way that I put the
statement to the jury, yes.

116a
Mr. Brown: All right. So we’ll clear that
up a little bit. It wasn’t your intention to
put words into Mr. Poole’s mouth.
Mr. Dimmig: Correct.
(EH, VI/28).
….
Mr. Brown: Did you talk to Mr. Poole
about whether he was going to testify?
Mr. Dimmig: Yes.
Mr. Brown: What kind of discussions did
you have with him about that?
Mr. Dimmig: I don’t remember the
specific conversations we had about it.
There would have been the general sort
of discussion about that that would mean
from a practice point of view, that the
State Attorney would have the
opportunity to cross-examine him, areas
that I believe the State would probably
go into on cross-examination, and then, a
more general discussion of the
advantages or disadvantages to him of
testifying.
And then it was - - was and is my practice
that I advise my client of my opinion as
to whether or not they should testify.
And so I would have advised Mr. Poole
that in my opinion it was in his best
interest not to testify.
Mr. Brown: All right. Was part of the
discussion about whether to testify or

117a
not, did that include advising him that
by testifying that he would be waiving
his right to remain silent?
Mr. Dimmig: Yes.
(EH, VI/29).
….
Mr. Brown: Okay. Did the Court
ultimately conduct a colloquy of Mr.
Poole about whether he wished to
exercise his right to remain silent.
Mr. Dimmig: I believe they did, or he did.
Judge did.
Mr. Brown: Did Mr. Poole advise the
Court unequivocally that he wished to
exercise his right to remain silent?
Mr. Dimmig: I don’t have a specific
recollection. I know that - - I do recall
that there was not an issue that was
created, so my assumption is that he
indicated that he did not wish to testify.
(EH, VI/30).
Mr. Brown asked Mr. Dimmig how he would
describe the gravity of the realization that he had
opened the door to the State in his closing argument
and he responded that, “I considered it quite serious.”
Mr. Brown asked Mr. Dimmig about Florida v. Nixon,
543 U.S. 175 (2004), and Mr. Dimmig testified what he
was familiar with that case at the time of the trial.
(EH, Vl/31-32). Mr. Brown directed Mr. Dimmg’s [sic]
attention to ROA, Volume XXI, page 2831 of the trial

118a
transcript where a brief exchange that took place
between the attorneys and the Trial Judge.
Mr. Brown: All right. And we’re going
to start at - - at Line 9. And this is a
relatively brief exchange so I’ll go
through the exchange and then ask you
some questions about it.
All right. So on Line 9 Mr. Aguero –
oh, wait. No. I’m sorry. Not Line 9. Line
20. “We have one” - - this is Mr. Aguero
speaking, and Mr. Aguero was the State
Attorney in this case; the lead State
Attorney?
Mr. Dimmig: Correct.
Mr. Brown: Okay.
[Mr. Aguero talking] “We have one
matter that we would like to put on the
record. Mr. Dimmig, in his closing,
admitted guilt to certain of the offenses.
The caselaw in that area has evolved
over the last few years and I’ve had a
discussion with Mr. Dimmig about his
decision that he made in that regard and
his understanding of the role of the
attorney versus the role of the defendant,
such that we’re all aware that, as the
Court did with Mr. Poole, that the right
to testify or not testify has been held for
years to be a constitutional right of the
defendant, not a decision that an
attorney can make, but rather one that
has to be personally made by the

119a
defendant. And that’s the reason that
the standard inquiry that the Court went
through was done.
“Mr. Dimmig’s interpretation of the
law and his rationale behind the
admission of guilt is a little different
with regard to his closing. And so I’d like
to make a part of the record, for whatever
-- wherever that might go, either in
appeal or in post-conviction.”
(EH, Vl/33-34).
….
Mr. Brown asked Mr. Dimmig if he had a
conversation
with
Mr.
Aquero
about
the
acknowledgment issue in between his closing
argument and the State’s rebuttal, and Mr. Dimmig
agreed that they did. Mr. Dimmig went on to say, “I
do not recall Mr. Aguero and I discussing the client’s
absolute right to decide whether or not to testify. I
remember our conversation only dealing with his
asking me, you know, did I think I had the authority
to concede guilt. And I pointed out that I did believe
that I had that authority and I mentioned the Nixon
case at the time of that conversation.” (EH, VI/35).
….
Mr. Brown: All right. I’ll - - let me just
continue now with the - - with the record.
And so the Court said, “Okay. Mr.
Dimmig, do you wish to respond on the
record?”

120a
And you stated, “ I would simply say ,
Your Honor, that it is my interpretation
of the case law, and I do not have the cite,
but there is a United States Supreme
Court case, Nixon, that was decided.”
….
I believe within the last year that my
interp. - - well, that’s not a good way to
word that. All right. So - - and I do not
have the cite, but there is a United
States Supreme Court case, Nixon, that
was decided, I believe, within the last
year that my interpretation of the
particular case, as I reviewed it in
preparation for this trial - - for trial in
this case is that a capital - - in a capital
murder cases the decision as to whether
or not to admit guilt of something other
than the capital murder itself lies solely
within the discretion of trial counsel, and
I made that decision.” (EH, V1/36-37).
Mr. Brown asked Mr. Dimmig if “[t]hat was a
accurate statement of your understanding of the
holding of Nixon that you had at the time that you
cited it in Mr. Poole’s case?” Mr. Dimmig responded
“Correct.” (EH, VI/37).
At the evidentiary hearing, Mr. Brown pointed out
several differences between the Nixon case and Mr.
Poole’s case, including the fact that Mr. Nixon’s
counsel conceded his client’s guilt to first degree
murder whereas Mr. Poole was admitting to lesser
crimes; Mr. Nixon was very disruptive as opposed to
the demeanor of Mr. Poole; Mr. Nixon was

121a
unresponsive with regard to conceding guilt while Mr.
Poole opposed the tactic; Mr. Nixon’s counsel conceded
guilt from the very beginning while Mr. Dimmig did
not concede Mr. Poole’s guilt until closing arguments.
(EH, Vl/52-64).
With regard to conceding during the closing
argument Mr. Dimmig testified, “I thought there was
a distinction between conceding before the evidence is
in, so that at least the question could be raised as to
whether or not defense counsel put the State to its
burden as opposed to what I did, which was not to
concede in opening, hold the State to its burden of
proof and concede only after the evidence was in.”
(EH, VI/58). Mr. Dimmig was asked if the holding in
Nixon included the fact that the defendant was
unresponsive, and he responded, “I don’t know any
other way of saying it is, I did not focus on the
unresponsive part. I believed the holding to authorize
me to do what I did.” (EH, VI/62).
Although not specifically discussed by the parties
with regard to the decision by Mr. Dimmig to concede
the guilt of Mr. Poole, Mr. Dimmig was asked at the
evidentiary hearing about the composition of the
defense team and the theory of defense.
At the evidentiary hearing Mr. Dimmig: testified
that Julia Jester, now Julia Williamson, and Steven
Fisher also represented Mr. Poole on behalf of the
Public Defender’s Office. He testified that he handled
the Guilt Phase and was not involved in the Penalty
Phase. Ms. Jester was the Second Chair on the case
and primarily responsible for the Penalty Phase, Mr.
Fisher was almost exclusively involved with Mental

122a
Health experts for Penalty Phase purposes.
Vl/14- 15).

(EH,

The following discussion took place at the
evidentiary
hearing
between
Mr.
Poole’s
postconviction counsel, Mr. Brown, and Mr. Dimmig
regarding why the trial defense team was composed
the way it was and the Defense’s theory of the case:
Mr. Dimmig: There was inconsistency in
the theory of the first phase and second
phases of the case. And as lead counsel
it was my opinion that it was in the best
interest of Mr. Poole that I not be
involved in the second phase in case I
had lost credibility with the jury during
the first phase of the case. So I tried to
limit the role of Ms. Williamson and Mr.
Fisher in the first phase and let them
handle the second phase.
Mr. Brown: So did you believe that you
would have a credibility issue going
forward if Mr. Poole was found guilty of
first degree murder?
Mr. Dimmig: Yes.
Mr. Brown: And that is the main reason
that the defense team was composed the
way that it was?
Mr. Dimmig: Correct.
Mr. Brown: What was the Defense’s
theory of the case?
Mr. Dimmig: Our theory of the case was
that there were two independent

123a
criminal episodes that occurred. One in
which there was a burglary, a robbery
and a sexual battery, and that several
hours later a perpetrator from that
incident returned to the scene and
committed the homicide.
Mr. Brown: And so was your goal to
avoid a conviction of first degree murder?
Mr. Dimmig: Yes.
Mr. Brown: And was that the overall
strategy or was that strategy related
simply to the guilt phase?
Mr. Dimmg [sic]: (No response.)
Mr. Brown:
Let me rephrase that
question if you need me to. You already
said that you divided the defense team
because you believed there would be a
credibility problem if - - if there was a
conviction for first degree murder.
Correct?
Mr. Dimmig: Yes.
Mr. Brown: All right. So when you made
the decision to divide the defense team
that way did you decide at that time that
trying to avoid a conviction for first
degree murder was the best way to try to
save Mr. Poole’s life?
Mr. Dimmig: Yes.
(EH, V1, 14-15).

124a
As can be seen by Mr. Dimmig’s testimony above.
The focus of the Defense was to avoid a conviction for
first degree murder. Mr. Dimmig made a tactical
decision to divide the defense team between the two
phases of the trial to maintain credibility with the
jury. He made the State meet its burden with respect
to proving the non-capital crimes prior to conceding to
them in his closing argument. Mr. Dimmig thought
the Nixon case gave him the authority to concede Guilt
on the non-homicide cases, and he reasonably thought
that by doing so he gave Mr. Poole the best chance of
not being convicted of first degree murder. The Court
does not find that counsel’s performance fell below an
objective standard of reasonableness. Additionally,
the Court finds no reasonable basis to conclude that
any deficiency by counsel with regard to this claim
undermines confidence in the result of the
proceedings.
Subclaim 1-2.2 of the Defendant’s
Motion is denied.
Subclaims 1-2.1 and 1-2.2 having been denied, the
Court denies Subclaim 1-2 of the Defendant’s Motion.
1-3: TRIAL COUNSEL WAS
INEFFECTIVE FOR FAILING TO
WITHDRAW
FROM
MR.
POOLE’S CASE DUE TO AN
ACTUAL
CONFLICT
OF
INTEREST
DUE
TO
THE
FORMER
REPRESENTATION
OF STATE WITNESSES TREVOR
CAMPBELL
AND
ALBERT
LEWIS IN VIOLATION OF THE
SIXTH AMENDMENT OF THE
UNITED
STATE
[sic]
CONSITUTION
[sic]
AND

125a
CORRESPONDING
PROVISIONS OF THE FLORIDA
CONSTITUTION.
The Defendant alleges, “Trial counsel in this case
labored under an actual conflict of interest, and this
conflict
adversely
affected
trial
counsel’s
representation of Mr. Poole. Based upon this actual
conflict of interest which adversely affected trial
counsel’s representation of Mr. Poole, Mr. Poole must
be granted a new trial.”
In his Motion the Defendant argues, “In the
present case, a hearing was held before the Honorable
Susan Roberts on July 21, 2004. During that hearing,
trial counsel advised the court that his office, the
Public Defender for the 10th Judicial Circuit, had
previously represented a series of state witnesses:
Dawn Campbell, Charles Michael Butler, Denise
Harris Wood, Rufus Knighton, Albert Lewis,
Melvadine Miller, Venture Rico, Gary Seafort, and
Gary Lynn Burton. ROA, Vol. V, Pgs. 754-55. Trial
Counsel further advised that he had discussed this
issue with Mr. Poole in his opinion this former
representation did not constitute a conflict of interest.
The trial court then conducted a colloquy of Mr. Poole
to determine whether he had discussed the issue with
his attorneys and wished to remain represented by the
public defender’s office. Mr. Poole advised the court
that he had discussed the matter with his attorneys,
but that he was not comfortable with the public
defender’s office continuing to represent him. At this
point, the trial court recessed the proceedings and
appointed independent counsel to advise Mr. Poole
specifically as to the conflict of interest issue.” (ROA,
Vol. V, Pgs. 755-763).”

126a
At the Evidentiary Hearing, the following
discussion took place between Mr. Brown and Mr.
Dimmig concerning the issue of a conflict of interest
and the hiring of conflict free counsel to represent Mr.
Poole regarding a possible conflict of interest.
Mr. Brown: Okay. Had you discussed
with Mr. Poole at this point the potential
for a conflict of interest existing?
Mr. Dimmig: I don’t specifically recall if
I had or not. I believe that I did, but I
can’t say that I specifically recall it.
Mr. Brown: Okay. Had you discussed
with him specific - - or do you remember
specifically whether you discussed with
him the fact that your office had
represented those other individuals?
Mr. Dimmig: Again, I don’t have a
specific recollection of it, but I believe
that I did.
Mr. Brown: Okay. Did you - - do you
recall at any point Mr. Poole raising
concerns with you over your continued
representation?
Mr. Dimmg [sic]: I do remember that at
some point, and I don’t remember if it
was before or after this hearing, that
there was conversation with Mr. Poole
about some concerns.
Mr. Brown: And was [sic] his concerns
specifically - - do you recall if his
concerns were specifically related to

127a
Albert Lewis and Trevor Campbell and
their representation?
Mr. Dimmig: Yes.
Mr. Brown: Okay.
Mr. Dimmig: It was.
(EH, Vl/116-117).
….
Mr. Brown:
Did you personally
represent Trevor Campbell or Albert
Lewis?
Mr. Dimmig: No.
Mr. Brown: Were you representing any
individuals charged with lower level
drug offenses at the time?
Mr. Dimmig: Not at that time, I was not.
Mr. Brown:
Okay. Do you recall
whether or not a subsequent hearing was
scheduled and Mr. Point - - Mr. Poole
was appointed conflict-free counsel?
Mr. Diming: Yes, I do recall that.
Mr. Brown: Do you remember who was
appointed to represent him?
Mr. Dimmig:
Mr. Larry Shearer.
Mr. Brown: Is that someone that had
been familiar to you at that point?

128a
Mr. Dimmig: Yes, I had dealt with Mr.
Shearer since I moved to Polk County in
1978.
Mr. Brown: Okay. What discussions - after Mr. Shearer was appointed to
represent Mr. Poole on the conflict issue
what conversation did you have with Mr.
Shearer?
Mr. Dimmig: Almost none. I considered
that something that was between Mr.
Shearer and Mr. Poole and did not want
to interject myself into it. I believe that
I shared the evidence of when we go
appointed or would have caused to be
shared with Mr. Shearer when we were
appointed and what our involvement in
the cases was, but I did not – I do not
recall any direct conversation with Mr.
Shearer about the merits of the - - wither
[sic] of the cases or my opinion as to why
there was not a conflict.
Mr. Brown: Did you make your files
related to Mr. Poole available to Mr.
Shearer?
Mr. Dimmig: I don’t recall.
Mr. Brown: Do you not recall doing it or
you don’t recall one way or the other?
Mr. Dimmig: I don’t recall one way or the
other.
Mr. Brown: Okay. Do you recall if you
made your files regarding Trevor

129a
Campbell and Albert Lewis available to
Mr. Shearer?
Mr. Dimmig: The files themselves. I do
not recall.
Mr. Brown: Is – would it have been your
normal practice to provide client files to
an outside attorney?
Mr. Dimmig: No, it would not be our
common practice.
Now, since Mr.
Shearer was appointed as conflict - conflict –free counsel to advise Mr. Poole
I would not have considered him as
outside counsel. He was one of Mr.
Poole’s attorneys at that point. So our
general rule would have been different as
it relates to Mr. Shearer than it relates - well, at Mr. Shearer looking at Mr.
Poole’s file as opposed to his looking at
the other individuals.
Mr. Brown: But as it - - as it relates to
him reviewing Trevor Campbell and
Albert Lewis’ files would it have been
your practice to make those files
available to someone that didn’t work for
the Public Defender’s Office.
Mr. Dimmig: No, it would not have been
our practice.
Mr. Brown: And why not?
Mr. Dimmig: We would consider that a
breach of attorney/client confidentiality
and we would not turn the files over
without a waiver from the client.

130a
Mr. Brown: Do you recall if you sought
or obtained a waiver from Albert Lewis
or Trevor Campbell?
Mr. Dimmig: I do not believe that we did.
Mr. Brown: Okay. Do you
hearing - - do you recall the
where Mr. Shearer appeared
Poole’s behalf to discuss the
issue?

recall a
hearing
on Mr.
conflict

Mr. Dimmig: Yes.
Mr. Brown: What do you recall taking
place at that hearing?
Mr. Dimmig: The only part of that
hearing that I really recall is Mr.
Shearer advising the Court that it was
his opinion that there was a conflict of
interest.
Mr. Brown: Okay. Do you recall whether
or not Mr. Shearer asked for an ex parte
hearing?
Mr. Dimmg: Yes, he did.
Mr. Brown: And do you recall if the
Court Granted an ex parte hearing?
Mr. Dimmig: My recollection is that the
Court did not grant an ex parte hearing.
Mr. Brown: Do you recall whether Mr.
Poole was maintaining that he believed
that there was a conflict of interest?
(EH, V1/118- 122)
….

131a
Mr. Dimmig: I believe that he was.
Mr. Brown: He was?
Mr. Dimmig: Still objecting to the Public
Defender remaining as his attorney.
Mr. Brown: Now, in terms of Mr. Poole’s
objection, was there any ill will between
the two of you at the time?
Mr. Dimmig: I certainly did not perceive
any, no.
Mr. Brown: Okay. So was it your belief
that this issue was related solely to the
conflict issue and not indicative of other
issues in the lawyer/client relationship?
Mr. Dimmig: Correct.
Mr. Brown: Ultimately did your office
remain counsel for Mr. Poole?
Mr. Dimmg: Yes.
Mr. Brown:
And you personally
remained lead counsel for Mr. Poole?
Mr. Dimmig: Yes, I did.
Mr. Brown: As far as conversations that
you had had - - conversations you had
with Mr. Poole at - - up to this point and
up to the point of trial, was he
maintaining
that
someone
else
committed the murder?
Mr. Dimmig: Yes.

132a
Mr. Brown: How did the prior incident
at the trailer park fit in with your theory
of defense in the case?
Mr. Dimmig: It was all part of the
explanation of why these two individuals
may have been targeted and it fit into the
timeline. One of the two individuals, and
I cannot recall which one right now, I
believe it was Mr. Lewis, perhaps, was
released from custody the night of this
particular homicide, and it fit a timeline
of the burglary, sexual battery and
robbery occurring somewhere in the
vicinity of midnight. And based upon
when that individual was released from
custody he could have arrived back at the
trailer park within that time frame.
Mr. Brown: Okay. At the time of the
trial would you say that the prior
incident at the trailer park was a [sic]
important part of your theory of defense?
Mr. Dimmig: Yes.
(EH, Vl/123-124).
At the Evidentiary Hearing, Mr. Dimmig was
asked by Mr. Brown if the prosecution had an objection
to him bringing up the prior incident involving Albert
Lewis and Trevor Campbell at the time of his opening
statement. Mr. Dimmig agreed that there was an
objection to him doing this. (EH, Vl/124-125).
Mr. Brown: And now, I want to just
address or direct you to 1859, and at Line

133a
23.
“Your Honor,” – this is you
speaking.”
“Your Honor, I would ask that we go
ahead and do that right now because I
cannot made a competent and effective
opening statement without presenting
this defense theory of the case.”
Does that accurately reflect or would
have able - - been able to present your
theory of defense without presenting the
Albert Lewis, Trevor Campbell incident
to the jury?
Mr. Dimmig: I do not believe I would
have been able to present an effective
opening statement.
Mr. Brown: So it - - so was that
integrated into your theory of defense?
Mr. Dimmig: Yes.
Mr. Brown:
Okay.
Would you
characterize Albert Lewis and Trevor
Campbell as alternative suspects within
your theory of defense?
Mr. Dimmig: Yes.
(EH, Vl/125-126)
Mr. Brown and Mr. Dimmig had the following
discussion regarding Dawn Campbell, a witness that
he called at the trial.
Mr. Brown: Okay. What was the
purpose of presenting her testimony?

134a
Mr. Diming:
timeline.

Helping establish the

Mr. Brown: Which timeline?
Mr. Dimmig: Well, it - - the prior arrest
and then the release of Gary Burton from
the county jail at the time of the
homicide.
Mr. Brown: The release of Gary Burton
or the release of Trevor Campbell.
Mr. Dimmg: I’m sorry. As I said earlier,
my memory – Gary Burton – names don’t
stick with me very well. I know that
certain individuals went down to retrieve
someone after they were released from
the jail.
Mr. Brown: Okay.
Mr. Dimmig: And looking at it now, it
was Gary Burton who was asked to go
down and pick up Trevor.
Mr. Brown: Okay, Do you did exam – or
did examine Ms. Campbell abou [sic] the
prior drug raid. Correct?
Mr. Dimmig: Yes.
Mr. Brown: And you did examine her
about when Trevor Campbell was
released from jail?
Mr. Dimmig: Yes.
Mr. Brown: Did you examine her with
regard to where Trevor Campbell was at
the time of the murder?

135a
Mr. Dimmg: I believe I did, yes.
Mr. Brown: And what was the purpose
of that?
Mr. Dimmig: To establish that she could
not verify where he was at all times.
Mr. Brown: Okay. So outside of the
questioning her about the prior incident
at the mobile home and the whereabouts
of Albert Lewis and Trevor Campbell
was there any other purpose to her
testimony?
Mr. Dimmg: Not that I can recall, no.
Mr. Brown: All right. In preparation for
trial did you personally ever attempt to
speak to Trevor Campbell or Albert
Lewis?
Mr. Dimmig: No.
Mr. Brown: Do you know if anyone at
your office ever attempted to speak to
them about the Poole case.
Mr. Dimmg: I do not believe anyone did.
(EH, Vl/125-129).
….
Mr. Brown:
Had you decided to
investigate, depose or subpoena for trial
testimony Albert Lewis and Trevor
Campbell, and had you learned anything
relevant to Mr. Poole’s case would you
have withdrawn in that situation?”
(EH, VI/132)

136a
….
Mr. Dimmig: Let me give you a fairly
lengthy answer if I - - in capital cases we
followed a slightly different procedure
then we did in non-capital cases as it
relates to withdrawal.
In a capital case we would look carefully
at whether or not the information that
we acquired from a former client was
acquired in any way because of the
attorney/client relationship. If it did not
we would stay on the capital case. So the
answer to your question would be, we
might have had to withdraw depending
upon what those individuals said either
during the investigation or deposition or
testimony at trial.
Mr. Brown: Okay. But you don’t know
what they would have said because you
didn’t ask them any questions.
Mr. Dimmig: Correct.
Mr. Brown: Why didn’t you investigate,
depose or subpoena any of them for trial?
Mr. Dimmig: We could make our defense
case without needing to present them in
my opinion.
Mr. Brown: That’s what you believed at
the time?
Mr. Dimmig: Yes. I believed that we
could paint the picture and present the
alternative theory that the homicide

137a
occurred later in the morning than the
burglary, robbery, sexual battery, and
that it was one or more of those
individuals that was engaged - - or let me
put it this way. At least it was not Mr.
Poole who was engaged in that second
criminal episode later in the morning.
(EH, Vl/133-134).
….
Mr. Brown: But how would interviewing
them or deposing them have prevented
you from making that same case?
Mr. Dimmig:
Because if we had
developed
evidence
that
clearly
established that they were not I could
not perpetuate a fraud upon the Court
and present the theory that they were
involved.
(EH, Vl/134-135).
The following discussion took place between Mr.
Brown and Mr. Dimmig concerning another event that
took place at the trailer park where the murder
occurred:
Mr. Brown: Did you at some point
become - - some point before trial become
aware of another incident that occurred
at the same trailer park as the murder a
few days before the murder?
Mr. Dimmig: Yes.
Mr. Brown: All right. What do you
remember about the other incident?

138a
Mr. Dimmig:
It was an incident
involving narcotics. There were two
individuals who were taken into custody
and there were questions concerning
whether or not this case - - this homicide
was retaliation for that incident - - for
the reporting of that incident.
Mr. Brown: All right. You said there
were questions. Do you remember why
there were questions about whether it
was retaliation?
Mr. Dimmig: No, I don’t remember
specifically or how that first came to my
attention - Mr. Brown: Okay.
Mr. Dimmig:
thought it.

- - and why I initially

Mr. Brown: Do you remember learning
at some point that the murder victim in
this case had told his mother that people
in the trailer park thought that he had
called the police?
Mr. Brown: Okay. Is that what you were
referencing when you said questions?
Mr. Dimmig: Well, yes, that is what I - but like I say, I don’t remember if I first
heard that or if I heard something else
first and then that later, but yes, that is
what I was referencing when I said that
there were questions about a retaliation.

139a
Mr. Brown: All right. And you said that
there were two people arrested at that
previous incident. Were those two people
Trevor Campbell and Albert Lewis?
Mr. Dimmig: That’s my recollection, yes.
Mr. Brown: And do you recall whether
or not a Dawn Campbell was also
arrested during the incident?
Mr. Dimmig: The name does not sound
familiar. I do remember that there was
a third person arrested.
Mr. Brown: Okay.
Mr. Dimmig: I think I remember that,
yeah.
Mr. Brown: All right. Now did you at
some point before trial become aware
that your office was representing or had
represented Trevor Campbell and Albert
Lewis on charges related to that
incident?
Mr. Dimmig: Yes.
Mr. Brown: Did you become aware of
that fact while your office was
representing those individuals or after
their - - the representation had ceased?
Mr. Dimmig: I believe I became aware of
[sic] while we were still representing
them.
Mr. Brown: Okay.

140a
Mr. Dimmig: I think.
percent certain.

I’m not 100

Mr. Brown: Do you remember how you
became aware of the fact that you were
representing those individuals?
Mr. Dimmig: It is routine practice
within the homicide division of the
Public Defender’s Office that any name
that comes up in association with a case
we run a records check on them and
check to see if we’ve ever represented
that individual. I believe that’s how we
identified that they were clients of the
Public Defender’s Office.
Mr. Brown: Let me ask you a little bit
more about that. Does your office had
any sort of - - or did your office at the
time have any sort of procedure for how
to deal with representing potential
witnesses when you represented a
capital defendant?
Mr. Dimmig: Yes, we did.
Mr. Brown: And what was that?
Mr. Dimmig: As a general rule of thumb,
if we represented a critical witness or a
significant witness in a cap - - if we
currently or ever in the past had
represented a significant witness in a
capital case we would move to withdraw
from the capital client.
Mr. Brown: Okay. And what a about a
situation where you currently represent

141a
a capital defendant and you learn that
you’ve been appointed to cases involving
potential witnesses in the capital
defendant’s case?
Mr. Dimmig: We – if our appointment to
the witnesses occurs after we’re already
representing the capital defendant there
was a policy in place to attempt to catch
those at the time of first appearance and
move to withdraw in the non-capital
clients. Technology being different than
it is now we did not always catch them at
first appearance.
So there was a
procedure in place where we could ask
newly appointed clients if they were codefendants or if they were witnesses in
other cases. And if they disclosed to us
that they were we would move to
withdraw from their cases at that time.
Mr. Brown:
Was priority given to
attempting to keep the capital cases - Mr. Dimmig: Yes.
Mr. Brown: - - where a conflict had not
yet become ripe?
Mr. Dimmig: Yes.
Mr. Brown: Any why were - - why - what was the purpose of those
procedures?
Mr. Dimmig: The procedure to keep - primarily to keep the capital case or - -

142a
Mr. Brown: No. More generally the
procedure to try to recognize witnesses in
capital cases before trial and withdraw
from their cases.
Mr. Dimmig: To avoid ethical conflicts of
interest.
(EH, Vl/108-113)
….
Mr. Brown: Okay. Do you know in this
case whether you withdrew from
anyone’s case?
Mr. Dimmig: My - - while I have no
concrete recollection, my belief is that we
did withdraw from the other two
individuals.
Mr. Brown: Okay.
Mr. Dimmig:
obviously.

We kept Mr. Poole

(EH, V1/113).
The State alleges in its closing that the potential
conflict alleged by the Defendant appears in the record
on appeal and could have been raised, if at all, on
direct appeal. The State asserts that the claim is
procedurally barred as a matter that could have, and,
should have been raised on direct appeal. The Court
believes the State’s argument has merit, but it also
finds that the testimony from the evidentiary hearing
makes it clear that the Defendant’s claim has no merit.
The testimony of Mr. Dimmig presented above
clearly demonstrates that they investigated and found

143a
no conflict of interest that would interfere with their
representation of Mr. Poole.
Furthermore, the
evidence presented leads this Court to conclude that
Mr. Poole’s defense team reasonably believed that it
was able to provide him with competent and diligent
representation. Rule 4-1.7 of the Florida Rules of
Professional Conduct.
A special counsel, Larry
Shearer, was appointed by Judge Roberts to look into
the matter. Judge Roberts found that the Public
Defender’s Office should continue to represent the
Defendant, and that ruling was later affirmed by
Judge Durrance. (EH, V2/229). Mr Dimmig: clearly
made a reasonable tactical decision not to depose
Cambell [sic] or Lewis, out of concern that there was a
risk that information could be developed that would
invalidate the timeline and excluded them as possible
perpetrators of the homicide. The Court finds that the
Defendant has not shown any deficiency by counsel
with regard to Claim 1-3 of his Motion. Additionally,
the Court finds that the Defendant had not presented
evidence that would support a conclusion that the
results of the proceedings might have been different
but for some deficiency by counsel with regard to a
claim of conflict of interest.
Claim 1-3 of the
Defendant’s Motion is denied.
1-4: TRIAL COUNSEL WAS
INEFFECTIVE FOR FAILING TO
CHALLENGE JUROR WILSON
FOR CAUSE, AFTER JUROR
WILSON INDICATED THAT HE
WOULD NOT HOLD THE STATE
TO THE BURDEN OF PROOF
AND WOULD NOT PRESUME
MR. POOLE INNOCENT UNLESS

144a
PROVEN GUILTY, THEREBY
VIOLATING
MR.
POOLE’S
RIGHT TO TRIAL BY AN
IMPARTIAL JURY UNDER THE
SIXTH
AND
FOURTEENTH
AMENDEMENTS [sic] TO THE
UNITED
STATES
CONSTITUTION
AND
CORRESPONDING
PROVISIONS OF THE FLORIDA
CONSTITUTION.
The Defendant alleges, “Trial counsel was
ineffective for failing to strike Juror Wilson from the
jury panel in violation of Mr. Poole’s Sixth Amendment
right to trial by jury. Mr. Poole was prejudiced by trial
counsel’s deficient performance, and this Court should
grant relief.”
In his Motion, the Defendant includes multiple
exchanges that took place between Mr. Dimmig and
Mr. Wilson during voir dire, and he has emphasized
some of the language:
Mr. Dimmig:
So he is presumed
innocent and to overcome that, Mr.
Wilson, where does the burden of proof
lie?
Prospective Juror Wilson: I believe it
belongs with both sides
[...]
Mr. Dimmig: If he starts presumed
innocent, he is an innocent man. And if
the state does not convince you to the
exclusion of and beyond all reasonable

145a
doubt that he is guilty, they don’t carry
their burden of proof, what must he still
be?
Prospective Juror Pearce: Innocent.
[...]
Mr. Dimmig: Okay. Mr. Wilson, how
about you, mentally you can say that’s
the way things work, right?
Prospective Juror Wilson: Like I
said, I have never done this, so I can’t
really tell you. But I would assume it
goes in my mind right, my gut, if my gut
said it was wrong, but I don’t know. I
have never been here, you know.
Mr. Dimmig: Okay, Well, let me ask
you this. Does that made [sic] sense to
you, if you start with the presumption of
innocence, you told us you accept that
and you believe that in your head you
think that’s right, if you start with the
presumption of innocence, right?
Prospective Juror Wilson: Yeah.
Mr. Dimmig: And in your head you
understand the burden of proof lies with
state?
Prospective Juror Wilson: Correct.
Mr. Dimmig: So if you see how those
two come together?
Prospective Juror Wilson:
head.)

(nods

146a
Mr. Dimmig: If we start with the
presumption of innocence and the state
doesn’t prove beyond a reasonable doubt
and to the exclusion of all reasonable
doubt, where you’re left is innocence? I
mean mentally does that make sense to
you?
Prospective Juror Wilson: Yeah, it
looks good that way. But then, you
know, I have not gotten there yet.
Mr. Dimmig: I’m not talking about
where you’re going to be at the end.
Prospective Juror Wilson: Oh.
Mr. Dimmig:
concepts.

I’m just talking about

Prospective Juror Wilson: Yeah. The
concepts - I mean every concept is great.
There is [sic] always laws. There is
always good points, bad points. But I
can’t say, I have not been there yet.
ROA, Volume XV, Pgs. 1607-1610.
Mr. Dimmig: That burden lies with the
state. They have to go to get all the way
there, and the way you judge whether or
not they get all the way there is by
looking at everything, the direction, the
physical evidence and the crossexamination. And in some cases, the
defense case, if you the defense [sic] calls
witnesses. You look at all of it. But what
you’re deciding is, did the state ever get

147a
there, not did the defense prove
innocence. Does that make sense? […]
Mr. Dimmig: Okay. Mr. Wilson, how do
you feel about that?
Prospective Juror Wilson: Well, if I
weigh everything and I feel he is guilty,
then he is guilty. But if he is innocent,
then he will be let free.
Mr. Dimmig: And what if you just don’t
know?
Prospective Juror Wilson: I think
that somehow my God will let me know
in my mind or in my gut, or wherever it
comes from, but I will know you know
before the end of this trial. But I think
that there won’t be a doubt one way
or the other.
ROA, Volume XV,
(emphasis added).

Pgs.

1613-1618

Mr. Dimmig: [...] And let’s see, you have
heard a circumstantial case. And when
it is all done, you say I can put these
circumstances together this way. A
perfectly reasonable way of putting them
together and that means they’re guilty.
But I can also put them together this
way. I can look at it differently, but the
same exact facts and that means he
didn’t do it, that means he is innocent.
Which way do you go?
[...]

148a
Prospective Juror Wilson: Whichever
– if he is proven more innocent, that’s the
way I would go. But if he is proven
guilty, then he is guilty.
Mr. Dimmig: Okay. So you’re going to
weigh them if I’m understanding.
Prospective Juror Wilson:
head.)

(Nods

Mr. Dimmig: This explanation is more
reasonable to me that [sic] this one, so
I’m going with this one. Is that what
you’re saying?
Prospective Juror Wilson: Yes.
Mr. Dimmig: How does that tie in with
the presumption of innocence?
Prospective Juror Wilson:
Well,
innocence is middle ground to me. And I
guess I deal with facts. And the more
facts that I get and information that I
get, the more weight it would carry
whether it was good or bad. I think I
have a good sense, you know, judging
whether something is good or bad. I
don’t know any other way of putting it,
but I guess I use my common sense.
ROA, Volume XV, Pgs. 1622-1623.
[...]
Mr. Dimmig: Okay. Mr. Wilson, I
believe, and correct me if I’m wrong here,
said that he would sort of weigh them.
He would take the construction that

149a
indicates guilt and the construction
which
indicates
innocence
and
whichever one he thought was more
likely, is that right?
Prospective Juror Wilson: Right.
ROA, Volume XV, Pg. 1631.
[...]
Mr. Dimmig: But if you start with the
presumption of innocence and the
burden is on the State or Florida to prove
to the exclusion of and beyond all
reasonable doubt that the defendant is
the one who did it, if there is a reasonable
construction of circumstances that says
he is innocent, what have you got there?
Prospective Juror Wilson:
innocent.

He is

[…]
Mr. Dimmig: Mr. Wilson.
Prospective Juror Wilson: Yes, sir.
Mr. Dimmig: Okay. Now, we have
come to a point different from what you
first indicated. I think haven’t we?
Prospective Juror Wilson: Yes. You
have shown me a little bit different way
of looking at it. And I mean, if that’s the
way it is, then it would have to be there
wouldn’t be any really judging, because
the facts would prove out that he would
be innocent.

150a
[...]
Mr. Dimmig:
For purposes of
discussion, we will put that down here
(indicating) where we have to get is up
here, proof to the exclusion of and beyond
all reasonable doubt. If you don’t have
proof that to the exclusion of and beyond
a reasonable doubt, if you end up here in
here somewhere (indicating). What is
this in here? This is when you’re putting
on the evidence right?
[...]
Mr. Dimmig: You know, you start with
the presumption of innocence. And some
pieces of evidence comes in and you say,
well, that’s a look little bad, that looks a
little worse, but you haven’t gotten all
the way up here yet to proof beyond and
to the exclusion of all reasonable doubt.
What is all of this in here in legal terms?
Prospective Juror Pearce:
doubt.

It is

Mr. Dimmig: What kind of doubt is it?
Prospective Juror Pearce:
reasonable doubt.

It is

[...]
Mr. Dimmig: Mr. Wilson, how about
you, do you understand it?
Prospective Juror Wilson: I’m not
going to say gut anymore. I don’t think,
I believe it is a good way of looking at it.

151a
And once again, I will strive – I have not
come to this point and I can’t tell you one
hundred percent that I would think that
way or with my gut, but I would, I mean,
love to believe that I would weigh
everything that comes in. And if there is
reasonable doubt, then I have to vote
innocent.
ROA, Volume XV, Pg. 1633-34.
At the evidentiary hearing, the defense asked Mr.
Dimmig if he thought his questioning had corrected
the misconception that Mr. Wilson had regarding the
burden of proof. Mr. Dimmig responded, “Yes. I
thought that he understood what the burden of proof
was, that his difficulty was in trying - - he was in - my perception was that the was interpreting the
questions as saying right then during voir dire did he
have a reasonable doubt or didn’t he have a reasonable
doubt. He was trying to project forward in the case
instead of addressing the issue at - - relevant to the
time we were doing the voir dire.” (EH, VI/145).
Mr. Dimmig was asked about why he did not do a
cause challenge regarding keeping Mr. Wilson on the
jury. He responded, “I did not think his responses rose
to the level where a challenge for cause would be
granted. So I believe his understanding was adequate
to get past a cause challenge and then it became a
balancing question of him versus the other jurors that
were available.” (EH, V1/149 - 150).
The Court does not find that counsel’s
performance fell below an objective standard of
reasonableness with regard to not challenging Juror
Wilson For Cause. He actively questioned Mr. Wilson

152a
regarding his ability to properly consider the burden
of proof and the presumption of innocence, and he
made a reasoned decision that any attempt to exclude
Mr. Wilson for cause would have been rejected by the
Court on the basis that Mr. Wilson’s answers indicated
that he would follow the law. Additionally, the Court
does not find that the Defendant can show any
prejudice. To establish prejudice in this matter, the
Defendant would have to show that an actually biased
juror served on the jury. See Carratelli v. State. 961
So. 2d 312 (Fla. 2007). The Defendant did not present
any evidence showing any actual bias by juror Wilson.
The State’s case against the Defendant was a strong
one, and there is no reasonable showing that the
results of the proceedings might have been different
but for some deficiency of counsel with regard to Juror
Wilson. Subclaim 1-4 of the Defendant’s Motion is
denied.
1-5: TRIAL COUNSEL WAS
INEFFECTIVE FOR FAILING TO
OBJECT
AND
MOVE
FOR
MISTRIAL
ON
MULTIPLE
OCCASIONS
WHEN
PREJUDICIAL
HEARSAY
TESTIMONY
AND
OTHER
INADMISSIBLE
TESTIMONY
AND EVIDENCE WAS ELICITED
BY THE STATE, ANDTHIS [sic]
HEARSAY
EVIDENCE
VIOLATED MR. POOLE’S SIXTH
AMENDMENT
CONFRONTATION
RIGHT
UNDER CRAWFORD.

153a
The Defendant alleges, “Trial counsel failed on
multiple occasions to object to improper hearsay
evidence. This deficient performance prejudiced Mr.
Poole, and this Court should grant Mr. Poole relief.”
The First instance raised by the Defendant
involves some testimony from Ms. Arlt., [sic] a crime
scene technician for the Lakeland Police Department.
In his Motion, the Defendant alleges, “[t]he State’s
theory of the case included an assertion that three
video game systems were stolen during the crime, that
these video games had the victims’ blood on them, and
that Mr. Poole sold the video games to Ventura Rico in
the presence of Melissa Nixon.”
The following
testimony came from Ms. Arlt when she was asked
where the video game systems were seized from:
Ms. Arlt: These items were seized from
– an officer collect the from the residents
of the Twelve Oaks Moblie [sic] Home
Park across the street from Mr. Poole’s
home.
Mr. Aguero: Why were you taking
pictures of them at this point.
Ms. Arit [sic]: They had blood on them,
and that was obvious to the people that
phoned in that they had these games for
evidence.
ROA, Vol. XVII, Pg. 2107.
The Defendant alleges in his Motion, “This
exchange contained multiple instances of inadmissible
prejudicial hearsay. Without calling the people who
actually witnessed these events, the State elicited
where the video game systems were recovered, that his

154a
location was across the street from the Mr. Poole’s
residence, that someone had phoned in that they had
this evidence, and that the video games were obviously
covered in blood.”
At the evidentiary hearing, Mr. Dimmig was
asked about a series of video games that Mr. Poole was
alleged to have taken from the crime scene and sold to
Ventura Rico. Mr. Dimmig agreed that there was
DNA evidence on the video games that was identified
by Dr. Robyn Ragsdale of FDLE. Mr. Dimmig said he
did not believe there was any question that there was
blood on the video games and it would be coming into
evidence.
Mr. Dimmig acknowledged that his
recollection was that Ms. Arlt had been a crime scene
technician for a long time and had taken the photos
herself.
He agreed that he was aware of her
qualifications. He agreed that she probably could have
been qualified as an expert at recognizing blood on the
evidence. The following exchange took place between
the Prosecutor, Victoria Avalon, Esq., and Mr.
Dimming about the matter:
Ms. Avalon – And did you particularly
want Mr. Aguero to exhaustively qualify
Ms. Arlt as being an expert witness as to
the identification of a substance similar
or looking like blood?
Mr. Dimmig: No, I didn’t. I didn’t want
to very aggressively challenge things
that I believed were going to be coming
into evidence on counts that I
anticipated we would likely end up
having to concede.
(EH, V2/244).

155a
Ms. Avalon and Mr. Dimmig also discussed the
fact that Ms. Arlt mentioned that the video games
were collected from a house adjacent to Mr. Poole’s
house. Mr. Dimmig acknowledged that he thought at
least one witness gave the address of Mr. Poole’s
house, and he was shown a portion of the trial
transcript on page 2526 where Pamela Johnson gave
the Defendant’s address as 3328 North Florida
Avenue. Mr. Dimmig also agreed that Mr. Rico
described where he lived. Mr. Dimmig agreed that the
information provided by Ms. Arlt came in later from
other witnesses and there was no harm from his
perspective. (EH, V2/246).
The Second instance identified by the Defendant
in his Motion came during the testimony of State
Witness Karen Gaugh, who was called to testify that
her boyfriend’s daughter told her that, “One of her
friends said that this black man came to her house
with a video system with blood on it.” (ROA, Vol. XIX,
Pg. 2334). The Defendant asserts in his Motion, “[a]t
this point, the jury had now heard testimony from two
separate witnesses about a “black guy” selling bloody
video games “across the street from Mr. Poole’s home,”
without having heard from a single witness who
actually had any personal knowledge of the events.”
In the State’s closing argument, the State alleges that
the statement of Ms. Gaugh “was relevant to show how
the police got involved and who they went to next.
That caused the police to go to Mr. Rico’s house. The
fact these games were recovered and had blood on
them was not something the defense was disputing.
(TR. 248).”
The third instance raised by the Defendant in his
Motion, concerns testimony from Mary Beth Byrie,

156a
who was tendered as an expert witness by the State in
the field of footware examination. She testified that a
shoe impression on a vinyl notebook at the crime scene
was a conclusive match to a shoe that was recovered
from the home of the Defendant. She further testified,
“Whenever an identification is made, we have to have
another independent analyst review the work and
confirm or not confirm the identification. In this case
the other analyst did confirm the identification.”
(ROA, Vol. XX, Pg. 2512).
The following discussion took place at the
evidentiary hearing regarding a confrontation clause
objection under Crawford:
Ms. Avalon: Okay. Now, let’s say that
you actually raised a confrontation
clause objection to this or whatever
under Crawford. You potentially could
have. Correct?
Mr. Dimmig: I believe I could have, yes.
Ms. Avalon: And could then Mr. Aguero
have produced the supervising analyst?
Mr. Dimmig: Assuming she was still
available, yes, he could have.
Ms. Avalon: And then you’ve got two
analysts testifying to these results. Do
you particularly want that?
Mr. Dimmig: No.
Ms. Avalon: Beating that point into the
ground?
Mr. Dimmig: Well, again, this was not a
point we were seriously contesting.

157a
Ms. Avalon: Right. It’s one of those
things - - Let me ask you this. Do you - do you want to fight about things just to
fight about them?
Mr. Dimmig: No.
Ms. Avalon: You try to save the fight for
what matters.
Mr. Dimmg: I think that’s critical to
maintain credibility with the jury.
Ms. Avalon: And you were considering
that as things were rolling in front of
you. Right?
Mr. Dimmig: Yes.
Ms. Avalon: Including this point. Right?
Mr. Dimmig: Yes.
(EH. V2/249-250).
The Fourth instance raised by the Defendant
involves testimony given by Melissa Nixon. The
Defendant notes that the parties stipulated that a
video tape of the deposition of Ms. Nixon could be
played to the jury. Ms. Nixon identified Mr. Poole from
a photopack as the person she witnessed sell video
game systems to her friend Ventura Rico. Ms. Nixon
also testified,” My son was look through the bag to see
which one he wanted. But then he found one, he said
blood was on it, and he threw it on the ground.” (ROA
Vol. XX, Pg. 2597).
The Fifth and Sixth instances identified by the
Defendant concerned hearsay that came out during
trial testimony from Detective Bradley Grice, who was

158a
the lead Detective in the case. The Defendant alleges
the defense had presented a theory of defense that
revolved around Trevor Campbell and/or Albert Lewis
committing the crime. The Defendant alleges, “
During his direct examination, the prosecutor asked
Detective Grice, “Did you find out where Mr. Lewis
was up until about 3:00 or 4:00 in the morning on
October 13th of 2001?” (ROA, Vol. XX, Pg. 2649). The
Defendant asserts, “This question clearly called for a
hearsay response, which Detective Grice provided,
stating that Mr. Lewis had been in the Polk County
Jail. This was clearly hearsay evidence even though
the actual hearsay statement was not repeated,
because the statement gave an inescapable inference
that a non-testifying witness had provided Detective
Grice information which negated Mr. Poole’s theory of
defense.” The State asserts that the Detective’s
statements were not testimonial in nature and relayed
easily verified background facts. The State further
notes that Mr. Dimmig during cross-examination of
Detective Grice also elicited that Campbell was
released from jail on Friday night October 12, and
Gary Burton was the person that was asked to pick
him up in Bartow. (V19/2382).
The State also alleges, “[i]n addition, in crossexamining victim (L.W.), defense counsel asked (L.W.)
if detectives had told her that Lewis has only been
released from jail at 4:00 in the morning.” (V19/2447).
Counsel was not ineffective for failing to lodge an
objection where Poole has not cast any doubt on when
Lewis was actually released from jail.” Mr. Dimmig
was also aware that the State could have called the
custodian of the jail as a witness to introduce the
information if it was necessary.

159a
The next instance concerned a photopack that had
been administered to Ventura Rico. The prosecutor
asked Detective Grice about the photopack and he
indicated that Mr. Rico had selected two photographs
that looked like this person that sold him the video
games, and that one of those photos was Mr. Poole.
The Defendant argues that the statement by Mr. Rico
did not fall into the exception for the hearsay rule
involving identification. The State points out that Mr.
Rico was called as a witness by the State and defense
counsel cross-examined him about his out of court
identification of Poole. Mr. Rico acknowledged that he
was shown 15 pictures and picked out two of them.
See ROA, V18/2228. Because Mr. Rico testified at trial
and was subject to cross-examination there is no
confrontation clause violation.
The Defendant has not shown that counsel’s
performance fell below an objective standard of
reasonableness in not objecting to the hearsay
instances he sets forth in his Motion. Defense counsel
was aware that other witnesses would be providing
the same information, had no dispute with the
information elicited, or thought it appropriate not to
give even more emphasis to the information by having
the State call another witness to support it.
Additionally, the Court finds no reasonable basis to
conclude that the outcome of the proceedings might
have been different but for some deficiency of counsel
with regard to the hearsay incidents set forth in
Subclaim 1-5 of the Defendant’s Motion. Subclaim 15 of the Defendant’s Motion is denied.
The Court having denied subclaims 1-1, 1-2, 1-3,
1-4, and 1-5, denies Claim 1 of the Defendant’s Motion.
Given the strong evidence presented by the State,

160a
there is no reasonable basis to conclude that the result
of the proceedings could have turned out differently
but for any deficiency with regard to any or all of the
subclaims under Claim 1. Claim 1 of the Defendants
Motion is denied.
CLAIM 2
MARK POOLE WAS DEPRIVED OF
HIS RIGHT TO A RELIABLE
ADVERSARIAL TESTING DUE TO
INEFFECTIVE ASSISTANCE OF
COUNSEL AT THE PENALTY
PHASE OF HIS CAPITAL TRIAL, IN
VIOLATION OF MARK POOLE’S
FOURTH, FIFTH, SIXTH, EIGHTH,
AND FOURTEENTH AMENDMENT
RIGHTS
UNDER
THE
UNITEDSTATES
[sic]
CONSTITUTION
AND
HIS
CORRESPONDING
RIGHTS
UNDER THE DECLARATION OF
RIGHTS
OF
THE
FLORIDA
CONSTITUTION
AND
UNDER
FLORIDA COMMON LAW.
2-1: TRIAL COUNSEL WAS
INEFFECTIVE FOR FAILING TO
FULLY
INVESTIGATE
AND
PRESENT
A
COMPLETE
MITIGATION CASE.
The Defendant alleges, “Trial counsel was
ineffective for failing to fully investigate and present
mitigating evidence.
This deficient performance
prejudiced Mr. Poole, and he should be granted a new
sentencing hearing.”

161a
2-1.1:
Failure
To
Fully
Investigate
and
Present
Evidence
of
Mr.
Poole’s
Upbringing
and
Familial
History.
The Defendant alleges, “Trial counsel’s was
deficient in failing to fully investigate Mr. Poole’s
upbringing and familial history.
This deficient
performance prejudiced Mr. Poole and he should be
granted relief.”
2-1.2: Trial Counsel Was
Ineffective for Failing to
Present
Testimony
of
a
Neuropsychologist, or Other
Qualified Expert, Regarding
Mr. Poole’s Documented Brain
Damage And Dementia.
The Defendant alleges, “Trial counsel’s was
deficient in failing to present the testimony of a
neuropsychologist to the jury.
This deficient
performance prejudiced Mr. Poole as he would have
likely been given a life sentence if this crucial
mitigating evidence had been presented to the jury.”
2-1.3: Trial Counsel was
Ineffective for Failing to Have
a PET Scan of Mr. Poole
Conducted, and for Failing to
Present the Results of the PET
Scan to Show the Highly
Mitigating Fact That Mr.
Poole Suffered From Brain
Damage
Which
Seriously
Disabled
His
Ability
to

162a
Conform His Behavior To The
Requirements of Law.
The Defendant alleges, “In addition to being
ineffective for failing to call a neuropsychologist to
testify before the sentencing jury regarding Mr.
Poole’s brain damage and dementia, trial counsel was
additionally ineffective for failing to have a PET brain
scan conducted, and to present the results of such a
scan to the sentencing jury. Trial counsel had a duty
to investigate and present a complete mitigation case.”
2-2: TRIAL COUNSEL WAS
INEFFECTIVE FOR FAILING TO
OBJECT
AND
MOVE
FOR
MISTRIAL
WHEN
THE
PROSECUTOR
COMMITTED
PROSECUTORIAL
MISCONDUCT AND MISTATED
[sic] THE LAW ON SEVERAL
OCCASIONS
DURING
HIS
PENALTY
PHASE
CLOSING
ARGUMENT.
The Defendant alleges, “The prosecutor in this
case made several statements during his penalty
phase closing argument that constituted prosecutorial
misconduct and misstated the law regarding
aggravating circumstances and the death penalty in
Florida. Trial counsel failed to object to all but one of
these statements. These failures, individually and
collectively, constituted deficient performance by trial
counsel, and prejudiced Mr. Poole in this case.”
2-3: TRIAL COUNSEL WAS
INEFFECTIVE FOR FAILING TO
OBJECT TO AND MOVE TO

163a
EXCLUDE IMPROPER VICTIM
IMPACT TESTIMONY.
The Defendant alleges, “Trial counsel in this case
was ineffective for not only failing to object to improper
victim impact evidence, but to actually stipulating as
to its admissibility.”
Claim 2 was not considered at the evidentiary
hearing, because the Court had already determined
that Claim 3 would be GRANTED to the extent that
the Defendant was entitled to a new penalty phase
trial in the Court’s “Interim Order On Motion To
Vacate Judgment Of Conviction And Sentence,” filed
on March 31, 2017.
The Court makes no
determination at this time regarding Claim 2 and the
subclaims raised in Claim 2.
CLAIM 3
IN LIGHT OF HURST V. FLORIDA,
HURST V. STATE, RING, AND
APPRENDI, MR. POOLE’S DEATH
SENTENCE VIOLATES THE FIFTH,
SIXTH,
EIGHTH,
AND
FOURTEENTH
AMENDEMENTS
[SIC] OF THE UNITED STATES
CONSTITUTION,
THE
CORRESPONDING
PROVISIONS
OF THE FLORIDA CONSTITUTION
AND ARTICLE I, SECTIONS 15, 16,
AND
22
OF
THE
FLORIDA
CONSTITUTION.
3-1:
MR.
POOLE’S
DEATH
SENTENCE
SHOULD
BE
VACATED BECAUSE IT IS

164a
UNCONSTITUTIONAL
BASED
ON HURST V. FLORIDA AND
HURST
V
STATE,
PRIOR
PRECEDENT
AND
SUBSEQUENT
DEVELOPMENTS BECAUSE MR.
POOLE
WAS
DENIED HIS
RIGHT TO A JURY TRIAL ON
THE FACTS THAT LED TO HIS
DEATH SENTENCE.
3-2: THIS COURT SHOULD
VACATE MR. POOLE’S DEATH
SENTENCE BECAUSE, IN LIGHT
OF HURST V. FLORIDA AND
HURST
V.
STATE,
AND
SUBSEQUENT
CASES,
MR.
POOLE’S DEATH SENTENCE
VIOLATES
THE
EIGHTH
AMENDMENT BECAUSE HIS
DEATH
SENTENCE
WAS
CONTRARY
TO
EVOLVING
STANDARDS OF DECENCY AND
IS
ARBITRARY
AND
CAPRICIOUS.
3-3: THIS COURT SHOULD
VACATE MR. POOLE’S DEATH
SENTENCE
BECAUSE
THE
FACT-FINDING
THAT
SUBJECTED MR. POOLE TO
THE DEATH [sic] WAS NOT
PROVEN
BEYOND
A
REASONABLE DOUBT.

165a
3-4: IN LIGHT OF HURST V.
FLORIDA AND HURST V. STATE,
MR.
POOLE’S
DEATH
SENTENCE
SHOULD
BE
VACATED BECAUSE IT WAS
OBTAINED IN VIOLATION OF
THE FLORIDA CONSTITUTION.
3-5: HURST V. FLORIDA AND
HURST
V.
STATE
APPLY
RETROACTIVELY
IN
MR.
POOLE’S CASE.
3-6: THE HURST V. FLORIDA
AND HURST V. STATE ERROR
IN MR. POOLE’S CASE WAS NOT
HARMLESS
BEYOND
A
REASONABLE DOUBT.
In the Court’s “Interim Order On Motion to Vacate
Judgment of Conviction And Sentence,” filed on March
31, 2017, the Court ruled,” Claim 3 of the ‘Defendant’s
Amended Claim 3 to Vacate Judgment of Conviction
and Sentence is GRANTED to the extent that he is
entitled to a new penalty phase trial. The Court
adopts by reference this ruling in the “Interim Order
On Motion to Vacate Judgment of Conviction And
Sentence.”
CLAIM 4
CUMULATIVE ERROR
The Defendant alleges, “[i]f not individually, the
sum total of all of the aforementioned constitutional
errors warrants relief in this case.” The Court
considered this claim with regard to the various errors
alleged by the Defendant with regard to the Guilt

166a
Phase of the Trial. The Court did not find that
counsel’s performance fell below an objective standard
of reasonableness with regard to Claim 1 and any of
the subclaims made by the Defendant with regard to
Claim 1 of his Motion. Any deficiency by counsel with
regard to any of the claims and subsclaims [sic]
asserted by the Defendant when combined could not
reasonably be viewed as affecting the fairness and
reliability of the proceedings and the outcome of the
trial. Claim 4 of the Defendant’s Amended Motion is
denied with respect to the Guilt phase claims. The
Court makes no determination at this time regarding
cumulative error and penalty phase claims raised by
the Defendant.
Therefore, it is ORDERED AND ADJUDGED
that the Defendant’s Motion To Vacate Judgment and
Sentence is DENIED with respect to his Claims that
he is entitled to a new guilt phase trial. It is further,
ORDERED AND ADJUDGED that the Defendant’s
Motion To Vacate Judgment and Sentence is
GRANTED to the extent that he is entitled to a new
penalty phase trial based on Claim 3 of his Motion To
Vacate Judgment and Sentence. The Defendant has
thirty (30) days to appeal this Order to the Florida
Supreme Court.
DONE AND ORDERED in Bartow, Polk County,
Florida this 9th day of January, 2018.
s/ Jalal A. Harb
JALAL A. HARB,
Circuit Judge
cc:
Mark Poole, #H12548

Gregory Brown, Esq.

167a
Union Correctional
Institution
25636 NE SR-16
P.O. Box 1000
Raiford, FL 32083

David Dixon Hendry, Esq.
James L. Driscoll, Jr., Esq.
Capital Collateral Regional
Counsel Middle Region
12973 N. Telecom Parkway
Temple Terrace, FL 33637

Scott Browne, Esq.
Assistant Attorney
General
Concourse Center 4
3507 E. Frontage Rd.,
Suite 200
Tampa, FL 336077013

Victoria Avalon, Esq.
State Attorney’s Office
225 North Broadway
Avenue
Drawer SA, P.O. Box 9000
Bartow, FL 33831-9000

I CERTIFY the foregoing is a true copy of the original
as it appears on file in the office of the Clerk of the
Circuit Court of Polk County, Florida, and that I have
furnished copies of this order and its attachments to
the above-listed on this 10 day of January 2018.
CLERK OF THE
CIRCUIT COURT
By: s/
Deputy Clerk

168a

Supreme Court of Florida
THURSDAY, APRIL 2, 2020
CASE NO.: SC18-245
Lower Tribunal No(s).:
532001CF007078A0XXXX
STATE OF
FLORIDA
Appellant/CrossAppellee

vs. MARK ANTHONY
POOLE
Appellee/Cross-Appellant

On February 7, 2020, Poole filed a Motion for
Rehearing and Clarification. We deny rehearing but
grant clarification of this Court’s instructions on
remand. Remand for “proceedings consistent with
this opinion” may include resolution of Poole’s
remaining penalty-phase claims that were raised in
his postconviction motion but not addressed on the
merits by the trial court in its order.
CANADY, C.J., and POLSTON, LAWSON, and
MUÑIZ,
JJ.,
concur.
LABARGA, J., concurs in part and dissents in part
with an opinion.
LABARGA, J., concurring in part and dissenting in
part.
I concur in the majority’s decision to clarify that
on remand, Poole is entitled to the resolution of
penalty phase claims raised in his postconviction
motion that were not decided given this Court’s
decision in Hurst v. State, 202 So. 3d 40 (Fla. 2016),

169a
receded from in part by State v. Poole, 45 Fla. L.
Weekly S41 (Fla. Jan. 23, 2020).
However, I remain firmly committed to my
dissent in Poole, and to my position that the opinion
was wrongly decided. I would grant rehearing, and I
dissent to the majority’s decision to deny rehearing in
this case.

s/__________________
John A. Tomasino
Clerk, Supreme Court

so
Served:
JAMES L. DRISCOLL JR.
PARVIN D. MOYNE
Z.W. JULIUS CHEN
MARK J. MACDOUGALL
RACHEL P. ROEBUCK
SCOTT A. BROWNE
DAVID DIXON HENDRY
HON. STACY M. BUTTERFIELD, CLERK
HON. JALAL A. HARB, JUDGE
VICTORIA AVALON

170a
United States Constitution
Amendment VI. Jury trials for crimes, and
procedural rights
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial
jury of the State and district wherein the crime shall
have been committed, which district shall have been
previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be
confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his
defence.

171a
United States Constitution
Amendment VIII. Excessive Bail, Fines,
Punishments
Excessive bail shall not be required, nor excessive
fines imposed, nor cruel and unusual punishments
inflicted.

172a
Florida Statutes
Title XLVI. Crimes (Chapters 775-899)
Chapter 775. General Penalties; Registration of
Criminals
§ 775.082. Penalties; applicability of sentencing
structures;
mandatory
minimum
sentences for certain reoffenders
previously released from prison
Effective: July 1, 2011 to July 30, 2014
(1) A person who has been convicted of a capital felony
shall be punished by death if the proceeding held to
determine sentence according to the procedure set
forth in § 921.141 results in findings by the court that
such person shall be punished by death, otherwise
such person shall be punished by life imprisonment
and shall be ineligible for parole.
***

173a
Florida Statutes
Title XLVII. Criminal Procedure and
Corrections (Chapters 900-999)
Chapter 921. Sentence
§ 921.141. Sentence
of
death
or
life
imprisonment for capital felonies;
further proceedings to determine
sentence
Effective: October 1, 2010 to March 6, 2016
(1) Separate proceedings on issue of penalty.—
Upon conviction or adjudication of guilt of a defendant
of a capital felony, the court shall conduct a separate
sentencing proceeding to determine whether the
defendant should be sentenced to death or life
imprisonment as authorized by § 775.082. The
proceeding shall be conducted by the trial judge before
the trial jury as soon as practicable. If, through
impossibility or inability, the trial jury is unable to
reconvene for a hearing on the issue of penalty, having
determined the guilt of the accused, the trial judge
may summon a special juror or jurors as provided in
chapter 913 to determine the issue of the imposition of
the penalty. If the trial jury has been waived, or if the
defendant pleaded guilty, the sentencing proceeding
shall be conducted before a jury impaneled for that
purpose, unless waived by the defendant. In the
proceeding, evidence may be presented as to any
matter that the court deems relevant to the nature of
the crime and the character of the defendant and shall
include matters relating to any of the aggravating or

174a
mitigating circumstances enumerated in subsections
(5) and (6). Any such evidence which the court deems
to have probative value may be received, regardless of
its admissibility under the exclusionary rules of
evidence, provided the defendant is accorded a fair
opportunity to rebut any hearsay statements.
However, this subsection shall not be construed to
authorize the introduction of any evidence secured in
violation of the Constitution of the United States or
the Constitution of the State of Florida. The state and
the defendant or the defendant’s counsel shall be
permitted to present argument for or against sentence
of death.
(2) Advisory sentence by the jury.—After hearing
all the evidence, the jury shall deliberate and render
an advisory sentence to the court, based upon the
following matters:
(a)
Whether
sufficient
aggravating
circumstances exist as enumerated in
subsection (5);
(b) Whether sufficient mitigating circumstances
exist which outweigh the aggravating
circumstances found to exist; and
(c) Based on these considerations, whether the
defendant should be sentenced to life
imprisonment or death.
(3) Findings in support of sentence of death.—
Notwithstanding the recommendation of a majority of
the jury, the court, after weighing the aggravating and
mitigating circumstances, shall enter a sentence of life

175a
imprisonment or death, but if the court imposes a
sentence of death, it shall set forth in writing its
findings upon which the sentence of death is based as
to the facts:
(a) That sufficient aggravating circumstances
exist as enumerated in subsection (5), and
(b) That there are insufficient mitigating
circumstances to outweigh the aggravating
circumstances.
In each case in which the court imposes the death
sentence, the determination of the court shall be
supported by specific written findings of fact based
upon the circumstances in subsections (5) and (6) and
upon the records of the trial and the sentencing
proceedings. If the court does not make the findings
requiring the death sentence within 30 days after the
rendition of the judgment and sentence, the court shall
impose sentence of life imprisonment in accordance
with § 775.082.
(4) Review of judgment and sentence.—The
judgment of conviction and sentence of death shall be
subject to automatic review by the Supreme Court of
Florida and disposition rendered within 2 years after
the filing of a notice of appeal. Such review by the
Supreme Court shall have priority over all other cases
and shall be heard in accordance with rules
promulgated by the Supreme Court.
(5) Aggravating circumstances.—Aggravating
circumstances shall be limited to the following:

176a
(a) The capital felony was committed by a
person previously convicted of a felony and
under sentence of imprisonment or placed on
community control or on felony probation.
(b) The defendant was previously convicted of
another capital felony or of a felony involving
the use or threat of violence to the person.
(c) The defendant knowingly created a great
risk of death to many persons.
(d) The capital felony was committed while the
defendant was engaged, or was an accomplice,
in the commission of, or an attempt to commit,
or flight after committing or attempting to
commit, any: robbery; sexual battery;
aggravated child abuse; abuse of an elderly
person or disabled adult resulting in great
bodily harm, permanent disability, or
permanent disfigurement; arson; burglary;
kidnapping; aircraft piracy; or unlawful
throwing, placing, or discharging of a
destructive device or bomb.
(e) The capital felony was committed for the
purpose of avoiding or preventing a lawful
arrest or effecting an escape from custody.
(f) The capital felony was committed for
pecuniary gain.
(g) The capital felony was committed to disrupt
or hinder the lawful exercise of any
governmental function or the enforcement of
laws.

177a
(h) The capital felony was especially heinous,
atrocious, or cruel.
(i) The capital felony was a homicide and was
committed in a cold, calculated, and
premeditated manner without any pretense of
moral or legal justification.
(j) The victim of the capital felony was a law
enforcement officer engaged in the performance
of his or her official duties.
(k) The victim of the capital felony was an
elected or appointed public official engaged in
the performance of his or her official duties if
the motive for the capital felony was related, in
whole or in part, to the victim’s official capacity.
(l) The victim of the capital felony was a person
less than 12 years of age.
(m) The victim of the capital felony was
particularly vulnerable due to advanced age or
disability, or because the defendant stood in a
position of familial or custodial authority over
the victim.
(n) The capital felony was committed by a
criminal gang member, as defined in § 874.03.
(o) The capital felony was committed by a
person designated as a sexual predator
pursuant to § 775.21 or a person previously
designated as a sexual predator who had the
sexual predator designation removed.

178a
(p) The capital felony was committed by a
person subject to an injunction issued pursuant
to § 741.30 or § 784.046, or a foreign protection
order accorded full faith and credit pursuant to
§ 741.315, and was committed against the
petitioner who obtained the injunction or
protection order or any spouse, child, sibling, or
parent of the petitioner.
(6)
Mitigating
circumstances.—Mitigating
circumstances shall be the following:
(a) The defendant has no significant history of
prior criminal activity.
(b) The capital felony was committed while the
defendant was under the influence of extreme
mental or emotional disturbance.
(c) The victim was a participant in the
defendant’s conduct or consented to the act.
(d) The defendant was an accomplice in the
capital felony committed by another person and
his or her participation was relatively minor.
(e) The defendant acted under extreme duress
or under the substantial domination of another
person.
(f) The capacity of the defendant to appreciate
the criminality of his or her conduct or to
conform his or her conduct to the requirements
of law was substantially impaired.

179a
(g) The age of the defendant at the time of the
crime.
(h) The existence of any other factors in the
defendant’s background that would mitigate
against imposition of the death penalty.
(7) Victim impact evidence.—Once the prosecution
has provided evidence of the existence of one or more
aggravating circumstances as described in subsection
(5), the prosecution may introduce, and subsequently
argue, victim impact evidence to the jury. Such
evidence shall be designed to demonstrate the victim’s
uniqueness as an individual human being and the
resultant loss to the community’s members by the
victim’s death. Characterizations and opinions about
the crime, the defendant, and the appropriate
sentence shall not be permitted as a part of victim
impact evidence.
(8) Applicability.—This section does not apply to a
person convicted or adjudicated guilty of a capital drug
trafficking felony under § 893.135.

